<html>
<title> - PUBLIC TRANSPORTATION: PRIORITIES AND CHALLENGES FOR REAUTHORIZATION</title>
<body><pre>[Senate Hearing 112-153]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-153

 
  PUBLIC TRANSPORTATION: PRIORITIES AND CHALLENGES FOR REAUTHORIZATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING THE REAUTHORIZATION, PRIORITIES, AND CHALLENGES OF PUBLIC 
                             TRANSPORTATION

                               __________

                              MAY 19, 2011

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                 Available at: http: //www.fdsys.gov /



                  U.S. GOVERNMENT PRINTING OFFICE
71-312                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e293e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>  


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 PATRICK J. TOOMEY, Pennsylvania
MARK R. WARNER, Virginia             MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 JERRY MORAN, Kansas
MICHAEL F. BENNET, Colorado          ROGER F. WICKER, Mississippi
KAY HAGAN, North Carolina

                     Dwight Fettig, Staff Director

              William D. Duhnke, Republican Staff Director

                       Charles Yi, Chief Counsel

               Homer Carlisle, Professional Staff Member

                   Lisa Frumin, Legislative Assistant

                 Andrew Olmem, Republican Chief Counsel

          Shannon Hines, Republican Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                     Levon Bagramian, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                         THURSDAY, MAY 19, 2011

                                                                   Page

Opening statement of Chairman Johnson............................     1
    Prepared statement...........................................    31

Opening statements, comments, or prepared statements of:
    Senator Shelby...............................................     2
    Senator Tester...............................................     3
    Senator Akaka................................................     4
    Senator Reed.................................................     4
    Senator Menendez
        Prepared statement.......................................    31

                               WITNESSES

Peter M. Rogoff, Administrator, Federal Transit Administration...     5
    Prepared statement...........................................    32
    Responses to written questions of:
        Senator Shelby...........................................    80
        Senator Menendez.........................................    82
William W. Millar, President, American Public Transportation 
  Association....................................................    21
    Prepared statement...........................................    37
    Responses to written questions of:
        Senator Shelby...........................................    88
        Senator Menendez.........................................    90
Dale J. Marsico, Executive Director, Community Transportation 
  Association of America.........................................    22
    Prepared statement...........................................    41
    Responses to written questions of:
        Senator Menendez.........................................    93
Larry Hanley, International President, Amalgamated Transit Union.    24
    Prepared statement...........................................    55
    Responses to written questions of:
        Senator Menendez.........................................    93
JayEtta Z. Hecker, Director of Transportation Advocacy, National 
  Transportation Policy Project, Bipartisan Policy Center........    26
    Prepared statement...........................................    73
    Responses to written questions of:
        Senator Shelby...........................................    95
        Senator Menendez.........................................    96

              Additional Material Supplied for the Record

Statement submitted by Transit Riders for Public Transportation..    97
Statement submitted by The National Congress of American Indians.    99
Statement submitted by Wade Henderson, President and CEO, The 
  Leadership Conference on Civil and Human Rights................   100
Statement submitted by multiple groups...........................   104

                                 (iii)


  PUBLIC TRANSPORTATION: PRIORITIES AND CHALLENGES FOR REAUTHORIZATION

                              ----------                              


                         THURSDAY, MAY 19, 2011

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:05 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Johnson, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. Good morning. I call this hearing to 
order.
    Today the Committee holds its first hearing this Congress 
on public transportation as we begin work on a new surface 
transportation bill. This effort will build on a substantial 
hearing record on public transportation and transit safety that 
our previous Chair, Senator Dodd, and Ranking Member Senator 
Shelby worked to establish last Congress. I look forward to 
continuing this effort on a bipartisan basis with Senator 
Shelby, our Subcommittee Chairman Senator Menendez, and all of 
the Members of this Committee.
    This is a very important time to talk about public 
transportation. High gas prices are stretching families' 
budgets across the Nation, and where there is good transit 
service, taking a bus or train to work can make a big 
difference. Unfortunately, few Americans have that option.
    A few days ago, I got a note from Bob Ecoffey on the Pine 
Ridge Reservation in South Dakota. Bob works for the Bureau of 
Indian Affairs. He and his wife, Darlene, also own a Subway 
sandwich shop in Pine Ridge Village. I want to read part of 
this note for the Committee.
    ``Tim, I hope this message finds you well. I heard that you 
will be working on a transportation bill soon. Five of the 
employees at our sandwich shop take a bus operated by Oglala 
Sioux Transit to get to work. You know how vast the reservation 
is, so having a reliable and affordable means to get to the 
store really helps them.''
    I want to thank Bob for sharing his thoughts. It is 
sometimes forgotten, but reliable and accessible public transit 
is vital in rural areas like South Dakota, just as it is vital 
in large urban cities. Our public transit systems connect 
workers with employers, keep cars off congested roads, reduce 
our dependence on foreign oil, and get people where they are 
going safely and affordably.
    We are joined today by Peter Rogoff of the Federal Transit 
Administration and four distinguished leaders from the 
transportation industry. Mr. Rogoff, I share the 
Administration's interest in repairing outdated infrastructure, 
improving safety oversight, and simplifying and consolidating 
existing programs. I applaud President Obama's call to improve 
our transportation system and look forward to working with the 
Administration on a bill.
    The current extension of transit and highway programs runs 
through September 30th. Congress has produced seven short-term 
extensions since 2009, so it is time to get to work on this 
legislation. Getting a long-term bill done will not be easy, 
but I hope that improving transportation is a topic where both 
parties can find common ground.
    With that, I will turn to Senator Shelby for his opening 
remarks. Senator Shelby.

             STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman.
    Today the Committee, as the Chairman has noted, will 
discuss reauthorization of the surface transportation bill, or 
something we call SAFETEA. We are nearly 2 years beyond the 
September 2009 expiration date of SAFETEA and no closer to 
legislation that would allow infrastructure investments to move 
forward.
    While the Administration has provided some technical 
assistance on reauthorization, I believe they have yet to 
transmit a comprehensive proposal. While not surprising, it is 
disappointing and does not provide the leadership required to 
move this process forward.
    I believe we need to work together on a reform effort that 
will promote greater efficiency and effectiveness in public 
transportation systems across America. I hope this can happen.
    As we move forward, I believe that there is much that can 
be done at the Federal Transit Administration to eliminate and 
to reduce many of the duplicative and bureaucratic processes 
that are still in place. State of good repair is also an issue 
that should become a more integral part of the transit program.
    I believe we must institute a system that ensures greater 
accountability and encourages real investment in maintaining 
our aging public transportation infrastructure. By contrast, 
the current system invests in new construction without any real 
consideration for how well existing infrastructure is 
maintained. I believe this needs to be changed.
    Setting aside for a moment the specific issues related to 
the transit title of the authorization bill, I want to speak 
briefly about what I believe is the most significant issue 
surrounding the reauthorization of SAFETEA: the solvency of the 
Highway Trust Fund.
    According to the Congressional Budget Office, the 
expenditures from the Highway Trust Fund will begin to exceed 
revenues as early as August of next year, and by law, the 
Highway Trust Fund may not deficit spend. This restriction 
simply means that before Congress can write a fiscally 
responsible reauthorization bill, it must ensure the long-term 
solvency of the trust fund. While some have advocated for a 
full 6-year reauthorization at current levels, others have 
promoted a 2-year authorization with incremental increases.
    The length of the reauthorization is not as important, 
however, as the need to pay for all of this spending. I believe 
that the best and the most responsible course is a full 6-year 
reauthorization that also ensures the long-term solvency of the 
trust fund.
    I am also deeply concerned about the possibility of a 2-
year authorization that uses gimmicks to mask the financial 
difficulties of the trust fund. We should not go down that 
road. In fact, Mr. Chairman, I believe that most Americans 
would agree that a reauthorization bill that leaves the program 
insolvent or near insolvency upon its expiration I believe 
would be totally irresponsible for the Congress.
    Unfortunately, there are no easy answers here. 
Infrastructure spending is essential to our long-term economic 
stability and growth. Nevertheless, this country cannot 
continue to deficit spend its way out of its problems--we all 
know this--for infrastructure or anything else. Therefore, I 
believe we must begin this discussion here with the realization 
that difficult decisions are going to have to be made. Only 
then can we provide the certainty needed by all interested 
parties.
    Thank you, Mr. Chairman.
    Chairman Johnson. Are there any Members who wish to make 
opening statements? Senator Tester.

                STATEMENT OF SENATOR JON TESTER

    Senator Tester. Well, thank you, Mr. Chairman. I appreciate 
the opportunity. And I would like to thank the Ranking Member 
for his statement. I think we do need a long-term 
transportation bill, and it is going to take some tough 
decisions. It is going to take Democrats and Republicans 
working together.
    I want to welcome Mr. Rogoff here today. You know, I come 
from rural America, and it is not the first place you would 
think about public transportation needs or mass transit, but it 
is important. It is important to get folks to work, to school, 
to the health care that they need, and because of recent 
authorizations, we have been able to do some good things in 
Montana. But the fact is that it is an important link, and it 
is more important every day, especially considering the growing 
number of veterans and the aging population in my State.
    So as we consider transit issues, we need a commitment from 
you to make sure we do not forget about rural America, to make 
sure that when the transit reauthorization is considered that 
you make a commitment to make sure that rural America gets the 
services they need.
    Now, what I am talking about is buses and van systems. 
Light rails do not really work. We do not have it. But the fact 
is buses and van systems do. I can tell you there are many 
communities that do not have any transportation systems. Some 
have just essential air. And those buses and van systems are 
critically important. So hopefully during your testimony you 
can address that.
    The other thing is this: We have the second highest per 
capita in veterans in the State of Montana of any State in the 
Union. We have got seven Indian reservations that need 
transportation. Those vets need transportation. I think there 
are opportunities there for your department to really save some 
money and get better services to both of those communities.
    So with that, I want to thank you very much for being here, 
and I look forward to your testimony.
    Senator Akaka. Mr. Chairman.
    Chairman Johnson. Senator Akaka.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Mr. Chairman, I have a brief statement.
    Chairman Johnson, I want to thank you for holding this 
hearing, and it is good to be here with the Ranking Member, 
Richard Shelby, and Members.
    Public transportation is critically important to Hawaii, 
which currently has the highest gas prices in the Nation and 
the second worst peak rush traffic congestion delays behind 
only the city of Los Angeles. Public transit, the bus and the 
coming Honolulu Rail Project, takes cars off the road and helps 
residents save on fuel while helping the environment. So there 
is a real need for expanded transit in Hawaii.
    Federal support for public transportation programs, both in 
my State and across the Nation, will continue to be necessary 
in order to reduce wasted time, gas, and money.
    Thank you, Chairman Johnson, for calling this hearing so 
that we can examine how to improve and expand mobility for all 
Americans through transit. Thank you and I want to thank also 
the witnesses who are here.
    Thank you.
    Chairman Johnson. Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. I simply 
want to thank and commend Mr. Rogoff for his extraordinary 
leadership. Thank you, Peter.
    I had the privilege of working with you, Mr. Chairman, and 
Senator Shelby on the previous authorization on a very 
productive and bipartisan basis, and I look forward to that 
again.
    Also, just to echo what my colleagues have said, this is no 
longer a rail, northeast, urban issue. This is a national issue 
that touches every aspect of America, and if we are going to be 
productive, we have to have good transit.
    Thank you.
    Chairman Johnson. Senator Bennet, do you wish to have an 
opening statement?
    Senator Bennet. Thank you, Mr. Chairman. I will submit it 
for the record and just thank the witnesses for being here 
today.
    Chairman Johnson. On the first panel, we will be hearing 
from the Honorable Peter Rogoff, the Administrator of the 
Federal Transit Administration at the Department of 
Transportation. Before joining the Administration, Peter worked 
for the Senate Appropriations Committee. We welcome him back 
today.
    Please proceed with your testimony.

 STATEMENT OF PETER M. ROGOFF, ADMINISTRATOR, FEDERAL TRANSIT 
                         ADMINISTRATION

    Mr. Rogoff. Thank you, Mr. Chairman, Senator Shelby, and 
Members of the Committee. I want to thank you for this 
opportunity to be here today to discuss the Obama 
administration's policy priorities for the next authorization 
of our Federal transit programs.
    Just as we experienced 2 years ago, transit agencies around 
the country are experiencing a surge in ridership that is 
attributable in part to gasoline prices hovering around $4 a 
gallon, or in the case of Senator Akaka's State, even higher. 
The Obama administration is determined to implement policies 
and investments that will help the American people keep more of 
their wages in their wallets rather than just hand them over at 
the gas pump. The President's 2012 budget request for the FTA 
and the policy priorities we are presenting to this Committee 
are central to our efforts.
    The reauthorization of our surface transportation programs 
is a critical opportunity to lower our dependence on oil by 
making public transit a safer, more reliable, and more 
desirable choice for more Americans. We must use this 
opportunity to make these necessary investments to ensure that 
we do not lose current transit passengers who have grown weary 
of commutes with deteriorating infrastructure and reliability. 
And we must use this opportunity to put millions of Americans 
to work on sustainable projects that improve our quality of 
life, expand our opportunities for economic growth, and 
maximize the number of domestic jobs created with our own 
taxpayer money.
    The Administration's policy proposals for reauthorization 
are a major step in this direction. While you have a great many 
policy proposals before you, I would like to use this brief 
opening statement to highlight just five priorities that will 
strengthen public transportation and ensure that we invest 
taxpayer dollars wisely.
    First and foremost is safety. Back in December of 2009, the 
Obama administration formally submitted a desperately needed 
rail transit safety bill to Congress. I am very, very grateful 
to this Committee for unanimously passing its own landmark rail 
transit safety bill last June.
    The time to renew action on this important legislation is 
now. The fact is the FTA is still living with an antiquated 
1960s era law that prohibits the Federal Government from 
issuing even the most basic safety regulations that the 
traveling public needs.
    At present, commuter and intercity rail systems serving 
nearly half a billion annual rail passengers are subject to 
voluminous Federal safety regulations administered by hundreds 
of FRA inspectors across the country. By contrast, eight times 
as many rail transit passengers are traveling on systems that 
are subject to no Federal safety standards whatsoever. There is 
almost no oversight since the 27 State agencies that are 
charged with doing it have almost no staff and very little 
experience and expertise.
    The bottom line is we need credible, enforceable minimum 
safety standards for our rail transit systems. While our 
transit systems are safe, a safe way to travel, we continue to 
see too many preventable accidents. Recently we had a derailed 
San Francisco BART train that forced the evacuation of 60 
passengers. We saw a track fire on the MBTA system in Boston 
that left 20 passengers injured, some from serious smoke 
inhalation.
    Mr. Chairman, the status quo when it comes to rail transit 
safety oversight is simply indefensible. This Committee 
recognized that on a bipartisan basis this past June. I implore 
you to once again tackle this issue, and soon.
    Second, we must face head-on the state of good repair of 
our transit systems, as Senator Shelby said. The Administration 
supports a ground-breaking commitment to bring our current 
transit systems into a state of good repair, especially our 
oldest and largest systems that carry millions of passengers in 
and around our major cities every day.
    Just in our seven largest rail transit systems we are 
facing a deferred maintenance backlog of some $50 billion. 
These seven systems serve 80 percent of the rail transit 
passengers in America. If we do not address the need to replace 
their aging assets, we run the very real risk of experiencing 
serious service and reliability problems that make it very 
difficult for working parents to get home in time to see their 
kids at night. This is not acceptable to the Obama 
administration. As such, we have proposed a significant new 
program to invest in the state of good repair of these systems 
and all other transit systems across the U.S., large and small, 
urban and rural.
    Third, we must be cognizant of the challenges faced by many 
distressed transit agencies in meeting operating costs during 
these tough economic times. The fact is some of our public 
transit agencies need help addressing their operating 
shortfalls in the short run. As Secretary LaHood has mentioned 
several times, there is no point in using Federal dollars to 
buy brand spanking new buses for transit systems if they cannot 
afford to pay the drivers to put those buses into service. We 
are proposing assistance that would be targeted and temporary, 
aimed at economically distressed urbanized areas with 200,000 
or more in population, and phased out over 3 years.
    Even in a year when the Recovery Act boosted Federal 
funding for transit by 80 percent, we still saw service 
reductions to the public because of downturns in State and 
local revenues. The Administration is determined to address 
this issue with our eyes wide open so that transit systems and 
service to the public are not reduced.
    The Administration also supports streamlining and 
consolidating some of our core transit assistance programs. It 
goes to the heart of, I think, what Senator Shelby was talking 
about in terms of getting more efficiency and getting rid of 
duplication in our programs. Reauthorization is an opportunity 
to do just that, and our policy proposal would transform the 
New Starts program into a more streamlined process for funding 
the construction of new projects. The goal is to create more 
jobs quickly, complete projects faster, and provide transit 
users with real transportation options sooner rather than 
later.
    Similarly, we propose consolidating programs that would 
particularly ease the administrative burden now placed on many 
of our smaller and rural transit operators that are short on 
staff resources and have a hard time putting their relatively 
small formula apportionments to use in a manner that maximizes 
benefits to the public.
    Finally, we are proposing changes to the contracting laws 
governing FTA programs to maximize the employment benefits that 
occur as a result of taxpayer investments in public transit. At 
present, the Buy America rules for FTA investments dictate that 
60 percent of transit vehicles and vehicle prototypes purchased 
with FTA dollars must occur in the United States.
    The Obama administration is proposing to phase in a 
standard that will require 100 percent of such vehicles and 
components be produced in the United States. This standard 
would increase 10 percent per year until we reach 100 percent 
domestic content in 2016. This will allow vehicle manufacturers 
the opportunity to partner with U.S. vendors and the time to 
relocate manufacturing activities within the United States. It 
will also ensure that the highest-value design and engineering 
jobs associated with these taxpayer investments are located 
right here in the United States.
    Mr. Chairman, this concludes my testimony. I look forward 
to answering your questions through Q&A. Thank you.
    Chairman Johnson. Thank you for your testimony.
    As we begin questioning the witness, I will ask the clerk 
to put 5 minutes on the clock for each Member's questions.
    Mr. Rogoff, given the Administration's interest in helping 
transit systems bring their vehicles and infrastructure up to a 
state of good repair, can transit agencies make progress toward 
that goal and other important goals like improving safety if 
the Federal role in transportation and the level of Federal 
investment and transit is diminished in any way?
    Mr. Rogoff. I would say no, Mr. Chairman. We have proposed 
an ambitious growth path for funding specifically for state of 
good repair because, you know, our studies indicate not only a 
$50 billion deferred maintenance backlog in those seven rail 
systems I spoke of, but a $78 billion backlog across the entire 
industry.
    This cannot just be a Federal burden. All of municipal 
government, State government, Federal Government I think needs 
to step up to address this problem, and if we do not, we run 
the very real risk of losing the handle and losing ridership at 
a time when we should be seeking more ridership given where gas 
prices are heading.
    Chairman Johnson. The concept that multiyear funding is 
critical to building and maintaining public transportation 
systems is well documented. It does not matter if you are a 
small agency or a large one. To plan investments effectively, 
you need to know what funds will be available. In the 1990s, 
Congress established protections in the budget process to 
ensure that funds authorized were delivered. Those guarantees 
have broken down, and in this period of multiple extensions, 
agencies have been even less certain about future funding.
    Mr. Rogoff, is uncertainty delaying critical investments at 
agencies? Are we falling further behind in upgrading aging 
facilities and vehicles?
    Mr. Rogoff. Well, I would not say that we are necessarily 
falling behind at the current moment because we still have a 
lot of Recovery Act money that is in the hands of agencies. A 
lot of that surge in Recovery Act spending did some very 
positive things, not only in creating jobs and maintaining 
jobs, but also allowing transit agencies to bite off some of 
those projects that were just very hard to cobble together 
enough money for--major bus maintenance facilities. And I 
should say last year we also competed a chunk of discretionary 
bus monies specifically for state of good repair.
    That said, over the long term, your point is well taken, 
and that is, uncertainty not only as it relates to the stream 
of Federal funds but uncertainty as it relates to State and 
local funds is putting a damper on investment, and without some 
kind of certainty, it is very difficult for transit agencies to 
decide to bite off and launch forward and make those major 
investments, whether it is an expansion of their system or just 
necessary maintenance of their current system.
    Chairman Johnson. The Committee has followed the 
Administration's efforts to speed project development in the 
New Starts program. We will be looking closely at ideas to 
eliminate steps in the process that duplicate environmental 
review and planning requirements, and we will look for 
opportunities to reduce the number of formal approvals that can 
leave a project in limbo.
    Under our reformed New Starts process, will the level of 
project analysis be any less rigorous?
    Mr. Rogoff. I would not say it would be less rigorous, but 
it is certainly our goal to expedite it. We have found that the 
amount of time that it takes to get a project from beginning to 
end in some ways endangers that project, because when you have 
a critical mass of local support and local funding to match the 
Federal funding, that local commitment also has a shelf life. 
And if the project approval process takes too long, we run the 
risk of losing the local support.
    We have a number of proposals before you that would 
eliminate two separate alternatives analysis proposals. I think 
it goes to the heart of what Senator Shelby was talking about 
as it relates to duplication. Right now we have one 
alternatives analysis proposal that is required under NEPA. We 
have a slightly different alternatives analysis proposal that 
is required for the FTA, and that duplication is just eating 
time. It is spending money on consultants that we do not need, 
and it is something that we can do in concert with one another.
    Similarly, our proposals anticipate that we would eliminate 
one of the major approval processes. Rather than separately 
admit projects into preliminary engineering and then in final 
design, we would do that approval process just once and in so 
doing I think get rid of a good chunk of the bureaucratic time 
that gets eaten up in program reviews and get these projects 
deployed more quickly.
    Chairman Johnson. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    The Administration's budget, as I understand it, proposes a 
128-percent increase in funding for public transportation. This 
translates into $119 billion over a 6-year authorization bill. 
How does the Administration intend to fund this proposal given 
the constraints on the trust fund?
    Mr. Rogoff. Well, as was the case not only for the public 
transit piece but also for the highway piece, the 
Administration has signaled its very strong willingness to sit 
with the Congress and work out those funding proposals soon. 
There is no question that we need to come together on a 
bipartisan basis, both----
    Senator Shelby. It is still a lot of money, is it not?
    Mr. Rogoff. It is, and we think it is merited, especially 
given the trends that we are seeing in issues like the state of 
good repair challenge and some of the issues that Senator 
Tester----
    Senator Shelby. Where is it going to come from?
    Mr. Rogoff. Well, there are a lot of options that have been 
talked about, but I think the most important thing where we are 
going to make progress is to have that dialog between the 
Administration and the Congress and figure out what mix of 
resources is going to get us to these funding levels.
    Senator Shelby. I am also concerned that we continue to 
make investments--and I mentioned this in my opening 
statement--in infrastructure without any state of good repair 
requirement. For example, there is a significant maintenance 
backlog for rail transit systems, yet these same systems have 
received billions of Federal funding for new projects.
    Does the Administration believe that the Federal Government 
should continue to make investments in new or expanded fixed 
guideway systems without a state of good repair requirement? 
What in your view can be done to ensure that infrastructure 
assets are adequately maintained here?
    Mr. Rogoff. Well, we are doing a number of things----
    Senator Shelby. And is it as big a problem as I think it 
is?
    Mr. Rogoff. I think for certain cities it most definitely 
is.
    Senator Shelby. OK.
    Mr. Rogoff. While I would just as soon not identify them by 
name, I would say this: In our State of Good Repair Initiative 
that we have put forward, we do have a process by which we 
intend to monitor the asset management efforts of all these 
agencies.
    Senator Shelby. And what does that mean by monitoring? I 
know that is like oversight, but----
    Mr. Rogoff. Well, what we will be doing is right now----
    Senator Shelby. ----are you deeply involved in what they 
are doing?
    Mr. Rogoff. Well, they will be reporting to us through the 
national transit database to which they submit annual reports 
currently under law what the condition of their assets are. And 
if we are not seeing them--if we are giving them money as part 
of this State of Good Repair program and we are not seeing any 
progress in buying down their state of good repair backlog, we 
are going to know there is a problem, and we are going to talk 
to them about it.
    Now, you asked another question, and that is as it relates 
to the New Starts program and whether we should be expanding 
the footprint of these agencies when we know they are not 
adequately investing in their current footprint.
    Senator Shelby. That is right.
    Mr. Rogoff. I have spoken publicly about that before, and 
it is a source of great concern for me.
    I will say we are putting some threshold tests in approving 
projects through the New Starts process where they do need to 
demonstrate to us that they have the adequate funding stream to 
maintain their current system. I will mention one by name 
because this is all on the record. The Third Street Project in 
San Francisco is a very important expansion in rail for the 
Muni system, but we also know that the Muni system is 
struggling to be adequately capitalized. And as part of our 
discussions about advancing that project, we are simultaneously 
monitoring their budgets for their state of good repair.
    Senator Shelby. Good. I know Senator Bennet from Colorado 
is here. He might get into this, too, but I will proceed. 
SAFETEA included a public-private partnership pilot program for 
public transportation. The program's goal of encouraging 
innovative financing and speeding project delivery through the 
program has not been achieved, I believe. In fact, the one 
surviving project, the Denver Eagle P3 Project, is still 
awaiting its full funding grant agreement despite having 
attracted a significant amount of private financing.
    Some of us are concerned that FTA is inflexible here with 
regard to the New Starts process and that inflexibility has 
caused the program to be ineffective and may have scared off 
potential private investors, which we do not need to do.
    Could you comment on the lessons you have learned from the 
Denver project? And how could the process be changed to achieve 
true streamlining for the partnership between private and 
public money? Because we are going to need it in the future, 
are we not?
    Mr. Rogoff. Yes, sir. I mean, public-private partnerships 
do hold promise in transit projects, and you are correct that 
the Denver Eagle projects has been not only our most successful 
example, but frankly, the only example in that----
    Senator Shelby. It is the only one you have, is it not?
    Mr. Rogoff. That is right. There were three projects as 
part of that so-called Penta-P private-public partnership 
program----
    Senator Shelby. What happened to the others----
    Mr. Rogoff. Well, I would tell you, sir, that I do not 
believe your characterization is necessarily accurate, that 
those other projects fell apart because of the FTA process.
    Senator Shelby. Mm-hmm.
    Mr. Rogoff. I think those other projects fell apart because 
of what happened in the markets----
    Senator Shelby. OK.
    Mr. Rogoff. ----and this Committee knows that dynamic 
better than anyone.
    Senator Shelby. The economy took a toll----
    Mr. Rogoff. Yes, sir, and what we saw was that the private 
participants and the other two that were supposed to be 
participants in the financing of the other two projects, both 
in Houston and in Oakland, left the building. While I agree 
that FTA needs to do a better job of deploying its projects 
more quickly, I think those challenges are addressed in the 
policy proposals before you that we have to streamline the New 
Starts process.
    You were asking an interesting question, and that is do we 
need a different process for public-private partnerships, and 
that is a good one that I think we should look at, because----
    Senator Shelby. Are you looking at a possible different 
configuration?
    Mr. Rogoff. Well, we are looking at a different 
configuration for all of our New Start projects. I would say, 
you know, I do not think Denver has necessarily suffered. We 
have signed probably one of the largest letters of no prejudice 
so part of the Denver project could get under construction 
already, and we look forward to signing a full funding grant 
agreement to nail down our contribution within the next 45 
days, I believe. So they are making good progress in Denver, 
but you are right that we should be looking at our processes to 
make sure that we are not scaring away the private sector.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and again, 
thank you, Mr. Rogoff, for your great leadership.
    We are in an economic downturn and the question that a lot 
of Rhode Island transit officials ask me about is not capital, 
but operating relief----
    Mr. Rogoff. Sure.
    Senator Reed. ----and I wonder if there is any thought to 
provide on a temporary basis access to some Federal resources 
for operating relief to avoid cancellation of routes and fare 
increases.
    Mr. Rogoff. There is, and as I said in my opening 
statement, we do have a proposal before you to extend operating 
assistance on a temporary and targeted basis. The way this 
program would work would be that of the formula funds that your 
transit operators can receive--this really, I should first 
point out, only applies to transit operators in communities of 
200,000 or more. Communities smaller than that can use any 
amount of their Federal funds for operations that they care to.
    But for those at 200,000 or more, we have said that they 
could use in the first year 25 percent of their--up to 25 
percent of their funding for direct operating costs, declining 
to 15 percent in the second year, 10 percent the third, and 
then zero. The idea is to really--our sole focus here is 
preserving service, especially given what is happening with gas 
prices. We are not comforted by service reductions, especially 
when ridership is increasing.
    I think in the economic--at the beginning of the recession, 
we saw service reductions, and I think some general managers 
will tell you they took off maybe some of the lesser-used 
service. Now, we are running the risk of losing some service 
that is really essential to significant cohorts of the 
population, and, therefore, we have put forward a proposal on a 
temporary and targeted basis, targeted on communities that have 
had significant unemployment, like Rhode Island, that could 
address this issue at least on a temporary basis.
    Senator Reed. Thank you very much. In a similar vein in 
terms of flexibility of funds, there is actually authority for 
the State DOT to flex some of their funds to assist our RIPTA, 
which is a Statewide bus system, and they have used it 
essentially to buy hybrid electric buses. What impact has this 
flexing authority had on transit investment nationwide? Has it 
helped or is it kind of spotty?
    Mr. Rogoff. No, I would say it has helped it quite a bit. I 
mean, if you look over the life of the SAFETEA-LU law, States 
at their own discretion have flexed over $6 billion over to 
transit, an average of more than $1 billion a year. That 
effectively means that the Federal Transit Administration 
investments have been augmented a full 10 percent or more each 
year by States choosing to flex some of their highway funds, 
either from the STP Program or CMAT Program, over to transit, 
and some of our real game-changing investments have occurred 
because they have been able to put together the FTA 
contribution with some flexed highway dollars. Even in the 
Recovery Act, we saw more than $460 million of highway funds 
flexed to transit.
    So it is clearly a choice that local stakeholders and 
Governors like to have. It is spotty in this respect, in that 
not all States have done it, but the fact is that a great many 
States have and it is an important proposal. And in our policy 
proposals, again, this has been sent to the Public Works 
Committee, but in the proposals that we have sent over there, 
there is a change to the flexing provision that would come out 
of the so-called Highway Livability Program. But it will remain 
an important tool that transit agencies are going to need.
    Senator Reed. Just a final quick question. Senator Tester 
has pointed out how his State of Montana relies on buses.
    Mr. Rogoff. Right.
    Senator Reed. Another big State in the country, Rhode 
Island, relies on buses. And a lot of the transit orientation 
was on rail or subway, et cetera. And so the question is, will 
your proposals continue to support the Statewide buses, or 
regional buses in the case of Montana, and also particularly 
with respect to the State of Good Repair, the kind of deferred 
maintenance, which is another huge challenge? I just have a few 
seconds.
    Mr. Rogoff. Yes. I want to make clear that our State of 
Good Repair Initiative definitely incorporates systems like 
RIPTA so they can stay on top of their maintenance facilities, 
so they can make sure that they have a modern fleet. And the 
reality is, while we talk a good bit about rail systems, the 
majority of transit trips in America today are still taken by 
bus and we have not lost our focus there.
    Senator Reed. Thank you very much. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Administrator Rogoff, I want to thank you publicly, you and 
Secretary LaHood, for taking the time to come to Hawaii in 
March to meet with me and other members of the delegation on a 
wide variety of transportation projects throughout our State. I 
appreciate all of the work that you have done and the clarity 
you promoted over the years on the Honolulu High Capacity Rail 
Project.
    Can you discuss the Federal funding commitment to the 
Honolulu Rail Project and what benefits expanded transit 
funding could have for projects across the Nation?
    Mr. Rogoff. Well, sure. As you pointed out in your opening 
statement, Senator, I think, and in information that is a 
surprise to a great many Americans, Honolulu and Oahu, in 
particular, has some of the most punishing congestion in the 
United States, and the Honolulu Rail Project, obviously, is 
something that we support quite strongly. This project has 
taken a long time to get off the ground, as you know. It has 
sort of been derailed twice before, and the only thing that has 
happened is the congestion on H-1 has gotten even worse. As was 
also pointed out, there is a good bus network in and on Oahu, 
but the reality is, when you have got a congested road network, 
there is only so much you could accomplish with buses.
    So we, in our budget for 2012, have proposed $250 million 
specifically for the Honolulu Rail Project and we are hopeful 
of admitting that project into final design. We are currently 
reviewing their financial plan. We did recently conclude a risk 
assessment, where we found that the risk was actually under 
control and the local authority's proposal to lower the cost 
estimate was reasonable based on how much of the project they 
have gotten under contract.
    So this is the kind of project that will really be about 
traditional congestion relief. It will be about getting working 
people from the West side of Oahu over to the east side and 
home in time to see their kids when they are awake, and it 
mirrors a lot of what can be accomplished elsewhere in the 
country.
    Senator Akaka. Thank you. Administrator Rogoff, can you 
please describe how the FTA, working with State and local 
governments to ensure that costs for projects like the Honolulu 
Rail Project are managed effectively?
    Mr. Rogoff. Well, our involvement with a project does not 
end when we sign a full-funding grant agreement. What we then 
do as the project is in construction is have what is called a 
PMOC, Project Management Oversight Consultant, onsite, 
observing construction patterns, keeping a monitor on costs, 
working to make sure that the project comes in on time and on 
budget, and when we see them going off that curve, we have some 
conversations about how we can get an improvement plan or a 
project management plan in place to keep the project on time 
and on budget. Our methods are not always perfect, but we have 
had steady improvements in terms of the number of projects that 
are coming in and on budget over the years.
    Senator Akaka. Thank you. Administrator, bus operations on 
Maui, Kawaii, and Hawaii Island are some of the fastest growing 
bus transportation systems in America. However, they are 
relatively small in terms of the number of buses operated. In 
the past, the Congress assisted in funding the capital costs of 
many of these fast growing bus transportation systems through 
the bus and bus facilities programs. What other programs could 
our rural bus operators use for capital assistance for their 
rapidly expanding operations?
    Mr. Rogoff. Well, there are a few. As I mentioned to 
Senator Reed, our State of Good Repair Program will help them 
make sure that they have the funding to replace their fleet, 
and those projects--I have had the opportunity to visit the bus 
provider on Maui and you are correct that they are one of the 
fastest growing players in the country. And when you are trying 
to provide mobility around an island that just has a perimeter 
road and you have gas prices the highest in the Nation, as you 
pointed out, those bus services are very critical.
    Now, in addition to the State of Good Repair Program for 
fleet replacement, we are proposing substantial growth as part 
of our policy proposals for the bus facility program, and our 
support under that program would grow as quickly for rural 
communities as it would for urban communities, and therefore, 
the outer islands would get the benefits of that growth, as 
well.
    Senator Akaka. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Johnson. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, and once again, 
thank you for being here, Chairman Rogoff.
    In my opening statement, I talked about the Department's 
commitment to rural America and what can be done there. There 
are many towns, as I said earlier, that have no public 
transportation. They have no access to getting folks to 
doctors, as an example. What is the Administration plan for 
that? Is it to just leave it the way it is, or is there going 
to be some opportunity to work with local governments to deal 
with buses, vans, those kind of things?
    Mr. Rogoff. Well, let me say, as I mentioned while you were 
out of the room, sir, we are looking to substantially boost 
funding for rural transit. As you know, funding for rural 
transit more than doubled under the SAFETEA-LU Program and we 
want to continue that progress.
    I think there are huge opportunities specifically in one 
area that you cited, and that is dealing with what we refer to 
as medical transportation and getting people to the doctor, 
getting--you discussed the need of veterans in Montana. I will 
tell you, we have had a number of fruitful conversations 
recently with HHS and the VA and DOD on how we can better 
address that, and you will be hearing more about that in the 
future.
    I think, importantly, in the area of medical 
transportation, this is not just a mobility investment. We save 
the taxpayer a lot of money, a lot of money in the Medicare and 
Medicaid programs, when we can keep people living in their 
homes and providing the necessary transportation to get to even 
those distant medical visits. And also, high gas prices impact 
everybody.
    Senator Tester. Yes.
    Mr. Rogoff. So we are trying to do a lot to put mobility 
managers, to get sort of out into the field to get the maximum 
utility out of the vans that are out there.
    Senator Tester. Flexibility in discretionary ability is 
very, very important. Let me just give you an example. Two 
weeks ago, I was in the center of the State of Montana. They 
have Essential Air Service, but oftentimes that gets--even 
Essential Air Service is too pricey for what we want to have 
happen. They want to set up or at least get connected in with a 
bus system or a van system. They think they have the ridership 
to support it. How do they do it?
    Mr. Rogoff. Well, right now, as part of our policy 
proposals, we would require agencies to continue to spend 15 
percent of their funding on intercity bus----
    Senator Tester. This is connecting between towns.
    Mr. Rogoff. Right. That is right. And that is why I say 
intercity.
    Senator Tester. OK. I have got you.
    Mr. Rogoff. And a lot of the challenge there is in enticing 
an operator to the table. But we can help subsidize those 
operations, and I would agree with you that in a number of 
communities, the Essential Air Service Program does not 
necessarily meet all of the mobility needs at all income levels 
for those communities.
    So when I was first confirmed by this Committee, sir, we 
talked about my coming out to Montana, and if I could host a 
meeting out there and sort of try to bring the players 
together, I would love to do it.
    Senator Tester. OK. Thank you. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman.
    Thank you, Mr. Rogoff, for your testimony, and I also want 
to thank the Ranking Member for highlighting the project in 
Denver and I appreciate the conversations we have had about 
that project as well as the Roaring Fork Valley and other 
things across the State.
    I heard in the answer to the Ranking Member that you hoped 
that you would be signing the full funding grant agreement with 
the folks in Denver in the next 45 days. Is that--that is on 
track?
    Mr. Rogoff. Well, it is on track. We sent out--we are at 
the last hurdle, and namely, that is the required 60-day review 
period for--we have transmitted the full funding grant 
agreement to this Committee and the Appropriations Committees 
for 60 days' review. That is required under law. I would point 
out, we are asking the Committee's defence, and among our 
policy proposals is that that period be shrunk to 30 days, 
again, in the interest of moving projects more quickly. But 
once that is complete, which I believe should be early June--
excuse me, early July, right at the end of June, early July, we 
should be in a position to sign the full funding grant 
agreement.
    Senator Bennet. Great. I appreciate that very much.
    You know, one of the things over the last couple of years 
we have talked about in town halls in Colorado--and when I am 
saying ``we,'' I do not mean me, I mean the people that come to 
my town halls--there is a lot of focus on our debt and our 
deficit, as there should be. We have to fix this. We have got 
to straighten this out. But when you think about it, the 
situation is actually much more grave than just the $1.5 
trillion deficit we have, the $15 trillion debt, and that is 
that as a generation, we have not bothered even to maintain the 
assets that our parents and grandparents built for us, much 
less build the infrastructure we are going to need in the 21st 
century.
    So I am encouraged by the fact that the Administration has 
included the idea of an Infrastructure Bank in its budget. I 
wonder if you would talk a little bit about what that financing 
structure would look like, how we can maximize it. Some days, I 
drive around our State and the roads have been smashed into 
smithereens. The transit lines are not doing what they need to 
do. We need to do better than that, and maybe this is one 
mechanism for helping.
    Mr. Rogoff. Yes, sir. We are strong supporters of an 
Infrastructure Bank, not obviously just to get to the transit 
challenge, but also to look at major highway bridges and other 
entities like that. I talked earlier with Senator Shelby about 
the impact on private financing. When the markets collapsed, 
that was a big game changer for some of our credit assistance 
programs at DOT. When I worked for the Appropriations 
Committee, and even in a period when Senator Shelby chaired 
that subcommittee, we would rescind some of the money that was 
available in the so-called TIFIA Program because it was 
undersubscribed. That is a credit assistance program for a 
number of different investments, highway or transit. Now, the 
TIFIA program is way oversubscribed, in part because of the 
importance of having some kind of Federal loan guarantee or 
Federal loan to augment private financing.
    The President is a very strong supporter of an 
Infrastructure Bank. In fact, he was a cosponsor of a proposal 
when he was here in the Senate. And we think that given the 
increased volume that we have with the RRIF Loan Program in the 
FRA, the TIFIA Program, which is really run out of the 
Secretary's office, and the increasing number of applications 
we are getting that can bring private investment to bear in 
partnership with public investments, we think there is huge 
potential there, and we have a multibillion Infrastructure Bank 
proposal as part of our policy proposals here in the Congress.
    Senator Bennet. I would look forward to working with you on 
that, and I would say, in the context of your answer to Senator 
Tester, who I align myself completely with his observations 
about the importance of transit in rural Colorado as well as 
Montana, that the bank may be a place, also, where we can 
encourage further regional collaboration and approaches, 
transit-oriented development, transit itself, and I hope that 
we are thinking about that as we design the financing 
mechanism.
    The last thing I just wanted to go back to is something in 
your testimony. You mentioned the importance of passing the 
transit safety bill, and we did pass that bill in this 
Committee last year. It did not pass the Senate. As you know, 
and we talked about this earlier, with your help, we are 
expanding our light rail system in Denver and new commuter rail 
service out to Denver International Airport. In the absence of 
passing this safety bill, if we do not do it, who is it that is 
going to--where is the oversight going to come from for 
projects like this?
    Mr. Rogoff. Well, I have got to tell you, sir, Denver 
really points up the absurdity of the status quo when it comes 
to Federal rail safety oversight, because as you pointed out, 
you are simultaneously expanding a light rail system and you 
are building commuter rail out to the airport. They are all 
going to converge at Denver Union Station. Without any change 
in the law, at Denver Union Station, you are going to have the 
Federal Railroad Administration, who has hundreds of inspectors 
and a very lengthy regulation, which I should say we do not 
want to duplicate but we do want to have some regulatory 
authority--at Denver Union Station, you are going to have 
Amtrak coming in and your commuter rail coming in and they will 
be inspected by the FRA. And on one track over, you are going 
to have light rail, the oversight of which is left to a State 
agency with one, maybe two employees, very underfunded, very 
undercapitalized, with very little expertise.
    It is identical to the situation we had at the site of the 
Fort Totten crash at Washington Metro. You had an Amtrak line. 
You had the MARC commuter rail line. And you had the Washington 
Metro line. And there was voluminous Federal oversight on two 
of those tracks, and on the third track, there was close to 
nothing, and that is the status quo we have and it really is 
not defensible.
    Senator Bennet. Well, I appreciate your testimony.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Chairman, I have a statement that I would like to 
include for the record.
    Mr. Administrator, I appreciate what you said earlier with 
reference to creating some flexibility on the emergency 
operating assistance. You know, we see that at a time of 
economic crisis and $4 a gallon gas that ridership on public 
transportation systems have increased, and at the same time, 
many agencies, including New Jersey Transit, have either raised 
fees or cut service. So I appreciate, hopefully, that element 
of helping out in this time period be actually pursued 
vigorously, because otherwise, we are going to undermine the 
very essence of the systems we already have.
    I am wondering, older, well-established systems have been 
running for years, often have high ridership and are operating 
at or beyond capacity. How do you think we can best address 
these capital-intensive projects to expand capacity, because we 
already have a proven system that is working and has ridership? 
They do not seem to fit in the New Starts Program systems and 
they do not have enough formula funds to address this, either.
    Mr. Rogoff. Well, I would say that that is certainly true. 
Perhaps in the current funding trajectory, a rail-heavy system 
like New Jersey Transit that obviously runs both buses and 
rail, I think our proposed 300-percent increase into 2012 for 
State of Good Repair investment would really help them tackle 
some of their major maintenance efforts that they need to 
undertake and thus, hopefully, free up dollars for expansion.
    We are committed to both, because, obviously, the 
President's goals of lowering our dependence on oil, lowering 
greenhouse gas emissions, we want to see transit ridership 
grow, but we want it on projects that are safe and well 
capitalized.
    So I think when you look at a proposal to substantially 
increase our investment, the numbers that Senator Shelby 
pointed out earlier, in public transit, if we have an adequate 
partner in New Jersey Transit, we can make progress on 
expansion.
    Senator Menendez. Now, an adequate partner. What does that 
mean?
    Mr. Rogoff. A partner that is putting more skin in the 
game, just as the Federal Government would.
    Senator Menendez. Let me ask you, there seems to be some 
consensus that reauthorization should establish goals for the 
national program and that State, regional, and local 
performance measures should be tied to those goals. But when we 
start discussing just what those goals or measures should be, 
things get a lot more controversial. Do you have any specific 
proposals for national transit goals or local performance 
measures?
    Mr. Rogoff. Well, we are supportive of performance 
measures. Let me point out one that I discussed a little bit 
earlier with Senator Shelby, and that was in our State of Good 
Repair Program, we want to do a much more aggressive oversight 
and reporting system to actually monitor that the funding that 
we are putting out for State of Good Repair is actually going 
to buying down that backlog. That would be, if you will, the 
reporting of that data and monitoring of that data would be a 
condition of receiving the assistance, because we really--it 
sort of goes a little bit to what Senator Shelby was speaking 
to, and that is if we just sort of put the money out there 
without a lot of oversight, you could get into a situation 
where you have put out a great deal more money in the name of 
State of Good Repair, and 5, 10, 15 years down the road, you 
have not really made any progress.
    And an important key to that is something we are very big 
supporters of, and that is an asset management program. We have 
some transit agencies that know where all their assets are and 
do a very good job of monitoring their condition and some that 
really have not a clue where all their assets are and do a very 
poor job. If they are going to spend the Federal money wisely 
or their own money wisely, they need to know what their 
greatest vulnerability is, what the most critical investment 
is, and take them on in order, and we want to help them monitor 
that situation.
    Senator Menendez. Well, in terms of making sure--my last 
question--your assets are well positioned and that you are 
maximizing the systems that you have, as we face higher gas 
prices, transit agencies see higher demand, but they also see 
higher fuel prices, as well.
    Mr. Rogoff. That is right.
    Senator Menendez. What is FTA doing to help agencies invest 
in vehicles that do not run on diesel or gasoline?
    Mr. Rogoff. Quite a lot. You know, you pointed out, we talk 
about the gasoline price spiking up to potentially getting to 
its 2008 high. The reality is that the diesel price has already 
exceeded its 2008 high and transit agencies must pay that 
diesel price. As I pointed out earlier, the majority of transit 
trips in America are still taken by bus.
    We, through our discretionary bus allocations, our Clean 
Fuels Bus Program, even the dollars that were used through the 
State of Good Repair Bus Program, bought a lot of clean fuel 
vehicles. The price differential between a diesel bus and a 
hybrid electric is coming down. I think more transit agencies 
are cognizant about how many years they will get a payback on 
those cleaner fuel vehicles. We are not only putting out 
capital money and more capital money to help modernize the 
fleet in that way, we are also doing research through our 
research and innovation group to take the next generation bus 
to the next level of even cleaner and zero-emission buses 
eventually.
    Senator Menendez. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair, and thank you, 
Administrator Rogoff. I came here directly from testifying on 
an electric vehicle bill, which has a lot to do with reducing 
oil consumption and improving air quality, and certainly this 
is an appropriate sequel to that, and thank you for your work.
    I wanted to specifically note that the New Starts program 
would be a key source of funding for a major bottleneck in 
Oregon and Washington, which is the drawbridge on the I-5 
corridor, a major freight corridor, a major passenger 
transportation corridor, and also an obstruction to extending 
transit to the full metropolitan area, which extends across the 
Columbia River. This is terms the Columbia River Crossing, and 
I think you have probably heard about it, but I wanted to make 
sure.
    Mr. Rogoff. Well, yes, not only have we heard about it, 
obviously I have participated in conference calls with the 
Secretary and Governor Kitzhaber and Governor Gregoire about 
moving this project forward. It is identified in our 2012 
budget as a project in preliminary engineering that could 
participate in an envelope of about $400 million with three or 
four other projects that are in preliminary engineering.
    We are very big supporters of this project because it 
really does a lot of the things that meet Administration goals. 
It really addresses a critical bottleneck on the interstate 
system, and clearly, when it comes to highways, our principal 
obligation needs to be to the interstate system.
    It will provide rail transit access from Vancouver, 
Washington, to Portland, something that has been talked about 
for decades but has not been accomplished. There will be a bike 
and pedestrian option, which is an increasingly popular method 
of transport in that region. So, yes, we think on so many 
fronts that the Columbia River Crossing needs to move forward.
    Senator Merkley. Thank you. It is music to my ears, and I 
look forward to working with you on this critical 
infrastructure piece.
    One thing that has come out in the context of that 
conversation are some of the hurdles in the New Starts 
application process, and you have been talking about 
streamlining that process, and I want to applaud you for that 
effort.
    One of the things that the folks have shared are things 
such as additional planning pieces such as fleet management 
plans that have gone along with that that are an important part 
of the transportation puzzle but not necessarily bearing 
directly on the project itself. Is that the sort of thing that 
you are thinking about in terms of the streamlining?
    Mr. Rogoff. Our principal goals in streamlining are 
eliminating duplication and also recognizing where you have--
part of the problem with our whole New Starts process is it is 
currently one size fits all, and for a brand-new city that is 
trying to deploy a rail project for the first time, they need a 
much different Federal interface than probably a Portland Tri-
Met that is building its sixth through seventh extension or a 
system like Salt Lake, the UTA in Salt Lake, that has brought 
in a number of projects on time and under budget routinely. And 
what we are trying to do is fashion our program to recognize 
the difference between grantees. A lot of people complain about 
how long it takes some of these projects to move from one 
process to the other. We certainly recognize that we can make 
progress at the FTA, and we have policies before you to do 
that. But, importantly, we also need to recognize that transit 
agencies, some of them are on a real growth curve in getting 
their own expertise on how to launch some of these projects, 
and if we want that project to come in on time and on budget, 
they are going to need some oversight. And they sometimes are 
going to need to be sent back to the drawing board.
    So when we talk about streamlining the New Starts process, 
I say it is in part about streamlining the New Starts decision 
process, not the New Starts approval process, because sometimes 
that decision is going to have to be no, especially for new 
grantees that really need to build their own internal technical 
capacity before they build a rail project.
    Senator Merkley. Thank you, and I am glad you are working 
on that, and I will continue to provide feedback from folks 
back home as they have suggestions.
    In my closing seconds here, I wanted to note that I 
appreciate your support of performance-based planning. I have a 
bit broader version of that called the Strategic Planning Act 
of 2011 that creates a baseline of transportation performance 
metrics, including congestion, goods movement, safety, public 
health, cost to the taxpayer, and so forth, and implements 
scenario-based planning and a study of the scenario-based 
planning and the impacts it has had on reducing the costs of 
projects, which are enormous, projects across the country from 
Texas and Utah, New Mexico, California, Tennessee, and so 
forth. So I just wanted to mention that I look forward to being 
in dialog about perhaps even a bit more ambitious version of 
performance-based planning.
    Mr. Rogoff. Well, you have hit on something that I think 
needs to be amplified about, you know, we have our livability 
agenda and a livability program in our reauthorization 
recommendations. But you hit on something that is not often 
talked about, and that is, how the livability agenda saves 
taxpayers money. We do not talk enough about the fact that when 
you coordinate these investments, especially in things like 
transit and affordable housing, in which you have your 
background, that just tearing up the street once to put in the 
affordable housing and making sure that there is affordable 
housing adjacent to a new transit improvement saves the 
taxpayer money. It is a far cry better than when we build the 
transit improvement we have the gentrification effect where the 
affordable housing goes away, and then the taxpayers have to 
pay yet again to create affordable housing somewhere else, and 
then those people need transit.
    So there really is some considerable cost savings to be 
achieved through just coordinated planning, and while I have 
not looked at your bill, I would be happy to do so. And we have 
some experts at the FTA on scenario planning that I would be 
happy to bring up and have a dialog with you on that.
    Senator Merkley. Thank you. That would be superb.
    Thank you, Mr. Chair.
    Chairman Johnson. Thank you, Peter, and you may be excused.
    Due to a previously scheduled meeting, I will be passing 
the gavel to Senator Menendez. I appreciate both panels' 
attendance at this hearing and look forward to continuing this 
important conversation.
    The second panel, please take your seats, and, Senator 
Menendez, thank you for taking the gavel.
    Senator Menendez [presiding]. Thank you, Mr. Chairman. Let 
me, as they come, introduce the second panel.
    We will hear from William Millar, who is the able leader of 
the American Public Transportation Association. Bill has been a 
great advocate for transit, and we are going to be sad to see 
him leave the APTA later this year.
    Next we will hear from Dale Marsico, who is the executive 
director of the Community Transportation Association of 
America, and he has worked to broaden support for community and 
public transportation.
    Then we will hear from Larry Hanley, the international 
president of the Amalgamated Transit Union. Larry has spent 
much of his life working in different positions within 
transportation in New York and being an advocate.
    And, finally, the Committee will hear from JayEtta Hecker, 
the director of transportation advocacy at the Bipartisan 
Policy Center, and she has spent much of her career in Federal 
public service in the legislative and executive branches.
    So let me welcome you all. In the order that I introduced 
you, let me invite you to deliver 5-minute--summarize your 
testimony in 5 minutes. Your full statements will be included 
in the record, and with that, Mr. Millar, you are up.

  STATEMENT OF WILLIAM W. MILLAR, PRESIDENT, AMERICAN PUBLIC 
                   TRANSPORTATION ASSOCIATION

    Mr. Millar. Thank you, Mr. Chairman, and I appreciate those 
nice personal comments as well.
    On behalf of the American Public Transportation Association 
and its 1,500 members, it is my pleasure to appear again before 
this Committee. We thank you for your strong leadership and 
investments in transportation and transit in particular in the 
past, and we look forward to working with you as you seek to 
enact, we hope, a well-funded, 6-year, multimodal surface 
transportation bill. This would be one of the most important 
things the Congress could do to create jobs, to provide access 
to jobs, and to provide infrastructure that will serve a 
healthy and growing economy as well as our future population 
growth.
    Now, we recognize there are many challenges in achieving 
this, but we cannot overstate the need for a well-funded, 6-
year bill now. Multiple short-term extensions of the law do not 
serve the Nation well. Transit system and State DOTs with 
multiyear capital budgets and agencies who implement multiyear 
projects must have reliable, predictable funding if they are to 
deliver these projects on time and in an efficient fashion.
    The private sector businesses who work in the 
transportation industry cannot and will not build new plants, 
they will not hire new workers, if the uncertainty about the 
availability of funding continues. Further, these businesses 
may be forced to lay off existing employees, and we have seen 
some businesses shift their investment overseas where other 
countries are making much more significant contributions to 
transit investment.
    Recent reports have shown that the United States is falling 
well behind economic competitors such as Brazil, China, India, 
and our traditional friends and competitors in Europe in terms 
of expanding and keeping infrastructure up to date. So despite 
the well-documented fiscal challenges the Federal Government 
faces, the Federal Government must be a strong partner in 
meeting the infrastructure needs.
    Now, proposals to reduce the Federal investment in 
transportation infrastructure and particularly public transit 
at this time are extremely shortsighted. These are investments 
that will pay off not only now but for many decades to come. 
And the U.S. Department of Transportation has cited some $78 
billion that needed to be invested just to bring transit up to 
a state of good repair. Other studies have shown that about $60 
billion a year annually should be made available from all 
sources, not just the Federal source, to maintain existing 
systems, to expand those systems, because we are going to need 
it. Our future is to be a growing country with a growing 
economy. We must meet those needs.
    Earlier the Committee spoke about high gas prices, and 
certainly we have all seen now gas prices beyond $4 a gallon, 
some places in the country $5 a gallon. We expect this year 
about 2 million more Americans per day--per day--to use public 
transit because it is one of the quickest ways that they can 
avoid the high cost of gasoline. If the pump price continues to 
rise, we expect millions more Americans who never thought they 
would need public transit to need public transit--again, 
showing the need for the investment.
    Now, we know that transit not only is good for all the 
reasons I have mentioned, but it also provides jobs. For every 
$1 billion invested through the Federal transit program, some 
36,000 jobs are created and maintained. APTA has recommended 
that Congress authorize the investment of $123 billion over the 
next 6 years. The President's budget has suggested $119 
billion. That would be fine with us as well.
    We need to make sure that there is a good, solid source of 
revenue behind this, and to provide this, we believe it is time 
to update the Federal fuel tax. It was last raised in 1993. To 
have that purchasing power replaced, we think it needs to be 
indexed for the future, but we think there are other ideas out 
there that are necessary as well.
    My written testimony talks about the need for public-
private partnerships. However, I must caution our experience in 
transit has been not only these are hard to do, but they are 
often financing mechanisms. They do not really bring new money 
to the table. And so we have many suggestions for the Congress 
on how we can improve that situation.
    I realize I am coming to the end of my time so I will just 
refer the Committee to my written testimony. I would be happy 
to answer any questions. Suffice it to say that we need to have 
significant more investment in all forms of public 
transportation to meet the multiplicity of needs of our Nation, 
as the Senators have discussed with the first panel today.
    Thank you
    Senator Menendez. Thank you.
    Mr. Marsico.

  STATEMENT OF DALE J. MARSICO, EXECUTIVE DIRECTOR, COMMUNITY 
             TRANSPORTATION ASSOCIATION OF AMERICA

    Mr. Marsico. Thank you, Mr. Chairman. I appreciate your 
invitation to be here as well. The Community Transportation 
Association of America represents 4,000 members that provide 
public and community transportation around the United States. 
Although our members provide public transportation in what we 
might call traditional transit communities, many of our 
members, thanks to our Nation's rural public transit program, 
can be found providing transportation in what some people might 
assume to be unexpected locations.
    Today, rural public transit can be found providing 
innovative mobility in communities that stretch from the Arctic 
Circle to the Rio Grande, from the smallest communities on the 
Atlantic coast across Middle America and the west coast, to 
Hawaii, all the way to the islands of Guam.
    Thanks to the commitments made by this Committee, public 
transit is completing its mission in communities across the 
Nation regardless of the size or location so that no matter 
where you are in America, you have an opportunity to be part of 
a public transit system.
    Just as importantly, SAFETEA-LU provided new emphasis on 
public transportation that serves tribal communities where the 
need is as important in public transit as it is anywhere in our 
country. And across the country, our association has been 
privileged to work with our partners at the Federal Transit 
Administration and with tribal communities to build public 
transit that is accessible to helping people with some of the 
greatest economic and personal needs in the Nation.
    We are privileged to have worked in establishing new and 
better tribal transportation services not only in places like 
the Dakotas and Montana, but also in communities in Alaska, 
North Carolina, Mississippi, New Mexico, Arizona, and in 
Wisconsin. In all these communities, like their urban and rural 
and other tribal networks, public transit not only continues to 
take Americans to work, but it is the essential link to provide 
millions of Americans with access to health care and other 
life-sustaining services to all of the American people, but 
especially to our Nation's seniors.
    Public transportation links people not just to the 
communities in which they live, but also to the communities in 
which they work, and many Americans are faced with traveling 
greater distances to seek employment and greater distances to 
seek health care as more and more of our Nation continues to 
regionalize. That is another reason why the advances that we 
have made in SAFETEA-LU, especially in funding, have been so 
important for the connectivity and the needs of the American 
people.
    Yet our progress is in serious danger today. Because of the 
success of the past, we have built our programs on partnerships 
that exist between the Federal Government, State government, 
local government, and, of course, the people who use our 
transit systems--the riders.
    The Great Recession, as we know it, has severely impacted 
these services and situations and relationships. Today in rural 
America, for instance, because of the recession 3.5 million 
Americans have lost their access to inner-city bus systems. The 
same is true for growing needs on employment transportation. 
Every reduction in transportation is a reduction in 
opportunity.
    Just as importantly, we are concerned about the growing 
need of transportation by our veterans. Estimates from the 
Department of Veterans Affairs remind us that 40 percent of the 
veterans in the Afghan and Iraqi wars come from rural 
communities. We must assure rural transportation's capacity to 
address these needs now and in the years ahead, especially as 
they relate to jobs and health care.
    The current economic and energy situations have created a 
disconnect between rising demand and declining investment that 
requires action and leadership that has historically come from 
this Committee and is the only place, we feel, that that 
leadership can come from today.
    Finally, some of the other issues we address in our written 
testimony call for greater flexibility to meet local needs. We 
support allowing operating assistance to small communities, 
medium communities, and large communities. We are particularly 
concerned about 90 urban communities that will soon face being 
placed into different rulemaking because of demographic 
changes. But we also call for new and innovative research to 
look at the way jobs link to transportation and the future. All 
these things need to be done in this reauthorization, and they 
need to be done now.
    Like it or not, highways and transit and all forms of 
mobility remain the infrastructure that is essential to all 
Americans regardless of where they live. We must find ways to 
add to that infrastructure and add to that success so that the 
American people have the connectivity they need to make their 
lives not just lives that are circling around locations, but 
also give them the capacity to connect to the bits and pieces 
that transit pulls together to help Americans in their personal 
journey toward the American dream.
    Thank you, Mr. Chairman, and thank you in particular for 
your leadership in supporting public transit.
    Senator Menendez. Thank you.
    President Hanley.

STATEMENT OF LARRY HANLEY, INTERNATIONAL PRESIDENT, AMALGAMATED 
                         TRANSIT UNION

    Mr. Hanley. Thank you, Mr. Chairman. Thank you for the 
opportunity to address through the legislation and through my 
remarks the issues that are affecting America most deeply 
today, and by that I mean issues like the environment and 
climate change, national defense, cutting the use of foreign 
oil and economic development, getting Americans back to work.
    The Amalgamated Transit Union represents 190,000 people in 
46 States and in Canada, and we are deeply concerned about a 
transit crisis that has occurred throughout the United States 
and is now spreading to Canada over the course of the last 2 
years.
    We have in the course of the last 2 years seen the steepest 
fare increases and deepest service cuts in our history. Fifty-
six percent of agencies have cut rush hour service in this 
period of time; 62 percent have slashed off-peak service; 40 
percent report reductions in geographic coverage; and there 
have been about 5,000 layoffs that we can track within the 
transit industry.
    In the past 2 years, in cities like Atlanta, where we have 
seen entire suburban counties eliminate all their bus service; 
Chicago, where 14 percent of all the transit service has been 
eliminated; Cincinnati, Cleveland, Detroit, where already 25 
percent of the bus service has been eliminated, and they are 
planning further cuts; and in Pittsburgh most recently 15 
percent of the service was cut on a Monday morning 6 weeks ago, 
and we have people standing at bus stops unable to board buses 
and watching three and four buses pass them during the rush 
hour as they wait to get to their jobs.
    In Oakland, California, entire areas of service in 
Richmond, which is part of the Oakland system, is currently 
planned to be eliminated in the course of the next 2 months.
    In my own hometown in New York, we have seen service cut 
that has been running for 100 years. We have watched while, 
although the Federal Government has stepped up along with the 
State and city and invested in growth in the subway system, the 
MTA is currently eliminating bus service in the outer boroughs 
of New York City that has run, as I said, for 100 years, and 
people are losing their ability to get around their own city.
    There is no slowdown in the cuts. We have upcoming cuts in 
Salt Lake City, in the Twin Cities; Tacoma, Washington; 
Birmingham, Alabama; and, of course, in Long Island, where the 
entire system has been put on the table for elimination.
    This is a mobility crisis for transit-dependent Americans. 
We have in recent visits to Chicago had discussions with the 
Service Employees Union who have informed us that their own 
members, as a result of the service cuts in that city, have to 
sleep on the floors in buildings waiting for bus service to 
resume after they clean the buildings they work in.
    Urban Americans and transit-dependent people are being 
hurt, but now, with $4 gas already here and $5 gas right around 
the corner, the pain is expanding. More areas are going to be 
affected by the changes as a result of the census in urbanized 
areas where populations of more than 200,000 are going to 
impinge on the ability of these systems to get operating aid. 
Brand-new buses are sitting idle. Buses that were paid for by 
stimulus dollars recently were just put in service after 
sitting for 6 months in Albany, New York, where the system was 
unable to run the buses that were bought with the Federal 
funding.
    We need increased funding. We support the President's 
proposals. But we also need to get beyond this question of 
whether or not we can afford to give operating assistance to 
transit systems at this time of crisis. So we support generally 
the President's proposal, but we believe that it needs to be 
tweaked and changed because there are limitations imposed in 
the proposal that we think will prevent solving the immediate 
crisis.
    Further delay is not an option. We believe that we need to 
act immediately to restore the service that has already been 
cut.
    There are additional issues of public safety on transit 
that have been raised today. As was said, transit is one of the 
safest ways to travel, but recent accidents have been 
troubling. We are about to approach the second anniversary of 
the WMATA crash next month, an accident that should never have 
happened. Lives were tragically lost due to faulty equipment, 
and more investment is needed not only in the equipment itself 
but also, as was stated by Peter Rogoff, to have some 
supervision of our transit systems in terms of how they safely 
manage their rail operations.
    Also, we are interested in this bill and trying to get some 
transit workforce development money because although the 
technology is changing rapidly, virtually nothing is being 
spent in America on training transit workers. We need a career 
ladder program and structures to be put in place to deal with 
workforce issues, and the ATU supports the Transportation Job 
Corps Act of 2011. APTA also supports the bill--in this case I 
am speaking for Bill Millar--but labor and management 
partnerships, as we see it, are critical to the success of this 
industry.
    So, in summary, we cannot get our economy back on track, we 
cannot improve the economy and get our people back to work 
unless the Federal Government steps up and recognizes that 
there needs to be flexibility in the money you are already 
spending on transit, and we thank you, Mr. Chairman, for your 
support of operating aid, and we look forward to working with 
you to make it happen.
    Senator Menendez. Thank you, Mr. President.
    Ms. Hecker.

  STATEMENT OF JAYETTA Z. HECKER, DIRECTOR OF TRANSPORTATION 
 ADVOCACY, NATIONAL TRANSPORTATION POLICY PROJECT, BIPARTISAN 
                         POLICY CENTER

    Ms. Hecker. Thank you, Senator Menendez, Senator Merkley. 
It is an honor to be here. As you stated, I represent the 
Bipartisan Policy Center, which came together with four of your 
former leaders--Senators Dole, Daschle, Baker, and Mitchell--to 
lay the foundation of the kind of bipartisanship that is so 
essential to solving our major national problems. The focus is 
developing bold but pragmatic solutions to the major issues of 
our day and bringing together very broad cross-sections of not 
only former elected officials but experienced folks in each 
area as well as new voices. So in transportation, our panel is 
not just transportation experts but a national grocer, a real 
estate developer, and different kinds of perspectives to bring 
to bear.
    The three topics that I will address today are the 
challenges and opportunities of the current environment and the 
political context that you know very well, the priorities that 
BPC has set for the new authorization to be addressed in a 
report that we will be releasing in a couple of weeks that will 
have a detailed authorization proposal, and then, finally, the 
key funding issues and challenges which are so essential.
    Before I address those three issues, I actually was going 
to skip over this, but because both of you talked about the 
importance of national goals and performance metrics, I'll 
address the foundation of the work that the Bipartisan Policy 
Center is doing. The heart of reform, the heart of performance, 
the heart of accountability is having clear goals and 
performance metrics to measure and hold recipients of Federal 
funds accountable. It is the heart of it. It was the heart of 
our first report that identified five key national interests 
and, therefore, goals of Federal involvement in transportation 
generally, economic growth, national connectivity, including 
all the concerns expressed here today about rural issues. It is 
part of our Nation, not just our metropolitan area but 
certainly our rural areas.
    Metropolitan accessibility is a national interest. That is 
where most of our growth occurs. It is where most of our people 
live. Even in the rural States, most of them live in 
metropolitan areas. We need more strategic focus on 
metropolitan performance of the networks and systems in 
metropolitan areas. Improving our energy security and 
environmental sustainability and reducing emissions, that is a 
fundamental national interest, and safety.
    Now, the first four of those traditionally are not 
transportation related. Those are higher national interests, 
broader national goals, and we think transportation to a large 
extent is a means to an end. The days when we grew up and Dad 
would take you for a ride in the country, are past. Today, 
transportation is the foundation of the vitality of our 
economy. It is how people get to work, it is how our commerce 
is conducted, and transportation helps us grow, helps us live 
better, and have a sustainable environment in a safe manner. So 
these goals are critical.
    We have also recommended that that is the single most 
important measure that the Congress needs to take in 
authorization, and not in the prefatory language. That kind of 
language is always in the prefatory language of the bills. It 
has to be the goals of the bills, tie the programs to those 
goals, and start laying the foundation for measuring, 
monitoring, and rewarding performance.
    Now, I'll turn to the three issues that I talked about. 
First is the challenges and opportunities. You know full well 
the severe condition of the trust fund, which has been hit by 
the economic downturn. The Nation is confronting the fiscal 
crisis for the first time. Frankly, having been with GAO for 
years, the last 15 years, I was giving speeches on the debt 
crisis and the fiscal condition requiring urgent attention 10 
years ago. It is finally coming to the fore. This is a national 
crisis that is changing the nature of the debate about these 
issues. And then we have got increasing hostility to taxes, at 
least certainly at the Federal level.
    Our concern is that, as all of the witnesses before have 
said, all of the evidence is that we need to be spending more 
on transportation. We are not maintaining what we have. We are 
not preparing for the future.
    On the other hand, we do not have the money. The only way 
the trust fund is operating now is from over a $30 billion 
bailout of borrowed funds over the last 3 years. In my view, 
the political environment is such that we are not going to have 
any more bailouts of that kind that are borrowed funds. There 
is no more free money. There are no more gimmicks, frankly, 
which is a lot of what was behind some of those bailouts.
    The panel that we have has basically said that while in our 
visionary report we support substantial increases, the future 
cannot depend on general fund transfers and increased 
borrowing. Until new revenues are identified, the program 
should be scaled back to existing revenue, and this is also an 
opportunity for the critical reforms.
    I see I am way over my time. The reforms build the 
foundation for performance, focus on improving planning and 
getting more oversight. The planning structure, which is so 
vital to better decision making, is not based on the kind of 
goals and outcomes that you have talked about. It is all 
process oriented. And DOT has done work on this. They know it. 
They are limited in their current authority. All of the focus 
on planning is just process oriented. We need oversight on 
solving problems.
    And, finally, on funding, in the longer run basically the 
work that we have done and the experts that we have brought 
together who have their own proposals, we concluded that we are 
not going to get consensus for the kinds of increases that are 
required in transportation until we rebuild the credibility of 
the program. Clearer set of performance objectives, clearer 
outcomes, clearer recognition that we are getting value for our 
money. So in the long term, we actually think these reforms 
really need to precede the kind of increases that are called 
for.
    In the short run, we have a very dramatic recommendation. 
If we live within our budget--which, frankly, is a decrease 
from current levels, we recognize that the current level of 
spending is only supported by these bailouts. We have to have a 
major new Federal program focusing on supporting States, 
rewarding States, providing incentives, and giving them all the 
tools to develop sustainable revenue sources to maintain the 
program.
    Thank you, and I apologize for going over.
    Senator Menendez. Thank you very much.
    Thank you all for your testimony. I, unfortunately, have a 
meeting with our Ambassador designee to Afghanistan, so Senator 
Merkley has agreed to chair the rest of the hearing. I have a 
series of questions I am going to submit to the record. I look 
forward to your answers.
    But I will make one statement as a subcommittee chair, 
which we look forward to pursuing many of these issues as we 
hold future hearings in conjunction with the Chairman. You 
know, in my mind, we cannot prosper if we cannot grow, and we 
cannot grow if we are stuck, and we are stuck and we need to be 
able to move in a direction that creates greater--particularly 
in mass transit, better public transit opportunities.
    There are few issues that embody so many of our national 
goals as public transit, whether that is the whole question of 
getting people to work and opening up economic opportunities, 
and very often what transit systems do to create economic 
opportunities, not only their construction, but in the long 
term, ripple effect along transit lines.
    It is about our environment and the air that we 
collectively breathe. It is about energy, moving increasingly 
to energy independence and breaking our addiction to foreign 
oil and great transfers of wealth from our country to other 
countries at the end of the day. And much more. It is quality 
of life, sitting less time in traffic, having more productive 
time at work or quality time with our families.
    So it seems to me this is one of those issues for which we, 
in fact, have so many crosscutting national issues and concerns 
that we should be able to do a lot more and hopefully get a 
bipartisan consensus, which this Committee has, fortunately, 
always been at the forefront of, so I hope we can continue with 
that history.
    With that, I appreciate Senator Merkley closing out the 
hearing and look forward to reading the answers to the 
questions that I have. Thank you very much.
    Senator Merkley [presiding]. Thank you very much for your 
testimony. I have a couple quick questions. I say quick, 
because I only have about four more minutes before I have to 
leave for another meeting.
    So I wanted to ask Mr. Marsico about your comments 
regarding vehicle miles traveled. I think I have the phrase 
here of the current American political environment does not 
seem at all ready to embrace the idea of the Government in any 
shape or form monitoring travel patterns of its citizens, even 
if only to gauge distances traveled. We have had in Oregon a 
pilot project on this, but I was wondering where you were 
taking your conclusions from, from more just surveys or other 
perhaps experimental projects from around the country.
    Mr. Marsico. We were taking my information from surveys we 
did, particularly in the Western States when we were talking 
about other ways to increase revenue. I think, basically, we 
put that in our testimony to reflect that there were many 
communities where that was looked at as very invasive and that 
it led to, I think what we say in our testimony is, during the 
current crisis, sometimes, like I believe the phrase is Occam's 
razor. The simplest solution is the best.
    And I find that in those areas where we talked, a gas tax 
increase was greeted, you know, much more positively and 
understandingly than getting into a more detailed approach to 
something longer term. And I think what we said in our 
testimony is, that is a great long-term solution. We have to 
educate people about what we are doing first. But in the 
meantime, we had such urgent needs, we were trying to focus on 
how great the support we felt existed for a simpler solution 
that we believe that a number, and a significant number of the 
American people would join us in a small gas tax increase as a 
step toward looking at a broader range of revenue.
    Senator Merkley. I would just note, you might find it 
interesting to look at the results of that pilot in Oregon. 
Oregon has a weight mile on freight, which has a very 
sophisticated formula that addresses the number of axles, the 
weight on each axle, et cetera, et cetera. It actually serves 
as a motivator for companies to add more axles and do less road 
damage because it lowers their costs.
    So within that framework, there is a lot of thinking about 
the fact that high-mileage vehicles and certainly hybrids and 
electric vehicles may not be carrying their fair share. On the 
other hand, we are working hard to subsidize that transition 
for a host of other very valuable reasons that have to do with 
reducing our consumption of oil for the national security 
purposes, the creation of jobs, and the improvement of air. So 
there is kind of a rich debate going on around that.
    I wanted to ask if anyone had anything they would like to 
say about bus rapid transit. We have had several communities 
that have been exploring this and some that have developed it 
at much less infrastructure cost than rail takes, but with 
fairly similar speeds, with coordinating traffic signals, 
landings for people to get on and off the vehicles, and so 
forth.
    Mr. Hanley. America lags far behind Latin America in 
developing bus rapid transit. It is a very productive way to 
avoid capital costs in construction of systems that, for some 
reason, some municipalities love to build light rail systems 
and I think they have ignored the recent developments over the 
course of the last two decades around the world in bus rapid 
transit.
    So we find it for our drivers, they love the fact that they 
do not have to sit in traffic. Often, when folks do not 
understand it, they reject it out of hand, but it is a very 
effective way, efficient way, of moving people more reliably, 
safer, and more quickly through our cities. So we support it 
completely.
    Mr. Millar. Mr. Merkley, yes. APTA believes that the full 
family of services ought to be available, including bus rapid 
transit, that that ought to be a part of the Federal program. 
As Mr. Hanley has said, many communities have started to look 
at that, and certainly we would support its inclusion in the 
bill.
    Senator Merkley. Thank you. And finally, Ms. Hecker, you 
probably heard my comments earlier on performance measures, 
strategic planning, and scenario-based comparisons, and the 
value they have actually brought to the bottom line to the 
taxpayer, because that sort of scenario-based planning has 
resulted in more being accomplished for less. But I wanted to 
ask if you are familiar with that as an extension of your 
performance measures conversation.
    Ms. Hecker. Yes, sir. We are, and I think while we do not 
use that term, we talk about getting incentives in place for 
more integrated outcome-based planning that focuses on the mix 
of Federal interests of growth and energy security and 
improving access to jobs. So the traditional planning that was 
more focused on a static projection of demand really was not 
nearly as dynamic as we need with all of these national 
interests in our transportation system and the interplay of 
these objectives.
    So we are very much focused on trying to set the stage for 
not only promoting more dynamic planning, for providing support 
to State and local governments for the data, which is very 
often the missing ingredient for that kind of analysis, and for 
the analytical tools to compare across modes and to do more 
dynamic planning, and the tracking tools to understand what 
impacts transportation investments are likely to have in the 
future and actually have had, looking backwards.
    Senator Merkley. I want to thank you all for bringing your 
expertise to provide insights to this Committee. So thank you 
for your time and efforts. The input is very valuable.
    The record will be open for an additional week for folks to 
submit questions, and we certainly appreciate your responses to 
those questions.
    With that, I adjourn this Committee. Thank you.
    [Whereupon, at 11:44 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]

               PREPARED STATEMENT OF CHAIRMAN TIM JOHNSON

    Today, the Committee holds its first hearing this Congress on 
public transportation as we begin work on a new surface transportation 
bill. This effort will build on the substantial hearing record on 
public transportation and transit safety that our previous chair, 
Senator Dodd, and our Ranking Member, Senator Shelby, worked to 
establish last Congress. I look forward to continuing this effort on a 
bipartisan basis with Senator Shelby, our Subcommittee Chairman Senator 
Menendez, and all of the Members of this Committee.
    This is a very important time to talk about public transportation. 
High gas prices are stretching families' budgets across the Nation, and 
where there is good transit service, taking a bus or train to work can 
make a big difference. Unfortunately, few Americans have that option.
    A few days ago I got a note from Bob Ecoffey on the Pine Ridge 
reservation in South Dakota. Bob works for the Bureau of Indian 
Affairs. He and his wife Darlene also own a Subway sandwich shop in 
Pine Ridge Village. I want to read part of his note for the Committee:

        Tim--I hope this message finds you well. I heard that you will 
        be working on a transportation bill soon. Five of the employees 
        at our sandwich shop take a bus operated by Oglala Sioux 
        Transit to get to work. You know how vast the reservation is, 
        so having a reliable and affordable means to get to the store 
        really helps them.

    I want to thank Bob for sharing his thoughts. It is sometimes 
forgotten, but reliable and accessible public transit is vital in rural 
areas like South Dakota, just as it is vital in large urban cities. Our 
public transit systems connect workers with employers, keep cars off 
congested roads, reduce our dependence on foreign oil, and get people 
where they're going safely and affordably.
    We are joined today by Peter Rogoff of the Federal Transit 
Administration and four distinguished leaders from the transportation 
industry. Mr. Rogoff, I share the Administration's interest in 
repairing outdated infrastructure, improving safety oversight, and 
simplifying and consolidating existing programs. I applaud President 
Obama's call to improve our transportation system, and I look forward 
to working with the Administration on a bill.
    The current extension of transit and highway programs runs through 
September 30. Congress has produced seven short term extensions since 
2009, so it's time to get to work on this legislation. Getting a long-
term bill done will not be easy, but I hope that improving 
transportation is a topic where both parties can find common ground.
                                 ______
                                 
             PREPARED STATEMENT OF SENATOR ROBERT MENENDEZ

    Good morning. I would like to thank Chairman Johnson and Ranking 
Member Shelby for holding this hearing to address the longstanding 
challenge of how we craft and pass a surface transportation bill in 
2011 that will help jumpstart the economy and get the United States 
back on track.
    Today, we are in limbo. Nearly two years and seven extensions 
later, our country still lacks a permanent authorization to direct our 
Nation's surface transportation program. It will require an immense 
amount of leadership, political will, and collaboration to do what is 
in the best interest of the country. We literally cannot afford any 
more delay.
    Incremental extensions stymie our ability to strategically link 
public infrastructure investment and economic development--to ``prime 
the pump'' for job creation and recovery. This threatens U.S. global 
competitiveness and undermines our quality of life. This authorization 
is an opportunity to maintain the strong elements of our existing 
transportation program, while shifting course in other areas where 
there is consensus on the need for reform.
    Transit is a critical element of our transportation network and 
recognition of its importance continues to rise. Today, with gas prices 
over $4 a gallon, with our Nation addicted to oil, with the threat of 
climate change and the housing crisis, transit is part of the solution 
for a number of interconnected challenges.
    Public transportation brings mobility, access, and freedom to 
residents and visitors across the country. It creates good-paying, 
long-term jobs directly and helps create countless more by efficiently 
connecting workers with their place of employment.
    We know that the housing markets hardest hit by high gas prices are 
exactly those communities that are located the furthest from jobs and 
schools, houses of worship, hospitals, and grocery stores. The hardest 
hit communities are also the ones with the fewest connections to public 
transportation.
    In short, passing a reauthorization bill and making sure transit 
gets the resources it needs is simply essential if we are to grow our 
economy, reduce congestion and pollution, fix the housing market, and 
drive down transportation costs.
    I am very proud that this Committee has been able to act on a 
bipartisan basis on transit issues in years past and I hope we can 
serve as an example for the entire Senate on how to reach across the 
aisle to pass a surface transportation reauthorization bill.
    Thank you and thanks to our witnesses for sharing your insights and 
experience with the Committee today.
                                 ______
                                 
                 PREPARED STATEMENT OF PETER M. ROGOFF
             Administrator, Federal Transit Administration
                              May 19, 2011

    Chairman Johnson, Ranking Member Shelby, and Members of the 
Committee:
    Thank you for the opportunity to appear before you today to discuss 
the Obama administration's policy priorities for the next authorization 
of Federal transit programs. We appreciate the Committee's hard work to 
develop this important legislation. And we believe it is in the best 
interests of the American people to support a legislative framework 
that will enable us to strategically rebuild and expand our national 
transit infrastructure in ways that will create new jobs, enhance 
competitiveness, and spur economic growth in communities nationwide, 
while also reducing our Nation's dependence on oil.
    Almost all Americans--from families to business owners--have been 
affected by the spike in gas prices lately, as they were in 2008 and 
back in 1973. But we can't keep proposing policy changes when gas 
prices rise, only to forget about them once they go back down. 
President Obama has noted that while there is no silver bullet to 
address rising gas prices in the short term, there are steps we can 
take to ensure the American people do not fall victim to skyrocketing 
gas prices over the long term.
    Toward this end, the President has laid out a blueprint to put 
America on a path toward a cleaner, safer, and more secure energy 
future. The Administration has pledged that by 2025, we will reduce our 
net imports of oil by one-third and put forward a plan that produces 
more oil domestically, reducing our dependence on oil with cleaner 
fuels and greater efficiency. That is achievable, it is necessary, and 
for the sake of our future, we will get it done.
    To ensure that this strategy succeeds, we are making historic 
investments in high-speed rail and public transit, because part of 
making our transportation sector cleaner and more efficient involves 
offering Americans--urban, suburban, and rural--the choice to be mobile 
without having to get in a car and pay for gas.
    We at FTA have been hearing from transit agencies all over the 
country, who tell us they are experiencing a surge in ridership that 
they attribute, at least in part, to the pain people are feeling at the 
pump. For example, in New Orleans, Louisiana, ridership on the RTA 
transit system is up more than 20 percent over last year. In Kankakee 
County, Illinois, local buses have added more than 3,000 new riders 
this spring. In greater Philadelphia, there's been a 4 percent increase 
on SEPTA's trains and buses over a recent 8-month period. And in 
northern Virginia, 7 percent more riders chose to ride the VRE commuter 
rail in February than the same time last year.
    These increases represent millions of new trips taken every day. 
Many of these trips are taken by hard-working Americans who simply 
cannot afford to purchase and maintain privately owned vehicles. 
Suburban commuters who are also concerned about the high cost of gas--
and would prefer not to waste gas sitting in traffic--are also turning 
to transit. According to the American Public Transportation 
Association, riding public transportation saves individuals, on 
average, $10,116 annually, or $843 a month, compared with driving.
    Implementation of our priorities for reauthorization--together with 
enactment of the President's budget request for fiscal 2012--will 
ensure that America's transit systems are reliable, desirable, 
efficient, and safer than ever for the millions who use them every day 
in our urban, suburban, and rural communities. Our priorities reflect 
the Administration's dual commitments to expanding transit in areas 
with little or no transit while also bringing our older, urban transit 
systems into a state of good repair. But transit service is only as 
strong as the agency that runs it. Therefore, it's equally important to 
support workforce training and development within the transit industry 
as well as temporary, targeted operating assistance for transit 
providers in distress. To improve FTA's capacity to oversee and manage 
the billions of dollars we award annually to State and local 
transportation providers, and ensure that taxpayers' transportation 
dollars are wisely spent, the Administration is also committed to 
streamlining and consolidating core programs to improve efficiency and 
become even more responsive to local transportation priorities. 
Specifically, we recognize it is vitally important to strike the right 
balance between good stewardship and the need to advance capital 
transportation projects in a reasonable timeframe. That is why we 
propose significant changes that will accelerate the development and 
financing of critically needed projects to expand transportation 
options in the United States. Additionally, we will reduce the 
administrative burden now experienced by FTA's grant recipients for 
programs that offer mobility for older adults, people with 
disabilities, and low-income individuals. To this end, we will merge 
and consolidate three separate programs.
    A description of FTA's policy priorities for the next authorization 
follows.

State of Good Repair
    During his State of the Union Address, President Obama laid out an 
aggressive but achievable plan to out-build, out-innovate, and out-
educate our global economic competitors. At the heart of the 
President's challenge is public transit. The Administration supports 
making a groundbreaking commitment to not only expand transit options 
for Americans, but just as importantly, maintain our transit systems in 
a state of good repair. A September 2010 FTA study found that the 
Nation's transit systems, including bus systems, have a $78 billion 
backlog of assets in marginal or poor condition and that our Nation's 
transit systems will require an estimated $14.4 billion annual 
investment to continue to maintain a state of good repair once that 
backlog is addressed.
    Through a new State of Good Repair program, one that would replace 
the existing fixed guideway modernization and discretionary bus 
programs, formula grants would be provided to transit agencies over the 
next 6 years to enable them to improve the condition of their existing 
capital assets. We will work closely with this Committee to develop a 
reformulated two-tiered formula for both bus and rail that closely 
reflects the capital needs of transit agencies. This formula should 
allocate funds based on the relative cost to restore public 
transportation assets to a state of good repair. We also recommend that 
the formula give priority to transit agencies with the most pressing 
capital investment requirements. The formula should not inequitably 
reward public transportation agencies that have failed to adequately 
maintain their capital assets. We should require transit agencies to 
use asset management techniques to target their state-of-good repair 
investments. Also, it should assure equitable treatment of the relative 
needs of rail and bus systems and provide an incentive to transit 
agencies for developing and implementing structured asset management 
techniques.

Safety
    Secretary LaHood has regularly stated that ``safety is our highest 
priority and we are committed to keeping transit one of the safest 
modes of transportation in the Nation.'' Our commitment to safety is 
demonstrated by the Administration's repeated requests that Congress 
enact new authority for FTA to ensure the safety of rail-transit riders 
across America.
    In December 2009, Secretary LaHood transmitted to Congress 
legislation that would establish national rail transit safety 
standards. This was the first piece of legislation that any President, 
in any Administration, transmitted to Congress that was solely about 
public transportation, and appropriately, it was about safety.
    We're also very grateful that this Committee unanimously passed a 
safety bill in June 2010. While it differed in some respects from the 
Administration's proposal, it includes the core components that will 
put us all on a better path for improved safety.
    I want to thank all the Committee Members that have worked on that 
legislation. I can promise you, FTA will continue to work with the 
leadership in Congress until public transportation safety legislation 
is enacted as a stand-alone bill or as a part of the reauthorization of 
the Federal Public Transportation Assistance Programs. I am grateful to 
the American Public Transportation Association (APTA) for their 
recommendations on how to improve safety legislation as well as their 
support of this much needed legislation as it moves through the 
process.
    To achieve the goal of putting safety first, it is imperative that 
Congress rescinds an antiquated 1960s era law that forbids the Federal 
Government from issuing even the most basic safety regulations now. 
When Secretary LaHood and I testified before the Subcommittee on 
Housing, Transportation, and Community Development on December 10, 
2010, we expressed concern about warning signs regarding the frequency 
of derailments, collisions, and passenger casualties and reported on a 
number of accidents serving as the basis of our concern. While transit 
is a safe way to travel, we continue to see too many preventable 
accidents. For example, on March 13 of this year, a BART train derailed 
as it approached a station, causing the evacuation of 65 passengers. 
Four people were injured, and the accident resulted in $800,000 in 
damage. And, on April 20, 2010, twenty people were injured because of a 
fire in a tunnel just outside the MBTA's Downtown Crossing Station. The 
cause of the fire was due to trash near an electrical cable.
    Clearly, FTA needs the tools to ensure that public transportation 
remains safe as our systems age and experienced employees retire in 
increasing numbers. Enactment of this commonsense safety legislation is 
long overdue; we request that Congress move quickly to provide those 
necessary tools to us to help keep the public safe.

Temporary and Targeted Operating Assistance
    The Administration's proposed flexibility to use Section 5307 
Urbanized Area Formula Grant funds for operating expenses is an 
important recognition that some of our public transportation agencies 
need help addressing their operating shortfalls in the short run. In 
smaller urban areas and in rural areas, FTA formula funds can already 
pay for operating assistance. But now we are proposing that FTA funding 
be available for temporary operating assistance specifically in 
economically distressed urbanized areas with a population of over 
200,000.
    This flexibility would phase out over 3 years. In the first year, 
grantees in these targeted areas would be permitted to use up to 25 
percent of their urbanized area apportionment for operating expenses 
and declining portions during the second and third years. To prevent 
the substituting of Federal funds for local dollars, each transit 
agency would have to certify to FTA that its local funding partners did 
not reduce the proportion of local funding dedicated to transit and 
that service levels are maintained and not cut below previous levels.

Program Streamlining and Delivery

I. Capital Investment Program
    The Administration supports transforming the New Starts program 
(Section 5309), into a Capital Investment Program that would feature a 
simpler and more streamlined process for funding the construction of 
new fixed guideway projects and extensions to existing fixed guideway 
projects, such as heavy rail, light rail, commuter rail, and bus rapid 
transit. Currently, FTA follows a rigorous, time-consuming process 
based on requirements set by the law when reviewing grant applications 
for program funding. This process focuses on awarding Federal dollars 
to the highest rated projects. However, sometimes project timelines are 
sacrificed along the way, resulting in higher project costs.
    We believe that such changes will expand transportation options in 
the United States by accelerating the development and financing of 
critically needed projects. Importantly, streamlining the Capital 
Investment Grants process will be a true catalyst to long-term economic 
development and job growth surrounding the new rail line.
    The goal of streamlining Capital Investment Program is to strike 
the right balance between stewardship and the need to advance New 
Starts projects in a reasonable timeframe. To that end, FTA supports 
eliminating the duplicative Alternative Analysis requirement since it 
is already required by the National Environmental Policy Act.
    We support merging Preliminary Engineering and Final Design into a 
single Project Development stage under our proposal. Entry into the 
Project Development phase would require FTA approval. The current six 
project performance criteria would be reduced to four--transportation 
effects, environmental effects, economic development, and comparison of 
project's effects to costs.
    Streamlining the project development process would permit us to 
discontinue the current ``Small Starts'' category--projects requesting 
less than $75 million in New Starts funds with a total capital cost of 
less than $250 million. Instead, the program would include two new 
project categories: the larger Capital Investment Grant projects and 
Exempt projects, which request less than 10 percent of their funds from 
this program, and in any case, no more than $100 million. Exempt 
projects would be subject only to basic Federal grant requirements and 
would not be evaluated and rated under the program criteria.
    One set of project evaluation criteria would be applied to all 
nonexempt projects. Projects' sponsors seeking more than $100 million 
in Capital Investment Grant Program funds would receive construction 
funds through a Full Funding Grant Agreement while projects seeking 
less than $100 million would receive construction funds through a 
simplified Project Construction Grant Agreement. We propose to maintain 
the five-tier project rating system of low, medium-low, medium, medium-
high, and high for project ratings. We also provide comparable, but not 
necessarily equal, weight to each of the project performance criteria.

II. Consolidated Specialized Transportation Grant Program
    Over time, FTA's grant recipients have had to devote increasing 
time and resources to administer the various requirements of FTA's 
programs that offer mobility for older adults, people with disabilities 
and low-income individuals. To address this burden, the Administration 
supports creating a Consolidated Specialized Transportation Grant 
Program to improve mobility and job access for low income persons, and 
provide transportation options for senior citizens and individuals with 
disabilities. This program would merge the existing Elderly Individuals 
and Individuals with Disabilities Program, the New Freedom program, and 
the Job Access and Reverse Commute program. The objective of this 
program reform would be to ensure transportation services are made 
available in urbanized and nonurbanized areas, and are designed to fill 
gaps in or enhance transportation services available to meet the 
particular needs of older adults, low-income individuals, and people 
with disabilities who are not well served by existing public 
transportation service.
    Funds would be distributed by formula and apportioned to urbanized 
areas and rural areas based on the number of each targeted population 
in those respective areas. Funds would be used for planning, capital 
investments, and operating costs of projects derived from a locally 
coordinated public transit--human service transportation plan.
Performance-Based Planning
    Over the past few decades, Federal surface transportation law has 
increasingly recognized the importance of transportation planning as 
the basis of transportation spending decisions by State and local 
officials. However, States and localities need to better identify and 
address their planning problems and needs by making full use of 
performance data, improving coordination among jurisdictions, and 
integrating economic, housing, and other planning efforts into their 
transportation decisions. The Administration supports enhancing the 
effectiveness of States and MPOs in developing and implementing 
transportation plans and improvement programs while also ensuring 
transparency and accountability in public investments, and believes 
that three changes to the current planning provisions would accomplish 
this.
    First, both metropolitan plans and statewide plans are required to 
include performance based goals, outcomes, and targets. These address 
not only transportation based outcomes, but environmental and economic 
development considerations, among others. Furthermore, MPOs and States 
would be required to demonstrate how the outcomes and performance 
targets contained in their adopted transportation plans--Transportation 
Improvement Programs and Statewide Transportation Improve Programs 
(TIPs/STIPs)--directly link plans to investments.
    Second, Metropolitan Planning Organizations (MPO) designations are 
split into a Tier 1, encompassing areas of 1 million or more 
population; and Tier 2, encompassing areas of 200,000 to 1 million in 
population. Tier 1 MPOs are held to more rigorous performance based 
planning requirements. This recognizes that areas with more people, 
more complex transportation challenges, and more resources to address 
those challenges should clear a higher bar than smaller areas.
    Third, States are expected to significantly strengthen the 
performance and financial rigor of their plans and programs, and 
increase their collaboration with small urban (less than 200,000) and 
nonmetropolitan areas whose transportation needs and priorities are 
incorporated as part of the statewide process.

Livable Communities
    The Department of Transportation (DOT) has prioritized its Livable 
Communities Initiative and Partnership for Sustainable Communities with 
the Department of Housing and Urban Development (HUD) and the 
Environmental Protection Agency (EPA) and is exploring areas where 
program funds may be used to promote these efforts. The initiatives aim 
to help families in all communities--rural, suburban, and urban--gain 
better access to affordable housing, more transportation options, and 
lower transportation costs, while protecting the environment in 
communities nationwide.
    While all of FTA's programs work to enhance the livability of 
communities by providing transportation options for people and 
communities across the country, in further support of the 
Administration's Livability Initiative, FTA is proposing a new 
Livability Demonstration Grant Program to support innovative projects 
that improve the link between public transportation and communities. 
Projects would be evaluated based on innovative or best practices, and 
local incentives for integrating transit with the community development 
in accordance with the DOT-HUD-EPA Partnership for Sustainable 
Community's livability principles. More specifically, projects would 
test different design and conceptual approaches to promoting livability 
in urban, rural, and tribal communities nationwide. This approach would 
allow FTA to evaluate and compare their relative effectiveness.

Workforce Development and Local Hiring Preference
    FTA believes that the Nation's transit industry should be equipped 
with a workforce that has the skill-set necessary to fill future 
transit jobs by establishing, among other things, workforce development 
and registered apprenticeship programs.
    Such a Workforce Development Program would target training funds at 
under-represented populations in areas of high unemployment areas using 
up to 0.5 percent of the amounts made available to carry out FTA's 
urbanized area formula grant program and would be developed and 
administered in consultation with the Secretary of Labor.
    Currently, FTA is prohibited from allowing local hiring preferences 
on projects using Federal transit assistance. The Workforce Development 
Program we support would advance local hiring goals set forth in the 
Office of Management and Budget's guidance for recovery spending issued 
April 3, 2009. We believe that local hiring is an effective tool that 
could be used to maintain and promote the working population by giving 
local workers a leg up on projects they pay for as taxpayers--projects 
that are being built in their own backyard. For this reason, the 
Administration supports establishing standards under which a contract 
for construction may be advertised that contains local hiring 
requirements in limited circumstances. This provision would be applied 
only if construction were being conducted in a designated area of high 
unemployment (per Department of Labor data) and the contract's total 
capital cost were over $10 million. Workforce Development Program funds 
could be used to train individuals hired under contracts allowing local 
hiring preferences.

Public Transportation Emergency Relief Program
    In many communities public transportation provides critical 
services to residents to carry on daily activities. A temporary 
interruption in transit service because of a natural or manmade 
disaster can be disruptive and even cause economic dislocation to those 
that rely on it for work, medical appointments, and other activities. 
Additionally, in the wake of Hurricanes Katrina and Rita, the 
Government Accountability Office found that existing Federal emergency 
and disaster relief programs were not sufficiently responsive to the 
public transportation needs of communities.
    The Administration believes that an Emergency Relief Program should 
be established to provide funds necessary to quickly restore transit 
operations in the wake of a disaster. This new program would fund the 
evacuation costs and temporary operating expenses of transit agencies 
during and after a disaster, as well as capital replacement and repair 
costs.

Buy America
    The Obama administration is committed to ensuring that projects 
built using United States tax dollars generate the maximum number of 
jobs right here in the United States. As such, we request that Congress 
implement the necessary legal changes to increase the ``Buy America'' 
standard for federally funded transit equipment and components over 
time to 100 percent U.S. content. The Administration proposes to 
achieve this goal by gradually increasing the percentage of rolling 
stock components and subcomponents that must be produced in the United 
States. This increase would take place over a 5-year period to enable 
vehicle manufacturers to enlist a greater number of U.S.-based vendors, 
and to give vendors time to relocate or commence manufacturing 
activities in this country. By 2016, 100 percent of the cost of 
components and subcomponents for rolling stock, including rolling stock 
prototypes, would have to be produced in the United States and final 
assembly would have to occur here as well.

Conclusion
    As high gas prices take a bite out of family budgets, the Obama 
administration will continue to work with communities to make sure 
commuters have affordable, convenient ways to get to work, school, or 
the grocery store. The Administration's policy proposals outlined above 
are a major step in that direction. In addition, there are other policy 
proposals that benefit several modes of transportation, including 
public transit. Examples are the Transportation Leadership Awards 
Program that will reward States and MPOs that are at the forefront of 
implementing best practices, including developing innovative ways to 
connect people to opportunities and products to markets and 
establishing a National Infrastructure Bank within the DOT as an 
innovative infrastructure financing mechanism for infrastructure 
projects of regional and national significance that would otherwise be 
difficult to fund.
    The Administration is eager to work with this Committee to ensure 
that Congress authorizes the Federal Transit Assistance Programs to 
assist our Nation's transit passengers--both those that use transit 
every day and those that want to use transit in the future. I will be 
happy to answer any questions you may have.
                                 ______
                                 
                PREPARED STATEMENT OF WILLIAM W. MILLAR
         President, American Public Transportation Association
                              May 19, 2011

Introduction
    Chairman Johnson, Ranking Member Shelby, and distinguished Members 
of the Committee, thank you for the opportunity to present testimony 
regarding the next surface transportation authorization bill. Enacting 
a well-funded, 6-year, multimodal surface transportation bill, is one 
of the most important actions Congress can take to repair our Nation's 
economy and prepare for the growth of the country. Investment in the 
Nation's transportation infrastructure will create jobs building 
facilities that our Nation will use for decades as we compete in a 
global economy. Conversely, further delay in passing an authorization 
bill will have the opposite effect, allowing our public transportation 
systems, roads, bridges, and rail to deteriorate, decreasing their 
effectiveness while forcing citizens and private sector businesses to 
be saddled with higher transportation costs. It will cause public 
transportation related companies to lay off employees, reduce 
investments in this country and some to invest overseas instead. Every 
$1 billion invested in public transportation creates or supports 36,000 
jobs, and public transportation investment is an essential strategy in 
a surface transportation bill as we seek to reduce our dependence on 
imported oil, reduce congestion on our roadways, and offer more 
transportation choices to Americans.

About APTA
    The American Public Transportation Association (APTA) is a 
nonprofit international association of 1,500 public and private member 
organizations, including transit systems and high-speed, intercity, and 
commuter rail operators; planning, design, construction, and finance 
firms; product and service providers; academic institutions; transit 
associations and State departments of transportation. APTA members 
serve the public interest by providing safe, efficient, and economical 
public transportation services and products. More than 90 percent of 
the people using public transportation in the United States and Canada 
are served by APTA member systems.

The Need for Federal Transit Investment
    As this Committee develops the transit title of the next surface 
transportation authorization bill, it is critical that the legislation 
increase Federal investments to levels that will allow the transit 
industry to address the Nation's significant public transportation 
needs. APTA has recommended $123 billion of Federal transit investment 
over 6 years, and $50 billion for high-speed and intercity passenger 
rail. President Obama has proposed $119 billion over the same period 
for transit investment and $53 billion for high-speed and intercity 
passenger rail. Under either scenario, new Federal investment would 
produce much-needed progress toward bringing our Nation's public 
transportation infrastructure up to a state of good repair and building 
the capacity for the tens of millions of new riders that will seek 
service in the coming years. The U.S. Department of Transportation 
estimates that a one-time investment of more than $78 billion is needed 
to bring the Nation's transit infrastructure up to a state of good 
repair. After that, research on transit needs shows that capital 
investment from all sources--Federal, State, and local--should be 
doubled if we are to prepare for future ridership demands.
    APTA recognizes that the Highway Trust Fund, including the Mass 
Transit Account, currently does not generate sufficient revenues to 
support the current level of investment, let alone levels that are 
needed from the Federal Government to meet the Nation's needs. To 
generate this revenue, at a minimum, Congress should restore the 
purchasing power of dedicated revenue for public transportation and 
other surface transportation investment to 1993 levels (when motor fuel 
taxes were last raised) and those revenues should be indexed to account 
for future inflation of construction costs. This view is shared by a 
wide range of organizations, such as the U.S. Chamber of Commerce, the 
American Trucking Association and AAA. Even if these actions are taken, 
more will have to be done as outlined by the congressionally chartered 
National Surface Transportation Policy and Revenue Study Commission.
    In addition, in an era of budget constraints, utilizing alternative 
financing mechanisms to more effectively leverage Federal investments 
makes a great deal of sense--but only to a certain extent. New 
financing tools cannot replace the need for expanded Federal 
investment. However, the Congress should examine the long-term 
viability of innovative financing techniques, including: public-private 
partnerships, Federal loan guarantees, tax exempt/tax credit bonds, 
tolling and congestion pricing, value capture increment financing, and 
other mechanisms that consider changes in energy use and reduce 
Nation's carbon footprint. Furthermore, there are modifications that 
can be made to existing programs, including the Transportation 
Infrastructure Finance and Innovation Act (TIFIA) program, that could 
make them a more effective source of public transportation financing.
    Demand for public transportation and the need for Federal 
leadership will not diminish in the months and years ahead. As gasoline 
prices continue to increase, Americans are again turning to public 
transportation in record numbers. We recently completed an analysis 
that reveals that as regular gas prices reach $4 a gallon across the 
Nation, an additional 670 million passenger trips could be expected, 
resulting in more than 10.8 billion trips per year, roughly a 6-percent 
increase. If pump prices jump to $5 a gallon, the report predicts an 
additional 1.5 billion passenger trips can be expected, resulting in 
more than 11.6 billion trips per year. And if prices were to soar to $6 
a gallon, expectations go as high as an additional 2.7 billion 
passenger trips, resulting in more than 12.9 billion trips per year.
    The volatility of gas prices is a wake-up call for our Nation to 
address the increasing demand for public transportation services. We 
must make significant, long-term investments in public transportation 
systems or we will leave Americans with limited travel options, or in 
many cases, stranded without travel options. Again, enacting a well-
funded, 6-year, multimodal surface transportation bill, is one of the 
most important actions Congress can take.

Getting the Most From Federal Funding: Program Reform and Speeding the 
        Delivery of Public Transportation Projects
    APTA's members have recommended numerous program changes that can 
be made to speed project delivery and reduce costs. Representatives 
from across our diverse membership: transit systems of all sizes, 
business members, State DOTs and others, worked for more than a year to 
develop consensus recommendations. Simplifying and streamlining Federal 
surface transportation programs will not solve many of the problems 
facing our Nation's transportation infrastructure, but Federal 
resources must be used as efficiently as possible. Surface 
transportation authorization legislation is the best opportunity to 
revise and modify Federal Transit Administration (FTA) programs so that 
Federal investment can be used more effectively. The following is a 
summary of several of the major recommendations that APTA has endorsed:

New Starts Program
    The New Starts program is the primary source of Federal investment 
in the construction or expansion of heavy and light rail transit 
systems, commuter rail systems, and bus rapid transit projects. The 
construction or expansion of new fixed guideway systems is essential to 
enhancing the Nation's mobility, accessibility, and economic prosperity 
while promoting energy conservation and environmental quality.
    While the New Starts program is critical to the future of public 
transportation, the process for developing, approving, and delivering a 
project can stretch out for a decade or longer. According to FTA, 
project development can take 6 to 12 years, a time consuming and 
expensive process for project sponsors, and completing the first phase 
of the process, conducting an Alternatives Analysis, typically takes 2 
years. New Starts project applications are subjected to greater 
analysis than any other federally funded highway or transit project. If 
projects sponsors can demonstrate the worthiness of an investment and 
their ability to manage its construction, the Federal Government should 
limit further burdens on a project's development.
    APTA asks Congress to eliminate the requirement for an Alternatives 
Analysis stage in New Starts that is required by current law. The work 
completed during the Alternatives Analysis stage of project development 
often replicates work that is undertaken for the federally required 
Metropolitan Transportation Planning process and/or the National 
Environmental Policy Act (NEPA) alternatives analysis that is required 
of all Federal projects. Where local agencies and officials deem that a 
corridor-level planning study or more formal Alternatives Analysis 
would be of value for a Major Capital Investment Project, they should 
be permitted to perform such studies but it should not be required.
    APTA also calls for reducing the number of approvals that a project 
must receive from FTA throughout the entire New Starts process. 
Approval of a project to enter the New Starts program should convey 
FTA's intent to recommend a project for eventual funding, provided the 
project continues to meet certain criteria, and satisfies NEPA 
requirements and other project development conditions. In addition to 
eliminating FTA's time consuming, costly, and duplicative alternative 
analysis process this change would eliminate the current need for 
separate formal FTA approvals to enter the Preliminary Engineering and 
Final Design stages, and instead require a single FTA approval into the 
new starts program. Waiting for each of these approvals means that all 
project development work stalls between each successive step, often 
causing months and years of delay at each step in the process. APTA has 
also called for the use of Project Development Agreements (PDA), which 
have been used in the Small Starts process, to set schedules and roles 
for both FTA and the project sponsor. A PDA should also be the basis 
for an Early Systems Work Agreement once the NEPA process is completed 
with a Record of Decision (ROD) or a Finding of No Significant Impact 
(FONSI).
    FTA has been has been developing very similar recommendations that 
are based on the agency's extensive experience and efforts to improve 
program delivery. In recent years, FTA has already made changes that 
simplify project rating criteria and ensure that rating criteria better 
reflect the full range of benefits from New Starts and Small Starts 
projects, another APTA priority. In addition the President's FY2012 
budget, which contains early policy recommendations for authorization, 
specifically suggests eliminating the Alternative Analysis process and 
reducing the number of FTA approval steps in the New Starts process. We 
heartily endorse their ideas. We look forward to working with this 
Committee and the Administration to speed the delivery of high-quality 
projects under the New Starts program.

Discretionary Bus and Bus Facilities Program
    Another APTA recommendation is intended to balance the various 
needs of the Nation's diverse bus systems. First, APTA believes it is 
very important to maintain a separate Federal program that dedicates 
funds to assist transit agencies to replace bus rolling stock and build 
new bus facilities. These periodical expenditures are unavoidable, yet 
many transit agencies lack the ability to finance large capital 
projects within their regular operating budget. On the other hand, 
under the current system many agencies have been shut out of the 
process, and unable to access funds from this account. To help resolve 
this inequity, but still maintain the ability for certain agencies to 
meet extraordinary capital needs, APTA recommends modifying the current 
Bus and Bus Facilities program to create two separate categories of 
funding. Under the new program, 50 percent of the available funds would 
be distributed under formula, and the remaining 50 percent would 
continue to be distributed under a discretionary program through a 
competitive grants process administered by FTA.
    APTA also recommends, with new resources, the creation of a new 
``Clean Fuel Bus Program'' that would help agencies address the 
significant backlog of rolling stock, while proving incentives to 
transit agencies replace older vehicles with new alternative fuel 
vehicles. This initiative would make funds available to urban and rural 
transit agencies that have buses in operation that exceed 125 percent 
of the FTA standard for vehicle replacement. Transit systems that 
receive funds under this program would have to use them to purchase new 
clean fuel vehicles.

Coordinated Mobility Initiative
    APTA recommends the creation of a new Coordinated Mobility Program, 
which would consolidate three existing formula programs into one. The 
new program would combine the Job Access and Reverse Commute, New 
Freedom, and Elderly and Disabled Formula programs. The goals of the 
program and the eligible uses of funding would remain consistent with 
the three existing programs, while planning and coordination of 
services would be improved. This consolidation would allow more 
flexibility at the local level for service providers to deploy limited 
resources in ways that best meet local needs. The proposal would allow 
communities to continue carry out existing programs, but effectively 
consolidate the administrative and grant making processes. At present, 
the size of grants that are available from the three individual 
programs is small compared to the administrative burden and cost of 
applying for the funds. The Administration has also included this 
consolidation in its FY2012 budget proposal.

Other Program Recommendations
    Small Transit Intensive Cities (STIC) Program: APTA supports the 
continuation of the STIC program, which added a service factor to the 
distribution of funds in small urban areas. The STIC program was 
designed to address the higher capital costs of those systems with 
significantly higher service factors. APTA strongly supports the 
continuation of the program.
    Fixed Guideway Modernization Program: The Fixed Guideway 
Modernization program provides resources to passenger rail systems to 
assist with maintaining the systems in a state of good repair and 
modernizing the rail cars and supporting infrastructure. Currently, 
formula funds for this program are distributed under a complex, seven-
tiered structure. Should new funds be made available to grow this 
program, APTA recommends replacing the seven-tiered program with a 
simpler, two tier formula distribution. The first tier would retain the 
characteristics of the current program, while the second tier would 
distribute funds using the Section 5307 rail tier formula for all fixed 
guideway systems that meet the 7 year requirement.
    5307 Operating Exception: Public transportation systems in 
urbanized areas of more than 200,000 population which operate less than 
100 buses in peak operation should be authorized to use section 5307 
formula funds for operating purposes.
    Workforce Development: Congress should continue current training 
programs and create new ones to support public transportation labor and 
management workforce development in the public and private sectors. In 
addition, APTA supports the creation of a National Joint Workforce 
Development Council, along with 10 Regional Joint Workforce Development 
Councils, comprised of equal members from labor and management, along 
with representatives from transit-related public and private sector 
industries. The goal is to create working partnerships between labor 
and management. These councils will identify and put forth solutions to 
issues such as identifying skills gaps and developing corresponding 
training programs, establishing career ladder programs to bring 
existing employees into management positions and maintaining an online 
database of workforce development training materials.
    Research Programs: The Federal transit program should continue to 
invest in research. It might seem easy to reduce funding for some of 
these programs today, but these investments are essential to 
identifying future cost savings and improvements. Let me give you one 
example. The Transit Cooperative Research Program (TCRP) has been 
serving the industry since 1992. This congressionally established 
program is sponsored by FTA and carried out under a three-way agreement 
among the National Academies, acting through its Transportation 
Research Board (TRB); the Transit Development Corporation, an 
educational and research arm of APTA and the FTA. The program focuses 
on issues significant to the transit industry, with an emphasis on 
developing near-term research solutions to a variety of problems 
involving facilities, vehicles, equipment, operations, and other 
matters. The program has researched issues which have resulted in large 
dollar savings for public transit agencies while enabling them to 
improve customer service. For example, a number of transit systems used 
a TCRP report on low-floor light rail vehicle technologies and 
characteristics to develop specifications. Savings to just one agency 
were estimated at $20 million as a result of using the results of the 
TCRP research. TCRP research is not limited to just big city 
operations. Rural transit systems in States such as West Virginia and 
Utah have used TCRP research findings to improve coordination of 
transportation services with human service agencies. TCRP research also 
helps train transportation professionals by providing teaching tools 
which have been developed by the Institute of Transportation Engineers, 
the University of Maryland, the University of Nevada, and George Mason 
University have all used TCRP in developing textbooks and curriculum 
for undergraduate and graduate level courses.
    We look forward to discussing additional recommendations to speed 
project delivery and increase program efficiency. We have additional 
suggestions about using Categorical Exclusions more frequently for 
commonplace state of good repair projects to shorten the environmental 
review process and other ideas. To learn more about APTA's additional 
recommendations please see, ``APTA Recommendations on Federal Public 
Transportation Authorizing Law'', Adopted October 5, 2008, Revised 
November 1, 2009, available on the APTA Web site: http://www.apta.com/
gap/legissues/authorization/Documents/
apta_authorization_recommendations.pdf.

High-Speed and Intercity Passenger Rail
    While APTA recognizes that the Banking Committee does not have 
jurisdiction over intercity passenger rail and other Federal Railroad 
Administration issues, we raise these issues here because it is an 
important element of APTA's recommendations for surface transportation 
authorizing law.
    To meet the rapidly expanding needs of an ever-growing and highly 
mobile population, the United States must develop a fully integrated 
multimodal high-speed and intercity passenger rail system (HSIPR). APTA 
strongly supports President Obama's proposal to provide $53 billion 
dollars over 6 years to improve and expand high-speed and intercity 
passenger rail and urges Congress to provide the first $8 billion which 
was included in the President's Fiscal Year 2012 (FY12) budget request. 
Further, APTA strongly opposes any attempts to rescind or eliminate 
HSIPR funding. These funds are needed to ensure that the 32 States and 
the District of Columbia which are forging ahead with planning and 
implementing high-speed and intercity passenger rail improvements can 
continue their efforts to modernize and expand our Nation's passenger 
rail services.

Conclusion
    I thank the Members of this Committee for your many years of 
leadership on public transportation policy. We hope that our 
recommendations can speed up the implementation of transportation 
projects without impacting environmental protections for all Americans 
and that such streamlining can reduce project costs in the bargain. We 
have tried to provide specific examples of how improvements can 
expedite that process. We look forward to working with the Committee as 
more details become available and we appreciate the opportunity to 
testify today.
                                 ______
                                 
                 PREPARED STATEMENT OF DALE J. MARISCO
  Executive Director, Community Transportation Association of America
                              May 19, 2011

    Mr. Chairman and Members of the Committee: I want to express my 
appreciation for your invitation to be here today to discuss some of 
the important issues concerning reauthorization of our Nation's surface 
transportation programs. Our organization, the Community Transportation 
Association of America, was originally founded by those providing and 
advocating for new mobility strategies--not just within rural and urban 
communities but also in connecting these communities to each other and 
other regional destinations. Today, we represent more than 4,000 
organizations and individuals dedicated to providing cost-effective and 
efficient mobility to all Americans.
    My testimony today will focus upon five key aspects vital to any 
legislation reauthorizing surface transportation programs: mobility in 
rural areas, mobility in urban regions, the connectivity that is 
essential to linking those areas with each other, crucial changes 
needed in policy towards nonemergency medical transportation, and the 
finance challenge--or how we support a diversified transportation 
network.

I. A Platform for Rural Mobility

The State of Rural America
    The challenges that impact rural transportation are inseparable 
from the larger conditions that define America's rural communities 
today. The economic downturn that has affected the entire Nation over 
the past several years is even more acutely felt in rural America. 
Average incomes are lower in these communities, while the cost of 
living is proportionally higher--as costs for everyday needs such as 
food, fuel and utilities gradually consume a larger percentage of 
paychecks. Gas price increases, for example, disproportionately impact 
rural residents who travel greater distances and tend to operate older, 
less fuel-efficient vehicles. This is especially true for the most at-
risk populations, including seniors, people with disabilities, job 
seekers and veterans, who are often driven to the precipice of poverty 
while attempting to make ends meet.
    Meanwhile, the revenue streams available to State and local 
governments to support rural communities are increasingly constrained 
through declines in property values and the stalled climate for 
economic development.
    Rural areas face greater difficulty in capturing the value 
contained in their communities due to the growing distances its 
citizens need to travel in order to access employment, health care, and 
other essential services--compounding the inherent economic 
disadvantages of rural life. The census indicates a declining 
population for rural America. Indeed, a fundamental truth of today's 
rural America is emerging--a place where the needs are greater but the 
resources are less.

The State of Rural Transit
    Rural transit service is as varied as the small towns and 
communities that it serves. No two systems are alike--from investment 
sources to service modes to passengers. Today, rural transit operators 
provide more trips than ever before and provide this service using an 
increasingly diverse array of service types. The traditional demand-
response rural transit operation that once largely served senior 
citizens has been transformed in recent years to a full-service public 
transit agency with intermodal connections with intercity operators, 
employer-partnered van pools, essential nonemergency medical 
transportation trips (for example, dialysis and chemotherapy) and to 
our Nation's veterans and their families. These rural systems deploy 
state-of-the-art technology to ensure their operations are as cost-
effective and efficient as possible.
    The modern concept of coordinated transportation was invented by 
rural transit operators as they evolved and responded to the specific 
mobility needs in their communities. No single source of investment was 
sufficient so each operator learned to build both public and private 
partnerships in order to meet local demand. Today, the two most vital 
sources of rural transit investment are the FTA Section 5311 formula 
funding program and the Medicaid nonemergency transportation program.

Rural Connectivity Is Key
    The twin challenges of providing transportation in rural 
communities, and responding to the significant and growing limitations 
of rural America present an urgent opportunity to build a connected 
network of mobility options to link people with destinations. Simply 
put, doing things the same ways they've always been done fails to 
recognize these self-evident realities of how rural Americans live, 
work, and participate in their communities today. The most proven 
approach to address this reshaped rural environment is through enhanced 
connectivity.
    Spanning a range of human services, transportation systems, and 
physical locations, connectivity unites the mobility needs of rural 
Americans--and all Americans--by encouraging efficient and responsive 
linkages between the places people live and the destinations they need 
to reach. Sometimes connectivity is found in vibrant centers of 
community mobility--modern Union Stations--where transportation 
providers, community programs and economic development intersect. In 
other instances, connectivity becomes real when public organizations 
and private entities forge partnerships to meet the needs of a specific 
group of people through innovation and efficiency. In still others, the 
markers of connectivity are regional collaborations that transcend the 
jurisdictional boundaries that pose artificial and attitudinal barriers 
to neighbors helping neighbors. Many times, true connectivity 
encompasses all of these elements working in concert.
    Regardless of how it is achieved, the investment, resources, and 
programs which make connectivity possible are urgently needed to 
further expand mobility options and make real progress in responding to 
the state of rural America today.

Rural Transit Builds Economic Development and Jobs
    Rural transit does more than move people, it also builds rural 
economies by connecting local residents with expanded regional job 
opportunities, by allowing residents to continue living in rural 
communities and by helping revitalize small town main streets.
    Our members are not only significant local employers themselves, 
they are working with both large and small local employers to develop 
employee transportation routes throughout rural regions, sometimes as 
part of existing fixed-route services and in others, developing 
specific employment routes in concert with the employer. Sometimes 
these routes cross county lines, in other cases, they cross State 
lines. In every case, they facilitate employment and allow employees 
and their paychecks access to their hometowns.
    In some communities--including tribal areas--rural public transit 
agencies are building a smaller-scale version of transportation-
oriented development that can help revitalize main streets by focusing 
together people, human services, retail outlets, regional connections, 
and commercial opportunities. These smaller-scale intermodal stations 
often connect with private intercity bus lines and taxi companies to 
help connect local residents with nearby cities and airports. Rural 
public transit has a significant role to play in reviving rural America 
and helping its residents get back to work.

Rural Transit Serves At-Risk Populations
    The people who depend upon rural public transit services are often 
those for whom there is no other way to go. Older Americans, people 
with disabilities, the working poor, disabled veterans, Native 
Americans, and more need effective mobility to avoid the stifling 
isolation that degrades their health, independence, employment, 
education, and overall quality of life.
    The growing population of older Americans in rural communities 
absolutely depends on their local transit systems to be able to age-in-
place and live out their years in the communities they call home. From 
health care appointments to congregate meals to shopping and social 
outings, rural public transit is vital to the fastest growing segment 
of the rural population: seniors.
    The population of veterans returning after service in Iraq and 
Afghanistan is disproportionately rural and requires cost-effective 
connections to both local and regional VA health care facilities, as 
well as to the educational and employment opportunities they will need 
to reintegrate back into society.
    Our Nation's Tribal communities, too, are largely rural in nature 
and require transit operations for effective connections to health 
care, to employment, to social service providers, among others. Across 
the country, Tribal leaders are embracing transit as a viable means of 
local economic development and connectivity.

Medical Transportation Emerges as a Top Priority
    Since its inception, rural public and tribal transit has been 
engaged in providing rural residents with important connections to 
medical care. These nonemergency transportation services has been 
important to residents of all ages, but especially to the elderly. 
Demand for these services have increased dramatically over the last 
decade since changes in the delivery of health care have introduced 
major consequences for rural Americans. Part of this increased demand 
is created by having more health care delivered in noninstitutional 
settings, such as outpatient care. This is especially difficult for 
rural transit providers because these increases have occurred at a time 
when many smaller hospitals and primary care providers have left 
smaller communities where service volume is lower. Consequently rural 
transit must take residents further and further from their homes to 
reach routine--as well as specialized--services. This is especially 
true of the growing need for transportation for dialysis services. 
Rural public transit is often the only option to connect people with 
these services.
    Changes in the health care marketplace as well as the implications 
of health reform will increase the utilization of noninstitutional 
care. Growing senior populations in rural communities will also enhance 
the need for such services. CTAA members report that in some 
communities the demand for service to health care means that little 
capacity is available for other mobility needs. The current rural 
transit program--financed through Section 5311--offers local 
communities and mobility providers flexible ways to provide services in 
this area.
    The clear and steady progress on providing this service has been 
severely challenged across rural America in the last 2 years. The 
severe budget crisis affecting most States have had a dramatic impact 
on rural services, as have the changes States are implementing in 
health care, such as new Medicaid administration models.
    There is a greater need for more supportive coordination efforts 
with local health care institutions, as well as developing coordinated 
efforts that create mobility partnerships with local ambulance and 
medical transfer providers, since rural residents will need a 
combination of this services to live at home in the years ahead.

Streamlining
    As essential to the continued reinvestment in rural America and its 
mobility options is a rethinking of the sources of investment and the 
policy structures which help support rural transportation providers. 
Although continued investment in rural transportation--and transit 
systems in all communities--is always needed and appreciated, the 
bureaucratic procedures and programs installed around those resources 
frequently become burdensome to transportation providers and often 
serve as barriers to progress and innovation.
    Several transit investment programs administered by Federal 
agencies stipulate hundreds of conditions in order to qualify, often so 
many that some transportation providers avoid them altogether, for the 
return in resources does not match the effort needed to obtain them. 
So-called competitive programs often see reduced interest from rural 
communities simple because these areas lack the funds to access 
professional grant writing and therefore never apply. Likewise, 
transportation legislation often includes restrictions on how 
recipients can utilize that investment or requires a local match--
conditions which impose strict limitations on budgetary decision making 
and fiscal creativity, especially during tough economic times, like 
today. And the process by which these policies are crafted is nearly 
always devoid of input from the very people they impact: the 
professionals and experts who lead our Nation's transportation systems 
and the riders for whom they benefit.
    A substantial reenvisioning is necessary of not only what our 
Nation's transportation policies require, but--perhaps more 
importantly--how they are created in the first place.

The Local Share Challenge
    Among the most pressing issues facing rural transit operators is 
the challenge of finding and maintaining the local share necessary to 
match Section 5311 operating and capital investment. The poor state of 
local rural economies, combined with unprecedented large State budget 
deficits, is the crux of this dilemma.
    Many CTAA members report that increasing or even maintaining 
Section 5311 formula funds in the next transportation reauthorization 
bill is not enough--that they need States and localities to fully adopt 
all of the flexibility available in developing local match options. We 
hope that the Congress can initiate these important discussions with 
the States.
    During development of the last reauthorization--SAFETEA-LU--Section 
5311 local share flexibility was offered to States with large tracts of 
Federal land. We would like to explore a similar concept based on local 
unemployment figures and/or fuel prices as a trigger for lowering local 
match ratios for rural public transit agencies.

Rural Transit's Need for Revenue of Our Own
    There is a unique context in transit revenue development in rural 
communities. Rural transit often approaches service development from 
the need in the community, as opposed to providing services based on 
what funding is available. That's why we think it's not unusual to find 
many rural agencies--regardless of their size or sophistication--still 
engaged in what we call the bake sale approach, looking for every 
possibility to fund the local share of their services, or to arrange 
investment to provide service when the State distributes its 5311 
allocations.
    The economic situation of the last several years has disrupted this 
traditional partnership, as the financial impact of the recession has 
hurt the local financial resources for rural service. Unlike larger 
transit authorities in urbanized areas, there are very few ways to 
create special taxing or revenue districts to offset these changes in 
State revenue. Additionally, local governments in rural America tend to 
lack additional resources, especially in periods of economy decline.
    Rural transit needs additional sources of capital to meet it's 
needs, but also clearly needs some form of financing it can depend on--
not just in difficult economic times, but in good ones as well. 
Considering the lack of alternatives to creating rural financing 
mechanisms, we favor creating changes in current rural transit 
regulations that would allow the funds generated through the fare box 
in rural transit to be considered flexible local revenue, as they are 
in urban areas. These flexible funds could be used to establish 
operating reserves for local transit, as well as provide funds that 
could be leveraged to help local agencies pay for capital improvements. 
This would provide a direct link between the fare box and improved 
services for local residents, ensuring that they have an easily 
understood way to do their part to help their local transit system make 
improvements that benefit them. The ability to use these funds for 
leverage will also help local systems develop better long-term plans 
based upon ridership assumptions that can be linked to revenue. It 
would also create a better understanding in the local and State 
political processes that a community can make a commitment to transit 
by setting out a fair policy for fare box revenue when they cannot 
raise funds in other more traditional methods.
    Empowerment and local decision making is dependent on having some 
revenue that belongs to a transit system alone. Giving rural transit 
this flexibility funds provides that empowerment.

II. A Platform for Urban Mobility

The State of Urban America
    Although the early years of the 20th century marked the most 
massive expansion of cities in our Nation's history, the initial stages 
of the 21st century continues to witness the increasing urbanization of 
America. According to the 2010 Census, more than 80 percent of 
Americans reside in urban areas, advancing a trend that began in 1920--
when, for the first time in history, the majority of Americans began 
living in urban areas. Moreover, the urbanization of America is 
projected to continue unabated, with the cumulative urban population 
drawing closer to 90 percent by the end of the current century.
    And yet, a greater share of the population has not translated to 
greater resources or heightened prosperity in cities both large and 
small. Poverty rates in urban areas have been exacerbated by greater 
numbers of people, indeed, the majority of Medicaid recipients live in 
urban communities. At the same time, growing numbers of urban residents 
are dependent on fiscal supports and social services while the cost of 
living in these areas continues to climb. Despite the concentration of 
people and services in urban regions, significant numbers of urban 
dwellers are nonetheless isolated from fully engaging in their 
communities. Increasingly congested thoroughfares, economic districts 
and neighborhoods dampen the vibrancy of many metropolitan regions. 
According to the Texas Transit Institute, in 2010, U.S. traffic 
congestion cost more than $87 billion in lost productivity, while 
wasting 2.8 billion gallons of gasoline.

The State of Urban Transit
    When many people think of public transit in urban areas, they think 
of buses and trains taking people to and from work. And that is 
certainly a large and vital aspect of what constitutes public 
transportation in our Nation's metropolitan regions. But other 
important elements and purposes come together to form the true fabric 
of mobility in urban communities. Transit takes people to health care, 
shopping, community services--such as those for seniors and veterans--
school, child care, and a myriad other destinations, and at 
increasingly greater numbers. The work of connecting people in both 
large cities and smaller urban areas is more than a collection of 
vehicles or routes on a map, but a broad and continuing effort to 
respond to the mobility needs with a range of services and options.
    Ridership on most urban public transportation systems has seen 
steady growth over the past decade--particularly in recent months as 
rising gas prices have encouraged many to seek alternative means of 
travel. At the same time, however, local economic factors have forced 
many urban transit systems to raise fares and cutback service. Since 
January 2009, more than 80 percent of transit systems have had to 
reduce service and increase fares, according to the American Public 
Transportation Association. Such a paradoxical response to their 
success in attracting riders suggests an urgent need to provide stable 
investment and resources to allow transit operators to do what they do 
best: connect riders with the destinations they need to reach in the 
most responsive and efficient manner.

Urban Isolation
    A fundamental paradox of urban life is that while cities and 
metropolitan regions bring together substantial amounts of both people 
and activity--often in very dense accumulations, that very same 
consolidation of population and destinations can pose barriers to the 
same people most in need of help. Older people, people with 
disabilities, the working poor, and many others can be trapped by the 
challenges of urban communities, including outdated and difficult-to-
navigate infrastructure, a lack of connections with family or friends, 
and higher costs for products and services--to name a few--all of which 
impact mobility options.
    Transportation networks are both the cause of--and the solution 
to--the isolation of urban residents. Many of those barriers are the 
consequence of poor planning and the outdated thinking of long ago: 
highways decimate established neighborhoods and important community 
assets such as sidewalks and public facilities cultivate an 
infrastructure of isolation. Meanwhile, due to a shortfalls in 
resources and investment from local, State, and Federal programs, 
transit operators in urban areas are increasingly forced to struggle 
with antiquated facilities--many of them inaccessible to people with 
disabilities and seniors--reduced service and increased fares, further 
impeding the necessities of daily life for many. Those same service 
cuts also disproportionally hurt those who utilize complimentary 
paratransit services, for when fixed-route service is reduced or 
eliminated, the paratransit service which responded to those within a 
\3/4\ mile on either side of the route is similarly reduced or 
eliminated.
    Conversely, a vibrant and responsive set of mobility options can be 
the salve to overcome the challenges of urban communities for people, 
connecting them with health care, community programs, and key 
destinations that leverage the totality of resources in metropolitan 
regions. And voters are responding. In the past 3 years, local transit 
referenda designed to increase local investment have been approved at a 
more than 70 percent rate. The charge for policy makers at all levels 
is aligning the investment and policy directions necessary to support 
this type of urban mobility.

Transportation for Treatment
    One of the most urgent and evolving aspects of contemporary urban 
life is the need to access quality health care. And, fortunately, 
cities are the most common locations to station massive medical 
facilities, with most specializing in crucial elements of care--from 
cancer centers to cardiovascular treatment. More frequently, these 
urban heath campuses or districts are becoming substantial generators 
of community activity, with large swaths of regional economies tied 
into their output. Significant health care corridors such as those in 
Cleveland, Ohio, and Rochester, Minnesota, demonstrate this new way of 
orchestrating large-scale health care. At the same time, publicly 
supported heath care--such as Medicaid and the VA health care system--
is focusing on consolidating services at these megahealth care 
locations to boost efficiency and leverage expertise within the same 
premises. This evolving approach, which combines centralized services 
with greater use of outpatient methodologies, reflects the new 
realities of how health care is organized and delivered across the 
Nation.
    Growing activity at regional medical centers necessarily impacts 
urban mobility. Aside from the generation of new congestion on roadways 
to and at these facilities, a sizeable cohort of doctors, medical 
professionals, patients, family caregivers, administrators, workers, 
and visitors all must access them regularly, and many of them are able 
to drive themselves to interact with needed care. Accordingly, the 
vehicles of public and community transportation providers will be 
increasingly relied upon to connect people with metropolitan health 
care centers, and transit professionals should carefully consider how 
to respond to this expanding segment of trips with appropriate routes 
and service hours, especially when much of health care provision occurs 
away from the traditional transit peak periods. Additionally, those 
planning the development of these medical campuses must work with 
transportation leaders to identify how all elements of mobility can 
come together to better serve their important destinations.

Getting to Work
    Even as the need for transit to connect with burgeoning health care 
facilities becomes more pronounced, urban transportation systems still 
generate the foundation of their ridership by taking people from home 
to work and back. From the halcyon days of the 5:15 commuter train to 
more modern applications of transit stops contained directly within 
employment locations, many city commuters look to transit as their 
primary means of accessing their jobs. And transit providers everywhere 
do a fantastic job in fulfilling this mission, delivering riders 
efficiently, reliably, and affordability, day in and out.
    Increasing gas prices are today adding new transit commuter demand. 
And as the Nation's economy gradually recovers from its recent 
downturn, urban residents returning to work will once again look to 
transit to take them, but perhaps in new ways. New work shifts will 
expand the need for travel options during midday- and late-night 
periods, as will newly created jobs at locations previously unserved by 
rail lines or bus routes. Moreover, low-income workers need to realize 
every penny of their income to make ends meet, so they are 
disproportionally affected by fare increases and service cutbacks. When 
combined, these emerging employment trends will require transit 
professionals to reconsider how to best serve their core audience of 
commuters, and demand proactive partnerships between transportation 
providers and employers to transport workers most effectively. Policy 
makers can aid in the process by incentivizing these collaborations 
through new investment and streamlined regulations to encourage service 
innovation. Those policy discussions should also be mindful of the 
important relationship between housing costs and commuting options. 
CTAA has housed the JOBLINKS Initiative that develops important 
resources, best practices, toolkits, and demonstration programs to 
build successful employment transportation solutions. This program 
needs to be continued in the next surface transportation 
reauthorization.

Coordinating Options
    Urban areas are often the greatest incubators of transportation 
services, with a host of systems, operators--both public and private--
and locations offering ways to reach various destinations. In the 
largest metropolitan regions, there can be dozens of passenger rail 
services, bus operations, taxi companies, passenger stations, and other 
transportation elements from which riders can choose. The key to 
transforming urban areas into dynamic and healthy places for both 
economic activity and societal well being is ensuring that a blend of 
options and networks work together.
    A collection of aspects must be integrated with purpose to ensure 
passengers can access individual transit services as a cohesive 
network, with informational tools and fare processing media at the 
heart of these components. Whether its maps and brochures, customer 
service professionals or the increasingly important world of social 
networking, the manner by which riders understand how various mobility 
options interact is fundamental to achieving a regional approach to 
transportation. Organizations and agencies must collaborate to clarify 
their messages and simply instructions on how to navigate confusing 
elements such as transfers and timetables, and encourage their patrons 
to take advantage of connecting services. Likewise, unifying fare 
collection through a single system--such as an electronic fare card--
can more easily facilitate links for passengers on multiple operations, 
while still delivering accountable farebox revenues to the individual 
providers.

Connectivity
    A well-run urban transportation network is only as effective as the 
connections it offers to key destinations within and beyond the 
community. Often, this activity occurs at a central location--an 
intermodal facility where local transit routes meet intercity bus and 
rail services, along with a mix of retail, residential, and commercial 
development as well as vital community services. Transit always has--
and will continue to have--an indivisible role in the rail and bus 
stations that have historically been key nexuses of urban life.
    It is also increasingly apparent that new regional destinations are 
emerging in and around metropolitan areas where services are colocated 
and travel demand is growing. A prime example is regional medical 
facilities, which are quickly becoming significant generators of not 
only transit trips, but also overall economic activity. Likewise, the 
development of town retail centers and revitalized historic districts 
colocate attractions, commerce, and housing, all of which are dependent 
on strong transit connections in order to succeed. By focusing urban 
transit service--as well as rural transportation and intercity routes--
at these dynamic locations, riders benefit from easy linkages to vital 
services and destinations, while the community realizes more effective 
uses of investment and resources.

Assisting Operations
    One of the most acute impacts of the economic downturn was felt in 
tandem by transit riders and employees as many urban transit operators 
were forced to raise fares and cut service in response to severe budget 
limitations caused by dwindling local revenues and falling ridership, 
as unemployed workers stayed home. These systems often had little 
choice in these decisions, as the full range of investment options were 
not available to them. For years, transportation providers in rural 
areas and smaller urban communities with populations under 200,000 have 
been allowed to utilize the investment provided by the Federal 
Government to support either capital or operating costs, while urban 
systems in areas over 200,000 were restricted to the former. And during 
times while economic conditions were strong, many State and local 
governments were able to allocate resources to support their transit 
systems' operating budgets.
    Currently, those same local and State coffers which provided 
resources for transit operating costs have been drained by plummeting 
local sales tax revenues and devalued property rates, which cut into 
State budgets. As a result, State and local governments were faced with 
fewer resources to respond to the same needs, for everything from 
education to law enforcement. Leaders were forced into an inescapable 
choice between a host of vital programs and services, and, frequently, 
transit was the victim.
    A change in Federal policy is urgently needed to allow urban 
transit systems to weather these fiscal storms that decimate State and 
local budgets. By allowing communities over 200,000 residents the 
flexibility to determine on their own how best to use their resources--
if only for a temporary period--Federal leaders could save transit 
service for those who need it most while also safeguarding the jobs of 
transit workers who provide the best kind of public service. This 
flexibility is particularly necessary for the more than 90 small 
communities around the Nation--each of which is under 200,000 
population--that have, through no fault of their own, found themselves 
agglomerated by the 2010 Census into large urban areas and which will 
go from 100 percent match to zero percent flexibility. The legislation 
drafted last year by Congressman Russ Carnahan (H.R. 2746)--and later 
introduced in the Senate by Senator Sherrod Brown (S. 3189)--is a solid 
platform address the need for transit operating assistance and an 
updated version should be considered by the current Congress. Any 
legislation directed towards resolving the operating assistance 
challenge should include provisions to support full operating 
flexibility for transit systems--regardless of the populations of those 
service areas--operating less than 100 vehicles in peak service.

Reinvesting in Urban Communities
    Few other arrows in the economic development quiver excite policy 
makers as much as community reinvestment tied to transit. As one of the 
most successful public-private partnership concepts available, these 
approaches are proven generators of economic activity. The presence of 
vibrant transit options makes new development projects attractive to 
occupants and customers, while opening up existing and revitalized 
areas to new audiences. The success of the Rosslyn-Ballston corridor in 
Arlington, VA, in focusing development around its Orange Line Metro 
stations is a model for the interaction between transit and 
development. Transit and development work as symbiotic partners to 
generate activity: bus and rail lines deliver patrons and visitors to 
appealing destinations, while those same locations produce riders for 
the transit network.
    Accordingly, a robust collection of modes in community and public 
transportation can thread the economic development needle most 
accurately through their combination of capacity, minimal construction 
impacts and cohesive integration of their operations within the fabric 
of a community. New and expanded transit services should be cultivated 
not only in their ability to meet mobility needs and generate 
ridership, but also by spurring development and revitalization in some 
segment or district along their route. Otherwise, some of their most 
important benefits are lost. Moreover, cost-effectiveness and project 
selection processes must be honed in order to give proper credit to 
projects where these important community benefits are included.

Remembering the Lesson of the PCC
    The needs and nuances of providing transit options are as varied as 
there are metropolitan communities. The specifics of demographics, 
local governance and politics, and neighborhood identities are just 
some of the factors that shape urban environments. And yet, much is the 
same among urban transit providers, no matter their location: vehicles 
and equipment must be procured; standards and measurements are required 
for safety and performance; and common practices for concepts such as 
community reinvestment, intermodalism, and coordination remain constant 
in most urban areas.
    By working together as an industry, leaders in urban transit can 
establish best practices and common standards to purchase vehicles more 
efficiently, cultivate a strong safety culture as an industry, and 
ensure transit projects are synonymous with success. And to those who 
say it cannot be done because the differences are too great, recall 
how--more than a half-century ago--a group of rival streetcar systems 
worked together to create the Presidents' Conference Committee (PCC) 
vehicle that bolstered their fiscal health in a time of increasing 
competition from the automobile by leveraging their collective 
purchasing power. The same is true in the airline industry, where the 
safety performance of one airline impacts the others, and no 
advertisements boast one carrier to be safer than their rivals. A 
similar foundation of shared interest is needed among transit providers 
to face the challenges of today and tomorrow.

Planes, Trains, and Transit
    Among the increasingly important regional destinations we discussed 
above as key anchors of connectivity are airports. Once considered as a 
competing mode of travel and divorced from the larger transportation 
network, airports are frequently becoming important intermodal centers 
in their own right, where travelers can interact with a number of 
mobility options. A host of airports already have direct links to 
metropolitan passenger rail systems, and nearly all are served by local 
and regional bus routes.
    A new vision of connected mobility must include recognition of this 
growing role of airports and facilitate even better linkages between 
modes. Intercity bus routes that serve both urban and rural communities 
should be welcomed at air travel facilities, especially major hub 
locations, and forthcoming high-speed and intercity rail lines must 
offer easy connections to airports along their routes--as is already 
common in Europe and Asia. At the same time, new technology allows for 
easier coordination between providers, so that a trip of a single 
individual could be routed via a local transit system to an intercity 
bus or rail line, which feeds to a busy airport for a intra- or 
intercontinental flight. By including elements such as schedules, 
luggage transfers, and security clearances as unified transportation 
network, new efficiency and responsiveness can be realized by allowing 
each mode to focus on the core passenger sectors they serve best.

Supporting Urban Transit
    A mutlifaceted approach to supporting mobility areas should include 
a realistic assessment of how Americans live, work and interact in 
metropolitan communities, as well as a frank discussion of the 
challenges of providing transit service in urban areas when faced with 
constrained budgets from State and local sources. When 80 percent of 
our Nation's transit systems were forced to reduce service and/or 
increase fares, a new way of thinking is needed to help these vital 
elements of our society undertake the missions for which they were 
charged.

III. A Platform for Connectivity

Connectivity: Seamlessly Combining the Surface Mobility System
    The most significant issue in the future of the American surface 
transportation network will be the connectivity between its emerging 
modes. The ease with which we can seamlessly transfer from and between 
urban, rural, and intercity bus and rail operations--to say nothing of 
shared rides, taxis, and bike/pedestrian modes--will be the future 
litmus test of the cohesive, user-friendly mobility network our Nation 
so badly needs.
    Improving connectivity is a central policy aim of the Community 
Transportation Association of America, and has been so since we first 
published our New Surface Mobility Vision for America 2 years ago. Our 
members have told us that only through vastly improved connectivity can 
the full measure of our transportation investments and infrastructure 
be maximized for both mobility and economic factors. The continued 
isolated development of the Nation's varied surface transportation 
elements would not only isolate and fragment communities and people, 
but it would squander the vital opportunity that reauthorization 
presents.

What Connectivity Looks Like
    Surface transportation connectivity, in practice, can be a great 
many things. From scheduling and ticketing to timed transfers and 
intermodal facilities, connectivity among transportation modes is both 
operational as well as infrastructure. Customer service and training 
plays a vital role, as does regional planning. Most important is the 
understanding of trip generators and destinations--for example 
employment centers, health care campuses, educational institutions, and 
social services.
    Connections between and among rural and urban areas has long been 
the focus of the Association's connectivity agenda. Initially, we 
graphically represented this objective with a map of the State of New 
Hampshire that highlighted not only the urban and rural transit 
systems, but the ideal connections between the two. In some cases, we 
foresee these connections being made via passenger rail--both of the 
higher speed and regular speed variety. However, the majority of the 
connections will be made by intercity bus operators, whose point-to-
point and intercity services have grown significantly during the past 
decade.

Disconnectivity: The Rural Story
    Across rural America, the connectivity story is a bleak one. 
Consider the following facts, culled from a February 2011 report from 
the U.S. Department of Transportation's Bureau of Transportation 
Statistics:

  <bullet>  Between 2005 and 2010, 3.5 million rural residents lost 
        access to scheduled intercity transportation, increasing the 
        percentage of rural residents without such access to 11 
        percent.

  <bullet>  8.9 million rural residents now lack access to intercity 
        transportation.

  <bullet>  Of the 71.9 million rural Americans who retain intercity 
        transportation access today, 3.7 million lost access to more 
        than one mode of transport since 2005.

  <bullet>  In Alabama alone, 700,000 people lost access to intercity 
        transportation since 2005. In contrast, all rural residents in 
        Delaware, Massachusetts, New Jersey, and Rhode Island have such 
        access.

  <bullet>  Intercity bus provides coverage to the largest number of 
        rural residents in 2010, followed by scheduled air service, 
        intercity rail, and intercity ferry operations.

    Clearly, the ongoing economic vitality of rural America is reliant 
upon improved passenger connectivity--particularly as it relates to 
access to jobs, to health care and to educational opportunities. The 
most recent census data indicates that fewer Americans than at almost 
any time in our history currently reside in rural areas. Yet as those 
populations decline, isolation increases as those who are leaving are, 
typically, the most mobile. Reconnecting rural America will surely 
boost these economies.

Modern Union Stations
    The number of transportation modes in urban America far outweigh 
those that exist in the rural parts of the country, but the 
connectivity challenge persists. Indeed, in these areas the issue is 
bringing together these various modes to provide more seamless 
connections. It's often a question of place and of infrastructure. We 
like to call these connectivity hubs modern union stations.
    Union Stations first came into the national consciousness when the 
major railroads of the late 19th and early 20th centuries would partner 
on such enormous and influential structures as Grand Central Terminal 
or the Union Stations in such cities as Washington, DC, and Chicago. 
Simply put, a union station was one in which multiple railroads came 
together.
    Modern union stations bring together various transportation modes, 
rather than various railroads. Ideally, they employ unified travel 
information and ticketing options for passengers. And just like their 
predecessors from the previous century, they usher people into the 
community in the most seamless fashion and can become hubs of economic 
activity--from retail to commercial to even residential. These 
facilities can also house vital social services, libraries, child care, 
and more.
    The mobility components of a modern union station can include some 
combination of the following: local, scheduled bus services; circulator 
bus services; taxis; intercity bus operations; intercity rail; subways; 
streetcars; light rail; van pools; car share services; and ferries. In 
short, as many forms of surface transportation as possible. CTAA has 
developed a pilot program concept for transit centers in small towns 
that addresses this important issue.

What About Airports?
    One key connectivity hub that bears mentioning is airports. From an 
economic standpoint, airports are crucial, as in many cases they 
constitute a community's access to the rest of the world. Yet both 
institutionally and legislatively, our Nation's airports do not serve 
the greater connectivity role that they might. Fully conceptualized 
modern union stations are rare at our Nation's airports. One clear 
reason: airport authorities rarely choose to spend any of their 
passenger facility charges--which raised $2.5 billion in 2009--on truly 
intermodal facilities. Intercity buses, for example, are effectively 
barred from most airport grounds.
    The Community Transportation Association of America proposes a 
renewed look at the role of airports--particularly as they relate to 
the surface transportation network. As Congress debates a 
reauthorization for the Federal Aviation Administration, one challenge 
has been the continuation of the Essential Air Service program that 
subsidizes passenger trips out of smaller town airports--the only means 
by which some smaller airports survive. A robust national intermodal 
connectivity plan that connects more communities with intercity bus and 
rail services would significantly impact the Essential Air Service 
issue.

All of America--Rural and Urban Areas Alike--Needs Improved 
        Connectivity
    Enhanced connectivity--deploying all modes and coming together at 
strategically located modern union stations--will have significant 
economic and social impacts on our Nation. It will ensure that we 
derive the most from current and future surface transportation 
investments and it bring new alternative mobility forms to millions of 
Americans. The Association strongly supports continuation of the 
National Resource Center for Human Service Transportation Coordination, 
a national effort to promote resources and assist with vital 
coordination efforts that enhance urban, rural, and regional 
connectivity.

IV. The Negotiated Procurement Solution for Medicaid Nonemergency 
        Transportation

Background
    The two most significant Federal assets available to address 
mobility for individuals are found in two different areas of the 
Executive Branch: the public transportation programs operated by State 
and local entities through the U.S. Department of Transportation (DOT), 
and the patient transportation programs operated by State and local 
entities and funded through the U.S. Department of Health and Human 
Services' (DHHS) Medicaid program. Both these services have been 
developed over the last three decades and have been the source of 
numerous collaboration and coordination discussions in an effort to 
achieve the most cost-effective financial outcome for the Government 
and efficient service to the end users.
    The key challenge to these coordination strategies is rooted in the 
legislative history of the two programs. In our public transportation 
programs, Congress's focus has been on service in various areas and 
localities. While in our health care transportation efforts, Congress 
has focused on services for individual patients. Since the Federal 
Government delivers these services through different State agencies and 
local providers, it is hard to reconcile these efforts in a way that 
produces the efficiency and financial benefit that would help these 
programs be more cost effective and allow for improved collaboration 
between the two.

Negotiated Procurement
    Because these two systems follow different paths and priorities 
from their Federal sponsors to the end users, barriers to effective 
partnerships have emerged with the different procurement systems and 
methodologies each Federal agency employs. In the case of CMS and their 
State grantees, DOT-certified public agencies cannot coordinate efforts 
with their Medicaid-funded peers unless they enter into a competitive 
procurement policy that treats public transportation entities as 
private businesses. By using a system that searches for the lowest 
responsive cost, the Federal Government is indirectly and inefficiently 
pitting itself against itself--when a government-to-government 
negotiation would be a far more effective and cost-efficient 
alternative. Further, the two programs approach service from very 
different perspectives--one based on the individual, one based on 
point-to-point service. The interests of both Federal investments can 
be achieved fairly through negotiation.

The Authorizing Opportunity
    We believe that Congress should take the lead in trying to develop 
a mutual standard for negotiation of mobility costs between the DOT-
funded efforts and those of DHHS. This standard would include an 
acknowledgement that DOT and DHHS agencies at the State and local level 
can arrive at transportation arrangements through a negotiated process 
as opposed to the current competitive procurement. Since CMS and DOT 
follow separate legislative mandates, discussion at the authorizing 
level that leads to Congressional action is the primary way to achieve 
this outcome.

Conflict of Interest
    CMS policies have placed public transportation providers in the 
same conflict of interest policies they employ with doctors. For 
instance, in the CMS broker rule a public transit agency that has a 
call center supported by DOT and other public funds cannot enter a 
procurement to provide nonemergency medical transportation services to 
those in the area because providing the call center service and the 
transportation is deemed a conflict of interest. In its regulations CMS 
cites as an example not allowing a doctor to send patients to lab 
services if they own the lab. Of course this example is based on a 
private physician profiting from such a relationship. In the case the 
transit call center, the public transit agency is a Government entity 
using Federal funds whose board members do not have a financial 
interest similar to a private doctor and a private clinic. We believe a 
negotiated procurement process could avoid these issues altogether.

The Bus Pass
    There is no better and more cost-effective way to provide access 
services to ambulatory Medicaid recipients living in urban communities 
than by using or purchasing bus passes for individual patients who need 
medical transportation. A survey recently conducted in Houston found 
that 80 percent of the ambulatory Medicaid population lived within a 
quarter-of-a-mile of existing transit bus stops. Yet because Medicaid 
funds must be spent on medical trips--and with the program's emphasis 
on individual patients--there is a concern that Medicaid recipients can 
use these passes for other, nonmedical, trips since bus passes provide 
open-door service for all riders. So one of the simplest ways of 
reducing Medicaid program mobility costs is not allowed in many States. 
We need legislation that allows CMS to accept bus passes without taking 
individual trips since, typically, it only takes two trips to pay for 
an entire pass.

Moving Forward
    We believe the best way to move forward is for the Senate Finance 
Committee to consider allowing CMS to accept DOT-certified public 
transit agencies to be equal in status for a negotiated procurement 
that would alleviate the systemic problems in the current environment. 
In this case, CMS would allow and encourage State Medicaid agencies to 
negotiate for mobility services with public transit agencies that wish 
to accommodate Medicaid patients within their service area--especially 
in areas with fixed route services and bus pass options. A negotiated 
or cost-sharing approach best serves the interest of the Federal 
Government--both as the payer of health care and public transportation 
services.

V. The Finance Challenge: Supporting a Diversified Transportation 
        Network
    The most difficult aspect of any transportation policy discussion--
like this one in which DigitalCT is engaging its readers--is how to pay 
for the additional infrastructure and service that is clearly 
necessary. We are now approaching 2 years since the last 
reauthorization, SAFETEA-LU, expired and though both the Congress and 
Obama administration have put forward well-crafted plans, none have 
offered any specific additional transportation resource ideas.
    The traditional highway and transit trust fund--paid for by Federal 
gas tax receipts--can no longer keep pace with demand. The fact of the 
matter is that general revenue appropriations have long been used by 
legislators to keep the surface transportation whole. Just to keep up 
with the highway spending mandated in SAFETEA, the fund has been 
infused with more than $30 billion in general funds in the past 2 
years. Rising gas prices and the increasing popularity of hybrid 
automobiles is likely to once again cut into those receipts. The 
consequence of not finding any new transportation investment streams is 
clear.
    Though this article deals largely with various concepts to infuse 
the transportation trust fund with a more diverse collection of 
investments, it must be reiterated that the trust fund, alone, does not 
make up the entirety of transportation investment efforts--and never 
has. For years and going back a number of Federal authorization cycles, 
general revenue funds have been tapped to complete the entire funding 
picture. What's more, and as community transportation providers are 
well aware, a vast network of human service program investments--
particularly Medicaid, which annually adds more than $2 billion for 
nonemergency transportation--has evolved in the past three decades that 
also must be considered when exploring the transportation finance 
challenge.
    A number of ideas have arisen in recent years about how to infuse 
the trust fund with the necessary revenue to meet demand. In this 
section of our Policy edition, we share a collection of those ideas--
from Commissions to members of Congress, think tanks to best practices 
from other countries. The Community Transportation Association believes 
that now is the time to fully discuss the myriad methods of raising 
additional investment for our Nation's surface transportation network 
and to devise a national strategy to do just that.

The Gas Tax
    The simplest solution put forward thus far is to raise the gas tax 
from its current 18.4 cents per gallon. This tax, or user fee, has not 
been raised since 1992 and has seen significant erosion in its buying 
power over the past 19 years. That said, most members of Congress and 
the Obama administration have steadfastly refused to entertain this 
option.
    Senator Tom Carper of Delaware is an exception. In November, he and 
since-retired Ohio Senator George Voinovich proposed a one-cent-per-
month for a 25-month period. ``Within the proposed increase,'' wrote 
the Senators, ``10 cents should be temporarily used for deficit 
reduction, raising $83 billion over 5 years, and 15 cents should fund 
transportation improvements providing $117 billion in new investments 
over the same 5 years. Once the deficit is under control, the 10-cent 
increase for debt reduction should revert back to transportation 
funding.''
    Last December, the National Commission on Fiscal Responsibility and 
Reform--a bipartisan group charged with addressing the Nation's fiscal 
challenges--acknowledged that fully funding the transportation trust 
fund, rather than relying on deficit spending, would be vital. The 
Commission recommended dedicating a 15-cent increase in the Federal gas 
tax to transportation funding, and then limiting Federal transportation 
spending to only what exists in the trust fund.
    Similarly, SAFETEA-LU mandated the development of a commission to 
examine transportation investment in the post-SAFETEA period. The 
National Surface Transportation Infrastructure Financing Commission, in 
its ``Paying OurWay'' report that was released in February, 2009, made 
some significant trust fund recommendations as it spotlighted the 
widening gap between surface transportation needs and demand. Key among 
them was to raise the Federal gas tax by 10 cents to maintain the 
current surface transportation program. The report found, in 2009, a 
10-cent increase would cost the average household $9 per month, or $5 
per month per vehicle.
    Such increases in the Federal gas tax, though significant, are 
nothing compared to the fluctuations of the average price over the past 
two decades (see a fantastic FloatingData informational graphic here). 
Weather events, foreign policy changes and regional instability in oil 
producing parts of the globe, to say nothing of oil company 
profiteering, all conspire to create wild fluctuations in gas prices at 
your local filling station. In recent months, prices have risen more 
than 90-cents per gallon.
    CTAA would also support a concept that captures additional gas tax 
revenues by ``keeping,'' for example, five cents in an additional gas 
tax for every 50 cents the national price goes down, in order to 
introduce an increase in the gas tax at a time when it might be more 
palatable to elected officials and the American public.
    All that said, the overall unpalatability of raising the Federal 
gas tax is clear. The Administration and key Congressional leaders are 
currently dead set against it. And as is often the case, this 
reluctance creates opportunities to discuss and advocate for a more 
diversified surface transportation investment strategy that is more 
representative of both the political- and transportation-demand 
realities and that offers what the Community Transportation Association 
of America likes to call, a way forward.

Taxing Oil Companies
    One such strategy would be to abandon any consumer-based increase 
to fund expanded and necessary surface transportation infrastructure 
investments, and focus on the oil companies themselves. In January, 
earnings statements from the largest oil producers showed between 50 
percent and 75 percent profit increases for 2010. Recently, Money 
Magazine found three of the world's top four profit-earning companies 
to be oil companies. In October 2008--after the last steep oil price 
surge--Exxon/Mobile produced the highest single profit margin in United 
Sates history at nearly $15 billion.
    In response to these enormous profits, politicians at various 
levels of government--from President Obama to Governors--have examined 
windfall profit taxes and even per-barrel surcharges. Former 
Pennsylvania Governor Ed Rendell has been an outspoken advocate to 
utilize such methods to reinvest in his State's surface transportation 
program and in August proposed an 8-percent levy on the gross profits 
of oil companies which he alleges have been largely able to avoid his 
State's corporate net income taxes. ``The time to act is now,'' said 
Rendell.
    President Obama, in the run-up to his 2008 election, proposed 
targeting oil company profits by taxing each barrel of oil costing more 
than $80--a concept which would have raised somewhere between $10 and 
$15 billion. The President's concept, however, would not have raised 
this investment for surface transportation investment, but rather for 
middle- and low-income working families tax relief. We believe similar 
concepts--targeted specifically to surface transportation 
infrastructure investments and including language to mitigate these 
fees simply being passed on to consumers, would be a vital contribution 
to a diversified investment stream and should be explored as actively 
as a gas tax increase. Lastly, the Association supports ending major 
tax subsidies for highly for oil companies and using those recovered 
funds to invest in our Nation's surface transportation program.

Bonding Major Capital Investments
    As in past reauthorization debates, the Community Transportation 
Association continues to support bonding concepts to fully fund the 
building of nationally significant surface transportation 
infrastructure. These important concepts promote cost-effective and 
efficient public-private partnerships and bring much needed private 
capital into our diversified investment scheme.
    A critical component in our advocating for such a bonding concept, 
is to free up traditional--often formula-based--public and community 
transportation investments from much larger scale urban mobility 
projects, both politically and in terms of competing for scarce 
resources.
    Senator Max Baucus of Montana, Chair of the Senate Finance 
Committee and a member of the previously cited Deficit Commission, has 
long been an ardent supporter of bonding. In an interview with the 
TransportationNation blog last year, he noted: ``I think we need a 
debate. There are a lot of options. One is, for example, more bonding. 
Congress passed a program a couple of years ago called `Build America 
Bonds' for municipalities to develop infrastructure, primarily. And 
that took off. That was only to raise about $4 billion in financing but 
actually $150 billion in bonds have been issued. That is a way to 
finance infrastructure financing.'' We agree.

Vehicle Miles Traveled
    In Europe, a common method of raising investments for surface 
transportation infrastructure is to charge a simple per-mile user fee 
for driving. The National Surface Transportation Infrastructure 
Financing Commission, in its ``Paying OurWay'' report, cited the fact 
that any investment strategy relying solely upon a per-gallon tax on 
gas is both ``unsustainable'' and ``likely to erode more quickly than 
previously thought.'' That commission recommended looking at ways of 
educating Americans about both the necessity and veracity of a ``user-
pay'' or vehicle miles traveled (VMT) system, which emerged as the 
consensus of the participants.
    Typically, these types of systems involve the deployment of 
technology in an automobile that measures distance traveled--and 
specifically not where a vehicle has traveled. Clearly, this type of 
system would disproportionately impact rural America as these residents 
typically need to driver further to access employment, health care, 
education, and more. So any such system must include caps or special 
attention to rural America. Yet there is a more fundamental challenge 
with VMT.
    The current American political environment does not seem at all 
ready to embrace the idea of the Government, in any shape or form, 
monitoring the travel patterns of its citizens--even if only to gauge 
distances traveled. In fact, the amount of rancor the VMT issue would 
engender may not, at least in the current environment, be conducive to 
sound surface transportation policy. The SAFETEA finance commission 
noted as much in its conclusions, ``transitioning from a fuel tax-based 
system to one based more directly on use of the system measured by 
miles will require a great deal of planning and public education. But 
that is no reason to delay the transition.''
    The Community Transportation Association of America supports this 
educational effort as part of an overall surface transportation finance 
overhaul, but acknowledges that VMT is most likely a second--or next--
generation solution.

Congestion Pricing Corridors
    Congestion pricing is far more than a simple tax strategy to manage 
traffic within a given corridor or boundary. It also constitutes a real 
way to raise significant surface transportation investment. Simply put, 
congestion pricing charges motorists a toll for using a particular 
stretch of highway or bridge or for entering a particular area. It is a 
market- or demand-based strategy that can encourage off-peak travel and 
transit network usage.
    In such cities as London, Singapore, and Stockholm, this model has 
proven itself successful along two key fronts: reducing economy-
stifling congestion by more than 25 percent; and raising revenues that 
can be used to invest in surface transportation infrastructure.
    However, the first attempt at creating such a corridor or zone here 
in the U.S.--in New York City--failed. As proposed by Mayor Bloomberg 
in 2008, New York City's concept won support from the U.S. Department 
of Transportation in the form of a $350 million award from its Urban 
Partnership program. Yet in the end, the requirement for approval by 
the State legislature doomed the venture. San Francisco has now begun 
to fully explore the possibilities of congestion pricing. A trial 
period has been proposed in the city to be conducted sometime before 
2015.
    Some might argue that these congestion corridors are nothing more 
than tolls, but the major distinction comes from the purpose. Tolling 
raises revenues, but congestion pricing raises revenues and changes 
travel patterns and behavior. CTAA believes that congestion pricing 
concepts are largely the domain of the Nation's largest cities--which 
just happen to be the areas of the country that have some of the 
largest surface transportation infrastructure projects and needs. 
Anything that can be done to add revenues to be used for these large 
outlays only serves to relieve pressure on the rest of the 
transportation system, and thus should be encouraged.

Changing the Discussion
    CTAA believes that if we cannot, as a Nation, transition our 
national discussion of surface transportation infrastructure investment 
away from one solely focused on who gets taxed and how, then we cannot 
begin to reap the economic and social benefits of a fully integrated, 
intermodal surface transportation network that is once again the envy 
of the world. In many ways, the future of our Nation depends on this 
transition.
    Surface transportation investments are economic engines that create 
jobs, fuel the private sector and increase our energy independence. 
These systems--highways, bridges, public and community transit, 
intercity bus and rail--are the off-the-shelf solutions to some of the 
most pertinent and vexing geopolitical and economic challenges we 
currently face. The dire consequences of inaction--which include 
continued military interventions, reliance upon wildly fluctuating 
energy markets, and escalating congestion--are no longer tenable. 
Clearly, the issue of surface transportation investment extends far 
beyond a mere tax debate.
    What's necessary is a more balanced surface transportation 
investment program that benefits all areas of the Nation equitably and 
which enjoys a diversified investment portfolio--balance in and balance 
out.
    In the past two decades, the Community Transportation Association 
of America has enjoyed success in fundamentally redefining the meaning 
of public transportation in the United States. We believe that it has 
become absolutely necessary for the Nation's surface transportation 
infrastructure investments to recognize this definitional change, and 
become just as diverse as the network it supports.

                   PREPARED STATEMENT OF LARRY HANLEY
           International President, Amalgamated Transit Union
                              May 19, 2011

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Introduction
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on behalf of the Amalgamated Transit 
Union. ATU is the largest labor organization representing public 
transportation, paratransit, over-the-road, and school bus workers in 
the United States and Canada, with about 190,000 members in more than 
270 locals throughout 46 States and 9 provinces.
    We are pleased to offer our views on priorities and challenges for 
the reauthorization of the Nation's public transportation programs. My 
name is Larry Hanley. I am the new International President of the ATU, 
elected in the fall. I have been involved in the public transportation 
industry for more than 30 years. Never during that entire time span 
have I ever witnessed anything close to the challenges that we are 
facing today.
    In 2009, ATU presented to Congress a comprehensive proposal for the 
reauthorization of The Safe, Accountable, Flexible, and Efficient 
Transportation Equity Act--A Legacy for Users (SAFETEA-LU). It is a 10-
point plan designed to ensure that public transportation agencies are 
equipped to provide Americans with the travel choices they need and to 
help us reduce our dependence on foreign oil.
    Much has changed in our industry since that proposal was released. 
Therefore, today, I would like to focus on just three issues that are 
key to the survival of the transit industry and the safety of the 
riding public.

Transit Crisis
No Ride = No Job
    Due to shortages in State and local revenues, U.S. public transit 
systems are carrying out some of the steepest fare increases and 
deepest service cuts in recent history. Since the beginning of 2009, 
approximately 85 percent of public transit systems have raised fares or 
cut service, and thousands of workers in the transit industry--a 
significant percentage of a ``green'' workforce--have been laid off. 
Fifty-six percent of transit systems have cut rush hour service, 62 
percent have slashed off-peak service, and 40 percent report reductions 
in geographic coverage.
    The Chicago Transit Authority has cut 18 percent of bus service and 
9 percent of rail service while laying off 1,100 people whose lives 
have been in a free fall ever since. Massive cuts in Atlanta, 
Cincinnati, Cleveland, Detroit, Pittsburgh, and throughout the State of 
California have been breathtaking. New York City, home to the largest 
transit network in North America, has cut routes that have been in 
existence since the days of the horse and buggy.
    In Utah, bus routes in Salt Lake, south Davis, and Tooele counties 
will be cut or realigned effective August 7th. The Minnesota State 
Legislature last week slashed $109 million from Twin Cities bus and 
rail funding, and the Met Council warns it might eliminate weekend 
service. Thirty-five percent cuts are pending in Tacoma, while 
Birmingham and Long Island are operating with patchwork budgets that 
allow them to function only on a month-to-month basis.
    The incredible mass of unemployed Americans includes a substantial 
number of transit-dependent individuals who can simply no longer get to 
work because their ride is gone. Generally, when routes get cut, 
transit systems tend to look toward those with low ridership--early 
morning, late night, and weekend service. People who work 
nontraditional hours, typically minorities who have no other means of 
transportation, are disproportionately affected.
    The single mom who now gets her kids up at 4:30 a.m. to catch two 
buses in time to get her children to daycare and then herself to work 
cannot be expected to wait an additional hour for that transfer bus to 
arrive, standing in the freezing cold with two kids. The person who 
cleans offices downtown in the wee hours of the morning should not have 
to sleep on the cold hard floor in the lobby of the building after 
finishing her work until the buses start running the next day. But that 
is exactly what is happening out there. ATU members nationwide have 
seen it firsthand.
    Some places have totally shut down their transit system, leaving 
elderly and disabled people scrambling for a way to buy food and get to 
the doctor. For example, the transit system in Clayton County, Georgia, 
shut down in 2010, stranding 8,500 people, 81 percent of whom earn less 
than $35,000 a year and 65 percent of whom have no car. This is a 
mobility crisis like we have never seen before.
    As Congress debates changes to our Nation's surface transportation 
laws and considers appropriate funding levels to meet the needs of our 
highway and transit network, it is critical that lawmakers understand 
the incredible mobility challenges that their constituents are facing 
every day. However, the voices of poor people--young or old, disabled 
or able bodied--are traditionally drowned out in this country. While an 
elderly lady who is out buying groceries in New Jersey may have never 
met a middle-aged cafeteria worker in Colorado who is desperately 
trying to get to work, it turns out that these people have at least one 
common trait: they both rely on the bus to survive. Throughout America, 
people are pleading with their elected officials to stop the transit 
cuts and fare increases. Attached to our testimony is a document 
entitled ``Stranded Voices,'' a compilation of poignant quotes from 
transit-dependent individuals all across the country who have lost 
their ability to get around town due to transit cuts.

People First
    Under current law, the majority of transit systems in the U.S. may 
not use their Federal transit funds to keep service on the street. Only 
systems located in urbanized areas less than 200,000 in population may 
use their Federal transit funds for operating assistance. All other 
areas may use their funds only for capital projects. With State and 
local funds scarce or nonexistent, many systems are in the odd 
situation of having many brand-new buses purchased with Federal funds, 
but no resources to place those vehicles into service. Some communities 
are using their Federal transit funds to build rail systems that will 
not be completed for many years while slashing vital bus service at the 
same time.
    Where are our priorities? Certainly this cannot be part of our 
Nation's transportation agenda! Before we commit resources to whisk 
people from city to city on slick high speed rail trains, we need to 
first get them back to work downtown and in suburban and rural 
locations via bus, subway, or light rail.

Operating Assistance Is Needed
    The Federal Government has a role to play in ensuring that all 
individuals--irrespective of income level--have access to safe, 
affordable, convenient, and accessible public transportation, 
regardless of the day of the week or what time they ride the bus. 
During the 111th Congress, Senator Sherrod Brown introduced legislation 
(S. 3189) that would provide for increased flexibility in the use of 
Federal transit funds by allowing transit systems of all sizes to use a 
percentage of their formula funds to maintain critical service. That 
bill also included a sensible provision which would allow transit 
systems in areas above 200,000 in population to use their Federal 
transit formula funds for operations if they are operating less than 
100 buses during peak service hours.

President's Transit Proposal Would Put Americans Back to Work
    President Obama's Budget--which calls for nearly doubling the size 
of the Federal transit program in FY2012--as well as the 
Administration's proposal for the reauthorization of the Federal 
surface transportation bill call for ``targeted and temporary'' transit 
operating assistance. The President recognizes that we can bring our 
cities back to life by substantially increasing transit funding and 
giving transit systems the flexibility to use their scarce funds as 
they see fit. We commend President Obama for his leadership in getting 
critical service back on the street, recognizing the role that transit 
can play in reducing our dependence on foreign oil, and putting our 
Nation on a path to economic security.
    In addition to a slight variation on the Administration's temporary 
operating assistance proposal which is tied to the unemployment rate, 
ATU supports legislation that would ``trigger'' the ability to use 
Section 5307 funds for operating based on the cost of fuel. If the 
price at the pump spikes (as we are seeing today), transit systems 
which feel the pinch at least as much as the owners of private 
automobiles should have the flexibility to put more buses on the street 
rather than slashing service and turning away customers who are 
desperate to avoid spending their entire paychecks on fuel.
    Five dollars per gallon gas is coming, whether it is this summer or 
some time in the near future. Just weeks after the leader of the 
world's most feared terrorist network was finally brought to justice, 
it has never been more apparent that dealing with our Nation's so-
called oil addiction is critical to our national defense. If we are 
serious about reducing our dependence on foreign oil from terrorist-
sponsoring states, public transportation systems must play a central 
role. They cannot do so without more flexibility.

Bipartisan Issue
    It is important to note that this is not an issue that pits rural 
areas against the urban centers. Last summer, the U.S. Census Bureau 
published its proposed criteria for defining urban areas based on the 
results of the 2010 Decennial Census. This document included a list of 
small urbanized areas that are forecast to become parts of adjoining or 
new large urbanized areas (see appendix). If the current rules are not 
changed, transit systems in these areas will soon lose their ability to 
use Federal Transit Administration (FTA) funds for operating assistance 
because their population will be considered to be greater than 200,000. 
Like the areas mentioned above, service cuts and fare increases will 
soon follow.
    ATU Supports:

  <bullet>  Passing a robust surface transportation bill that meets the 
        needs of transit dependent individuals;

  <bullet>  Funding public transportation at $119 billion over the next 
        6 years (a 128 percent increase above current levels), as 
        called for in President Obama's surface transportation 
        reauthorization proposal;

  <bullet>  Providing all transit systems--regardless of urban area 
        population--with flexibility to use their Federal funds for 
        operating costs to maintain critical service that keeps people 
        connected to their communities.

Public Transit Safety
    Millions of times each day, someone's spouse, child, grandparent, 
or friend gets on a bus or train and arrives at their destination 
safely due to the dedication and professionalism of the hundreds of 
thousands of transit workers in this country. While more than 30,000 
people are killed on America's highways each year, the number of annual 
customer fatalities on public transportation can usually be counted on 
one hand. Even under the most stressful circumstances, the majority of 
our members perform their jobs in a safe, efficient manner, compiling a 
safety record that we are quite proud of.
    Recently, however, we have started to see some cracks in the 
system, and the Federal Government has taken notice. In June of 2009, a 
Washington Metro crash killed nine people and injured 80 others when 
two trains collided. Metro officials later called train driver Jeanice 
McMillan (Local 689) a hero. McMillan was killed when the train she was 
driving struck one that was standing still. She saved lives by hitting 
the emergency brake and slowing the train before the fatal crash. In 
2007, two track workers in New York City tragically died in separate 
incidents. And hundreds of soot-covered Blue Line riders escaped 
through a smoke-filled subway tunnel in 2006 after a packed Chicago 
Transit Authority rush-hour train derailed, sparking a fire near a busy 
downtown stop.
    Following this string of serious accidents across the United 
States, the Obama administration wisely proposed to allow FTA to impose 
broad safety standards for transit systems. Secretary LaHood called on 
Congress to pass the Administration's Public Transportation Safety 
Program Act to ensure a high and standard level of safety across all 
rail transit systems. Since 1965, the Federal Government has been 
prohibited from imposing broad safety standards in rail. The States 
have been responsible for oversight of rail safety, and in almost every 
case, their programs are underfunded, understaffed, and ineffective. In 
fact, transit systems are not even required to implement 
recommendations made by State safety oversight panels.
    Former Chairman Dodd introduced legislation last year (S. 3638) 
which built off of the Administration's proposal. That bill directs the 
Secretary to create a national public transportation safety plan to 
improve the safety of all public transportation systems that receive 
Federal assistance. It also requires the Secretary to establish a 
public transportation safety certification training program for Federal 
and State employees, or other designated personnel, who conduct safety 
audits and examinations of public transportation systems, as well as 
employees of public transportation agencies responsible for safety 
oversight. In addition, the bill requires each State or local 
government, or other public transportation system operator that 
receives Federal assistance to certify that it has established an 
agency safety plan meeting certain minimum criteria.
    Public transportation safety plans would be approved by the 
agency's board of directors, and reviewed and updated annually. ATU 
supports this important provision as long as such safety plans are 
required to be developed in a partnership with organized labor. Transit 
workers can provide invaluable information on day to day operations. 
They know better than anyone the details of routes, schedules, 
technology, etc. For example, following the horrible crash in 
Washington, DC, Metro immediately adopted ATU Local 689's 
recommendation to move certain rail cars that were not ``crash-worthy'' 
to the middle of the train. In fact, over the years, ATU has been the 
leader on transit safety issues, from requiring closed vestibules for 
streetcars in the 1890s to the campaign for exact fare in the sixties, 
to the present.

Only One Piece of the Puzzle
    While regulation is important, without increased funding to 
modernize transit equipment, new laws will have little impact. Due to 
inadequate funding, the systems are rapidly aging. Tracks break down 
and computerized signals wear out, putting the safety of workers and 
riders in jeopardy.
    Moreover, in order to increase safety, there is a dire need to 
address issues related to worker training and retention. Evidence 
suggests that some recent accidents could have been prevented if 
transit systems had programs in place to enhance communications between 
experienced, senior level workers in safety-sensitive positions (who 
are getting ready to retire) and new hires. More than 40 percent of 
transit technicians are eligible to retire within the next 5-10 years 
(see below). In addition, split shifts and forced overtime can cause 
fatigue, a serious, growing problem throughout the U.S. transit 
industry, especially in light of the recent wave of layoffs.
    ATU Supports:

  <bullet>  Providing FTA the authority to establish and enforce 
        minimum Federal safety standards for transit systems, as long 
        as transit labor has a significant role in the creation and 
        adoption of such standards at the local and national level.

Transit Workforce Development
    The public transportation industry, like many service-based sectors 
in the United States, will be faced with major challenges in the near 
future. A large percentage of the transit workforce--both blue and 
white collar--will be retiring within the next few years. There is no 
pipeline of replacements on the horizon because the industry has a 
negative public image that hampers its ability to attract, recruit, and 
retain quality employees. And, for the existing workforce, new 
technology is rapidly changing the way transit agencies function, 
affecting every executive director, mid-level manager, bus driver and 
mechanic alike. Yet, relatively few programs exist to provide training 
to workers so that they can perform their jobs adequately, move up the 
career ladder, and help the Nation's transit agencies operate at 
maximum efficiency.

Public Transportation Industry Challenges
    The transit agency workforce has several unique characteristics 
which impact workforce development:

  <bullet>  A rapidly aging workforce--the majority of present day 
        transit systems went public in the 1960s and 1970s as a result 
        of the establishment of the Federal transit program. Many 
        workers who began their careers more than 30 years ago are 
        retiring.

  <bullet>  It is in constant contact with the public, and about 75 
        percent of employees--operators and maintenance staff--are 
        responsible for high standards of efficiency and public safety.

  <bullet>  Approximately 90 percent of the workforce is unionized.

  <bullet>  Opportunities for advancement are generally limited.

  <bullet>  The industry has suffered from a poor or uncomplimentary 
        image in the past, which hampers recruiting efforts.

  <bullet>  Transit agencies provide a schedule-driven customer 
        service. As a result, the majority of the transit workforce--
        transit equipment operators--functions in a rule-bound, 
        seniority-based environment with little flexibility. This type 
        of workplace has its drawbacks for recruiting younger 
        employees.

  <bullet>  At the highest levels, the transit industry has issues with 
        diversity.

  <bullet>  The industry has institutional barriers to workforce 
        competitiveness and innovation, i.e., noncompetitive 
        compensation practices, inadequate career development and 
        succession planning, lack of workplace flexibility, and failure 
        to systematically integrate human resources considerations into 
        overall business planning.

    According to an industry survey, driver recruitment and retention 
continues to be the greatest challenge for 63 percent of transit 
systems. Finding experienced labor trails only funding costs and 
concerns as transit agencies' top concern. \1\
---------------------------------------------------------------------------
     \1\ Metro Magazine 2008 Fact Book, November 2007.
---------------------------------------------------------------------------
The Impact of New Technology and Need for Training
    New technology is having a dramatic impact on every aspect of the 
industry, from electronic fare collection, to alternative fuel 
vehicles, to new communications devices that will forever alter the way 
people travel. Much of the new technology has been spurred by record 
funding from the Federal Government. Since the enactment of TEA 21 in 
1998, transit systems have been fortunate to participate in many ribbon 
cutting ceremonies celebrating the opening of new bus depots and rail 
lines. Without question, the industry has an excellent record investing 
in rolling stock.
    Unfortunately, the same cannot be said of our ability to invest in 
so-called ``human capital''--the people who serve as the backbone of 
any successful transit system. Bus and train operators serve as the 
public face of the organization on the street. In this post-9/11 world, 
they also protect passengers and other community members with their 
eyes and ears. Maintenance workers and others working behind the 
scenes--both blue and white collar employees--ensure that the system 
continues to operate in a cost effective, time efficient manner. Yet, 
funding for training and career ladder programs within the transit 
industry is virtually nonexistent.
    With the imminent retirement of a huge percentage of the workforce, 
the need for training is even greater in order to avoid the loss of 
institutional knowledge.

Current Law Ignored
    Under 49 USC 5322(a), the Secretary is authorized to make grants 
for programs that address human resource needs as they apply to public 
transportation activities. A program may include an employment training 
program; an outreach program to increase minority and female employment 
in public transportation activities; research on public transportation 
personnel and training needs; and training and assistance for minority 
business opportunities. This long-standing provision of Federal law has 
been ignored by the industry and the FTA.
    Moreover, under Section 5322(b), FTA is authorized to make grants 
to States, local governmental authorities, and operators of public 
transportation systems to provide fellowships to train personnel 
employed in managerial, technical, and professional positions in the 
public transportation field. Remarkably, this program has been funded 
at $0 throughout the life of SAFETEA-LU, and no program of significance 
came about as a result of this section under TEA 21.

The Transportation Job Corps Act
    The ATU supports the Transportation Job Corps Act of 2011 (H.R. 
929, Nadler) groundbreaking legislation that would finally address the 
training needs of the public transportation industry and serve to 
provide disconnected youth outside the industry with an incentive to 
pursue careers in transit.
    The bill--which is also endorsed by the American Public 
Transportation Association--would rewrite Section 5322 and authorize 
the creation of 10 new regional Joint Workforce Development Councils--
one for each FTA region. The councils, made up of equal numbers of 
labor and management representatives, would be responsible for setting 
up a process to offer workforce development programs to transit 
agencies in each of the FTA zones.
    The primary purpose of this program would be to identify skills 
gaps in transit agency maintenance departments and to develop programs 
to train maintenance employees on a regional basis, rather than one 
agency at a time. The councils would also develop programs--outside of 
the traditional collective bargaining environment--to address the 
recruitment and retention of white and blue collar workers as well as 
programs to deal with Family Medical Leave Act (FMLA) issues, including 
absenteeism, ergonomics, ``well care'' programs, child care and other 
employment-linked services, and other matters.
    Furthermore, the bill would create new programs aimed at enhancing 
the transit workforce by initiating and maintaining transit worker 
retention programs, including grants for career ladder programs, 
workforce diversity grants, and ``Transit Youth Opportunity Grants.''
    ATU Supports:

  <bullet>  The Transportation Job Corps Act of 2011, which would 
        create a career ladder grant program within the FTA to help 
        existing workers retain jobs while also recruiting and 
        preparing young adults across the Nation for jobs in the 
        transit sector.

Conclusion
    ATU's recommendations for improving and reforming the Nation's 
surface transportation programs may be summed up in just one word: 
people.
    Congress should recognize that we cannot get our economy back on 
track if millions of people do not have a ride to work. Federal 
assistance is needed to help our Nation's transit systems provide for 
the mobility needs of the 15 million daily U.S. transit riders. We can 
no longer leave anyone behind.
    Similarly, protecting the lives of our citizens when they rely on 
the bus or train to visit family, friends, and other destinations is a 
central function of our Federal Government.
    Finally, while providing funding for major transit capital 
investments is critical, we must also deal with the major ``human 
capital'' issues which threaten to paralyze public transportation 
systems throughout the United States.
    ATU looks forward to working with this Committee on these critical 
issues during the surface transportation bill reauthorization process.
    Thank you for your consideration of our views.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                PREPARED STATEMENT OF JAYETTA Z. HECKER
  Director of Transportation Advocacy, National Transportation Policy 
                   Project, Bipartisan Policy Center
                              May 19, 2011

    Chairman Johnson, Ranking Member Shelby, and Members of the 
Committee, I am honored to be here speaking on behalf of the Bipartisan 
Policy Center's (BPC), National Transportation Policy Project (NTPP). 
As you may recall, prior to my past 3 years with the NTPP, I had the 
privilege of serving the Congress and this Committee as a Director of 
Physical Infrastructure at the GAO, directing hundreds of comprehensive 
studies of the Nation's surface transportation programs, for over 25 
years.
    I appreciate this opportunity to discuss issues and priorities for 
the reauthorization of the surface transportation program on behalf of 
the Bipartisan Policy Center. My statement is drawn from both completed 
and ongoing research, deliberations, and reports of the NTPP. In 
addition to the ``long range vision'' for a future performance-based 
program which we released in 2009, \1\ we have continued to develop 
more specific and pragmatic building block measures that can be taken 
to lay the groundwork for a new performance-based program. \2\ We are 
just now finalizing a comprehensive new report--which will provide 
specific recommendations for restructuring the current Federal surface 
transportation programs to both focus on advancing clear national 
priorities--and do so within the level of revenue collected to support 
the Federal program.
---------------------------------------------------------------------------
     \1\ ``Performance-Driven: New Vision for U.S. Transportation 
Policy'', National Transportation Policy Project, BPC, 2009.
     \2\ ``Transitioning to a Performance-Based Federal Surface 
Transportation Policy'', http://bipartisanpolicy.org/library/report/
transitioning-performance-based-federal-surface-transportation-policy, 
June, 2010; ``How Fair Is Road Pricing?'', http://bipartisanpolicy.org/
library/research/how-fair-road-pricing-evaluating-equity-
transportation-pricing-and-finance, September, 2010; ``Strengthening 
Connections Between Transportation Investments and Economic Growth'', 
http://bipartisanpolicy.org/library/research/transportation-
investments, January, 2011;`` Joint Statement With Financing Commission 
Members'', http://bipartisanpolicy.org/library/national-transportation-
policy-project/joint-statement-undersigned-members-national-surface, 
December 2010.
---------------------------------------------------------------------------
    My statement is organized around three central observations and 
conclusions of our work:

  <bullet>  The current environment for reauthorization presents 
        significant challenges--and opportunities,

  <bullet>  NTPP priorities for reauthorization include promoting 
        performance, improving planning, and developing an integrated, 
        multimodal focus on optimizing transportation networks, and

  <bullet>  Funding challenges are profound and require immediate 
        incentives for increases in nonfederal revenue, and 
        reestablishing the credibility of the Federal program to gain 
        support for increased Federal revenues.

Background

The Bipartisan Policy Center and the National Transportation Policy 
        Project
    The BPC was founded by four former Senate majority leaders, Tom 
Daschle, Bob Dole, Howard Bake,r and George Mitchell. BPC was created 
to help provide the motivation and infrastructure to forge the 
bipartisan consensus we believe is necessary for durable change across 
a range of difficult policy challenges. The BPC works to develop and 
promote sound policy solutions that can attract public support and 
political momentum to achieve real progress in a wide range of sectors 
including national security, agriculture, energy, health care, 
financial services, debt reduction, and science. In line with the BPC's 
overarching purpose to develop and advance pragmatic, politically 
viable solutions to critical public policy problems, NTPP was designed 
to bring new approaches and fresh thinking to our Nation's pressing 
transportation challenges.
    The NTPP is cochaired by four former elected officials and includes 
membership of renowned experts and leaders in transportation policy, as 
well as users of the system whose voices have not typically been heard 
in previous policy debates. \3\ Your current colleague and Member of 
this Committee, Senator Mark Warner, was an original cochair before 
joining the Senate. We have been pleased to continue working with him 
in furtherance of our shared interest in and commitment to advancing a 
performance-based transportation program.
---------------------------------------------------------------------------
     \3\ A list of all NTPP members is included at the end of this 
statement.
---------------------------------------------------------------------------
Core NTPP Recommendations--Define National Goals and Develop 
        Performance Metrics
    To set the stage for my remarks, I'd like to briefly summarize the 
NTPP conclusions, many of which reflect a widespread consensus on the 
need for fundamental reform of the existing program to foster 
performance, accountability, and results. We concluded that the single 
most urgent need is for Congress to define specific goals for the 
Federal transportation program that direct resources to the achievement 
of clear national interests. To best lay the foundation for a truly 
performance-based program, national goals need to be focused on 
outcomes and reflect the societal and economic rationale for a Federal 
role in this sector that is characterized by major private and 
individual investments and choices as well as substantial local 
variations in community development patterns and preferences.
    NTPP recommends the national interests in transportation investment 
be recognized as advancing the following fundamental national concerns:

  <bullet>  Economic Growth--Producing maximum national economic growth 
        per dollar of investment

  <bullet>  National Connectivity--Connecting people and goods across 
        the Nation with effective surface transportation options

  <bullet>  Metropolitan Accessibility--Supporting comprehensive 
        metropolitan efforts to provide efficient access to jobs, 
        labor, and other activities throughout metropolitan areas

  <bullet>  Energy Security and Environmental Protection--Promote the 
        integration of energy security and environmental protection 
        objectives with transportation policies, programs, and 
        investment choices

  <bullet>  Safety--Improving safety by reducing the number of 
        accidents, injuries, and fatalities associated with 
        transportation

    We recognize that moving toward a performance-driven approach will 
challenge entrenched interests and require Government institutions at 
all levels to change longstanding practices and ways of doing business. 
Beyond articulating clear goals for a new performance-based program, 
Congress should support an aggressive but deliberate transition to a 
performance-based system. This requires support for comprehensive 
testing and refining of outcome-oriented national metrics to capture 
progress toward the achievement of these five central national goals. 
This will require strong Federal support for the improved data and 
tools essential for managing performance as well as pilot testing the 
application of broad, mode-neutral national performance metrics on the 
State and metropolitan level to identify and address specific 
implementation challenges. \4\ This is the strategy Senator Warner has 
been advancing in a stand-alone legislative proposal.
---------------------------------------------------------------------------
     \4\ Recognizing the criticality of defining a bold but pragmatic 
strategy for laying the essential foundation of a performance-based 
program, NTPP convened an intensive workshop of diverse experts with 
direct experience to chart a transition strategy. See, Bellagio 
report--http://bipartisanpolicy.org/library/report/transitioning-
performance-based-federal-surface-transportation-policy, June, 2010. 
The importance of a cautious and deliberate strategy was underscored by 
opening the workshop with a briefing on the sobering RAND Corporation 
review of the results of recent efforts to apply performance focus in 5 
diverse Federal programs. See, ``Toward A Culture of Consequences--
Performance-Based Accountability in Public Services, Brian Stecher, et 
al., 2010.
---------------------------------------------------------------------------
Importance of Presidential Leadership
    The Nation is clearly at a pivotal moment in considering the future 
Federal role in transportation. We have a program that is bankrupt in 
both funds and purpose. We remain hopeful that even though a new 
authorization has been deferred and extended several times, proposals 
will start to emerge from both the executive and legislative branch on 
a new path forward. Leadership from the President has always been 
essential for progress in this important arena--and will likely remain 
critical during this especially challenging period. We are impressed by 
a number of the principles for authorization contained in the 
Administration's proposal as set forth in the President's FY2012 Budget 
that are consistent with the themes and principles of NTPP's June 2009 
report. These include the needed emphasis on asset management focusing 
on system preservation and state of good repair, the focus on 
performance and accountability as well as developing incentives for 
performance (e.g., Transportation Leadership Awards), a focus on 
multimodalism, and a plan for significant program simplification and 
consolidation.
    With a detailed Administration proposal yet to be released, we are 
not able to provide specific comments on the Administration's strategy. 
While we share many of the President's reform principles, we are not 
optimistic that the Congress is prepared to enact new taxes sufficient 
to support a program at the level proposed by the President. In the 
more likely outcome that new revenue sources are not enacted, our 
members remain firmly committed to a program that is consistent with 
available revenues. We also believe it will be important to support 
outcomes rather than any specific mode and establish a coordinated 
program to support sustainable revenue flows by States and metro 
regions--which remain at the front line of our vital transportation 
investments.
    With this context, I turn to the focus of this important and timely 
hearing--setting the context for a discussion of reauthorization 
generally and the focus on transit and metro regions more specifically 
by covering three broad issues:

  1.  The challenges and opportunities of the current economic and 
        political context

  2.  NTPP Priorities for a new authorization in this environment, and

  3.  Key funding issues and challenges

Challenges and Opportunities of Reauthorization in the Current 
        Environment
    In 2007 many operated under the assumption that there would 
eventually be a large multiyear surface transportation bill passed by 
Congress. Through each successive ``TEA'' bill (ISTEA, TEA-21 and 
SAFETEA-LU) Congress has increased transportation investment, and 
``reforms'' or innovations have generally been additive with 
stakeholders and States all assured a share of the increasing size of 
the pie.
    The current environment is substantially different making it 
extremely difficult if not impossible to raise additional revenue in 
the near term for Federal transportation investment. This new 
environment is shaped by several factors:

  <bullet>  Prolonged economic downturn--contributing to decreased 
        revenues coming into the Highway Trust Fund (HTF); the Recovery 
        Act, by making billions of dollars available for infrastructure 
        spending with no State or local share, diffused focus on the 
        bankruptcy of the Trust Fund; the economic environment 
        similarly delayed any serious political focus on badly needed 
        reforms; and persistently high unemployment and ever increasing 
        gas prices have made it even more difficult than it has been 
        over the past 19 years to ask Americans to pay more in fees to 
        begin to cover the costs of maintaining or improving our 
        national system.

  <bullet>  National debt crisis--this issue is finally taking center 
        stage with a BPC Commission \5\ as well as a Presidential 
        Commission both recommending major changes to taxes and 
        spending to restore fiscal balance; the Congress is currently 
        engaging in a major debate about the depth and breadth of 
        spending reductions and revenue increases to accompany the 
        required increase in the debt ceiling; overall this environment 
        makes it more difficult than ever to generate support for 
        increased spending on any Federal program, even one with 
        promising long-term benefits such as transportation.
---------------------------------------------------------------------------
     \5\ ``Restoring America's Future'', November, 2010 http://
bipartisanpolicy.org/library/report/restoring-americas-future.

  <bullet>  Greater hostility to taxes--there is a broad public 
        unwillingness to accept new or additional Federal taxes making 
        the potential for finding new revenue for transportation even 
        more of a challenge.

The Opportunity of Constrained Resources
    The new reality we confront today is clearly one of severely 
constrained resources for transportation investment. The Highway Trust 
Fund (HTF) is solvent only because of repeated infusions of over $30 
billion over the past 2 years. With the environment supporting debt-
financed stimulus spending now past, it is more clear than ever that 
``funding'' transportation with general revenues means more borrowing 
and increased public debt. With national attention on strategies for 
decreasing the national debt, and growing opposition to any kind of 
Government spending, the transportation sector will have to determine 
how to be nimble, surviving with fewer Federal resources.
    Our work and that of many others supports the need for higher 
levels of Federal investment, with the evidence increasingly apparent 
that we are neither maintaining our core system nor preparing for the 
steady increases in our populations, freight flows, and growth. Few 
dispute that strategic investment in transportation infrastructure can 
be an essential element of a growing economy. However, our panel 
believes that continued general fund transfers--i.e., increased 
borrowing--is no longer an option. Until the President and the Congress 
are prepared to identify and enact new sustainable revenue sources to 
support an expanded program, we believe the program should be refocused 
and scaled back to a spending level aligned with existing revenue. Our 
program recommendations for the pending authorization focus on setting 
clear national priorities and limited to the level of revenue coming in 
to the Trust Fund--approximately $40 billion annually. There are risks 
and severe economic consequences associated with lower levels of 
investment. However, this difficult environment where it has become 
clearer that every dollar should be spent wisely can also be seen as an 
opportunity for implementing substantial reform. Acknowledging a 
reality of constrained resources puts pressure on the Federal 
Government to spend wisely, to make the most of every dollar spent--and 
to assure critical and true national priorities are being funded. We 
also believe that devising a strategy when funds are so scarce 
highlights the importance of spurring innovation and forcing a closer 
look at how we might better leverage funds from nonfederal sources.
    Our forthcoming report will present specific and detailed 
recommendations for consolidating, refocusing, or eliminating all 
existing Federal programs currently funded under the SAFETEA-LU 
authorization to focus directly on areas of clear national interest. 
Our proposed program structure will more directly align Federal 
resources with compelling national interests, and seize this 
challenging juncture to move the Nation towards a more performance-
based surface transportation system.

Highlights of NTPP Priorities/Major Opportunities for Reauthorization
    While our report won't be final for another few weeks, I'm pleased 
to take this opportunity to outline several priorities our proposal 
will include for a scaled back but well targeted Federal program.

Laying the Groundwork for Performance Measurement, Reporting and 
        Accountability
    Not surprisingly, the major priority for our proposed streamlined 
program will be for Congress to lay the groundwork for meaningful 
progress toward a true performance-based system. Consistent with both 
our June 2009 report and subsequent research and reports, we will call 
for:

  <bullet>  Establishment of outcome-oriented national goals of our 
        surface transportation program

  <bullet>  Consolidation of formula programs into new outcome-oriented 
        programs emphasizing maintaining and improving the performance 
        of our existing assets

  <bullet>  Introducing performance-bonuses on formula programs based 
        initially on improved data collection, planning, and reporting 
        and eventually on meeting specific measurable criteria.

Improving the Programmatic and Holistic Focus on Transportation 
        Planning
    We believe a revitalized program is needed to substantially reform 
the Federal planning process to become more outcome oriented. Funds 
would be allocated by formula to States and metro regions with bonus 
funding available for improved planning processes, as well as 
supplemental grants to incentivize greater collaboration.

Consolidating Programs to Focus on Improving Metropolitan Accessibility
    With our core focus on outcomes, our June 2009 long range vision 
recommended development of a new multimodal ``Metropolitan 
Accessibility'' Program. Our focus was on creating an outcome-based 
program focused not on modes or modalities but emphasizing mode 
neutrality, ``programs, not projects,'' and the use of outcome-based 
metrics that would capture achievement of overall desired outcomes or 
goals (e.g., labor market flexibility, job access, improved 
environmental sustainability, reduced dependence of the system on 
fossil fuels and safety). To promote innovation and more comprehensive 
regional programmatic planning, we contemplated a significant portion 
of the funds be provided on a competitive basis.
    Given the current economic and fiscal environment with funds 
extremely limited and low Congressional appetite for transitioning to a 
new large competitive program, we envision substantially modifying this 
preferred long term approach. NTPP recommendations for a new 
metropolitan accessibility program will likely to call for a formula 
program with funding going to both States and metro regions. We 
envision a performance incentive or bonus, which in the short term will 
reward improved data collection, broader programmatic analyses, and 
providing a foundation of public reporting on the performance of the 
broad network and projected returns from a mix of investments. We are 
confident that the values and principles that we articulated in the 
2009 report can be applicable to such a formula program, that is, mode 
neutrality, a focus on preservation, restoration, and performance of 
existing facilities and systems, comprehensive strategic plans and 
capital programming, job access, and energy security. We envision 
existing transit programs that create new capacity, like New Starts, 
would be part of such a comprehensive program, which within such a 
constrained funding environment will be a smaller feature in most 
regions investment strategies--although each region will be free to 
make their own programmatic priorities.
    The Brookings Institution has completed a body of work 
demonstrating the vital role the Nation's metropolitan regions play in 
the economic growth of our Nation and the quality of life of our 
Nation's citizens. A recent report provides a new analysis of how 
investments in transit have not included an explicit focus on improving 
the access and use of transit to reach employment centers. \6\ We agree 
that not only do transit investments need to more explicitly focus on 
this vital outcome, but a similar focus is needed on our metropolitan 
road network. The Brookings data reveal that only 7 percent of workers 
in 100 largest metro areas rely on transit to get to work, underscoring 
the need for integrated programs and strategies to enhance the 
performance of entire transportation networks in our metropolitan 
regions.
---------------------------------------------------------------------------
     \6\ ``Missed Opportunities: Transit and Jobs in Metropolitan 
America'', Brookings Metropolitan Policy Program, May, 2011.
---------------------------------------------------------------------------
Funding Challenges/Issues
    Even as we put forward a program that assumes no new revenue in the 
near term, the proposal in fact incorporates several elements directly 
related to funding issue and challenges--both in the longer term as 
well as immediately.

Experts View Absence of Program Credibility as Critical Barrier To 
        Increasing Federal Investment/Revenue
    Continuing NTPP's model of bringing together renowned experts from 
various fields who hold widely varying views, we convened an intensive 
workshop in March on ``Breaking New Ground--Exploring Long Term Options 
for Funding the Surface Transportation Program.'' Major topics included 
exploration of the:

  1.  Future Federal Role in Transportation (including economic and 
        fiscal realities, national goals and political consensus on 
        scope/purpose of Federal program, and facilitating and 
        incentivizing private, State, and local funding),

  2.  Sustainable Revenue Options (including a review of the varying 
        performance and efficiency results and pros and cons of user 
        fee foundation), and

  3.  Institutional and structural options (including the role and 
        relevance of the Trust Fund mechanism).

    We are still developing a report based on this rich and thoughtful 
exchange. Some highlights, however, include the following key 
observations:

  <bullet>  Exploration of future funding options must be in context of 
        a clear and specific set of national goals/purposes--i.e., 
        identifying future revenue sources cannot really be separated 
        from first defining a clear and compelling focus of the 
        national interests and program purposes.

  <bullet>  The core challenge to funding achieving either public or 
        political is restoring public confidence in the ``returns'' of 
        the Federal program.

  <bullet>  Revenue options have widely varying performance and 
        efficiency results and as alternatives are further evaluated, 
        assessment should heavily weigh such positive and intentional 
        impacts.

  <bullet>  The funding structure, particularly the Trust Fund, needs 
        to be reinvented for a new era, noting that like revenue 
        sources, a funding structure may either support or impede mode 
        and outcome-based programming and achievement toward nationally 
        significant outcomes.

  <bullet>  Efforts should begin to support and coordinate State 
        efforts to study new mileage/use-based revenue option.

  <bullet>  With Federal resources declining, focused Federal program 
        needed to facilitate and incentivize sustainable revenue 
        sources at State level

Comprehensive New Program Needed To Facilitate, Support, and 
        Incentivize Increased Nonfederal Investment
    In addition to this issue being a major focus of the Funding 
Workshop, NTPP sponsored new research to develop in more detail, what a 
new program should be composed of, to most effectively leverage the 
Federal revenue--and explicitly support increased and sustained revenue 
flows by nonfederal partners.
    Due to the likely continued scarcity of surface transportation 
funding relative to nationwide investment needs, NTPP believes there 
should be a substantially enhanced Federal role in facilitating, 
incentivizing, and rewarding sustainable State, local, and private 
funding. The greater need to maximize nonfederal resources, and the 
national benefits that such leveraging can provide, demands a set of 
substantial and comprehensive loan and other financing assistance 
programs. A new program dedicated to maximizing the leveraging 
potential of Federal resources could form the basis for a new, 
important focus on incentives. A program dedicated to maximizing the 
leveraging potential of Federal funds could form the basis for 
transitioning to a national infrastructure bank.
    A new program could greatly enhance the ability of the Federal 
Government to support State, local, and private funding in a way that 
advances national transportation goals. The essential features of such 
a program could include three distinct but complementary dimensions:

  <bullet>  Remove barriers to nonfederal investment, in particular 
        barriers to tolling and pricing;

  <bullet>  Expand and improve TIFIA and other financing tools to 
        support revenue-generating projects, and

  <bullet>  Reward the generation of sustainable revenue and investment 
        by nonfederal entities.

Remove Barriers to Nonfederal Investment
    Current limitations on tolling the existing Interstate system 
should be largely removed. Tolling is a potentially viable mechanism 
for improving performance and generating increased transportation 
revenues that could be used to back project financing. Similarly other 
Federal requirements for certain projects should be relaxed to 
facilitate increased private investment.

Expand and Improve TIFIA and Other Financing Tools
    The TIFIA program should be increased in size, while continuing to 
focus on credit-worthiness and the market discipline afforded by 
requiring significant nonfederal coinvestment. A new program should be 
included that provides technical and predevelopment assistance to 
increase the pipeline of sound projects, as well as new financing tools 
or tax code incentives to stimulate infrastructure investment. A 
discretionary Toll and User Fee Technical Support and Discretionary 
Federal Funding Assistance Program should be made available to promote 
sound pricing projects, assisting in the development of new tolls, and 
other user fee projects.
    Tax Code Incentives could include a range of tools including 
increasing the volume cap on Private Activity Bonds (PABs) 
reestablishing the Build America Bonds program , creating Qualified 
Tax-Credit Bonds (QTCBs) as a new category for major surface 
transportation projects, and continuing to permit States to use a 
portion of their Federal apportionments to further capitalize their 
State Infrastructure Banks (SIBs).

Rewarding the Generation of Revenue by Nonfederal Entities
    A new program should be created to facilitate and reward States and 
metropolitan regions that sustain or increase the net amount of 
nonfederal revenue they contribute to investments. In addition to 
including a Maintenance of Effort Funding Program, specific incentives 
could include Preferential Treatment for Discretionary Program Awards 
and Programmatic Flexibility and Regulatory Relief.
    This concludes my prepared remarks. I thank you again for the 
opportunity to provide BPC's perspectives and preliminary 
recommendations. I look forward to any questions you may have. In 
addition, we stand ready to support the Committee in the significant 
challenges that lay ahead.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SHELBY
                      FROM PETER M. ROGOFF

Q.1. The Administration has proposed that the 5307 program be 
opened up to allow transit systems to use these funds to 
subsidize their operating costs. While I appreciate that the 
Administration's proposal promotes a very measured approach to 
the issue of operating assistance, I am extremely concerned 
about the Pandora's Box we may be opening.
    You will recall that prior authorization bill eliminated 
operating assistance as an eligible expense but did, alter the 
program to include a new category of eligible expenses very 
similar to operating costs, called preventive maintenance. 
Thus, preventive maintenance can be used to pay for virtually 
all the same items except for wages and benefits and fuel 
costs.
    With these additional tools available to transit systems 
across the country; why then do we need yet another subsidy to 
public transportation?

A.1. The temporary and targeted operating assistance proposal 
is aimed at helping struggling transit agencies provide 
critical services during difficult economic times, when State 
and local revenues are reduced by lower property and sales 
taxes used to support transit. FTA is not proposing the 
development of a new funding source or permanent fund to 
supplement operating costs as this new authority gives transit 
agencies in urbanized areas 200,000 or over in population the 
option to use their urbanized area formula funds to continue 
critical services for 3 years, if needed. It is important that 
transit agencies have the flexibility during economic downturns 
to provide essential transit services, especially to transit-
dependent populations.
    Finally, the proposal requires each transit agency that 
uses it to certify to FTA that its local funding partners did 
not reduce the proportion of local funding dedicated to transit 
and that service levels are maintained and not cut below 
previous levels. This ensures that State and local assistance 
is not supplanted by Federal operating assistance or that 
critical service levels are maintained.

Q.2. Would each of you also comment on how performance-based 
measures should be used?

A.2. Over the past few decades, Federal surface transportation 
law has increasingly recognized the importance of 
transportation planning as the basis of transportation spending 
decisions by State and local officials. States and localities 
need to better identify and address their transportation 
problems and needs by making full use of performance data. The 
Administration supports enhancing the effectiveness of States 
and Metropolitan Planning Organizations (MPOs) in developing 
and implementing transportation plans and improvement programs 
while also ensuring transparency and accountability in public 
investments. Performance-based planning would help accomplish 
this. Both metropolitan plans and statewide plans should 
include performance based goals, outcomes, and targets. These 
would address not only transportation based outcomes, but 
environmental and economic development considerations, among 
others. Performance-based measures would also increase the 
accountability of MPOs and States who would be required to 
demonstrate how investments included in adopted transportation 
plans, Transportation Improvement Programs and Statewide 
Transportation Improve Programs (TIPs/STIPs) directly link to 
the adopted plan's outcomes and performance targets.
    FTA also supports the increased use of performance data in 
managing transit assets. As bringing our Nation's transit 
systems into a State of Good Repair is one of FTA's highest 
priorities, FTA has already invested more than $10 million in 
funding to support transit asset management efforts, including 
the enhanced collection of asset condition data to support 
performance. In our proposed State of Good Repair Bus and Rail 
Formula program, FTA would create a new formula program that 
would be based upon repair and replacement needs of aging 
assets. Further, we would seek greater use of asset management 
data by transit agencies receiving funding under our Urbanized 
Area Formula grant program as well as this new program. It is 
through these types of performance-base efforts that we seek a 
more strategic use of resources with demonstrable results.
    Recognizing that competition often drives innovation, FTA 
also proposes a ``race-to-the-top'' style incentive program to 
encourage fundamental reforms in the planning, building, and 
management of transportation system. This program would reward 
States and regions that implement proven strategies that 
further the Department's strategic goals, strengthen 
collaboration among different levels of Government, focus on 
performance and outcomes, and encourage the development of a 
multimodal transportation system that connects people to 
opportunities and goods to markets.

Q.3. Each of you has addressed the need for more robust 
planning tools. However, there is a delicate balance between 
encouraging better planning that takes into account the diverse 
needs of a community, and planning that presupposes an outcome 
and drives all decision making toward that end.
    How do we ensure that any changes made to the planning 
process enhance the ability of States and localities to plan 
while still allowing them to make the decisions that work for 
their communities?

A.3. A performance-based planning process would enhance 
transportation decision making by States and localities. The 
use of robust local performance data would contribute to a 
better understanding of State and local transportation needs. 
The development of performance-based measures and outcomes 
through a robust public participation process would result in 
the identification of projects and strategies that work for 
their communities. In addition, national and locally based 
performance-based measures provide a platform to demonstrate 
the effectiveness of transportation investments in achieving 
expected outcomes. By linking spending with performance, States 
and localities can demonstrate results and can account to their 
communities that transportation investments are working.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                      FROM PETER M. ROGOFF

Q.1. The Department of Transportation currently employs a 
variety of programs, databases, and other tools to support 
travel forecasting, modeling, multimodal transportation 
planning, scenario planning, data management, and related 
processes. These functions reside across different 
Administrations and offices at the Department of 
Transportation. How well are these programs integrated and do 
they support one another most effectively? How well are States, 
regions, local municipalities, and transit agencies served by 
these tools? Given today's fiscal constraints, what is the 
Department doing to better coordinate internal resources to 
ensure that it is serving communities in the most effective 
manner possible?

A.1. The Federal Transportation Administration (FTA) supports 
the National Transit Database (NTD) and the Transit Economic 
Requirements Model (TERM). NTD data is available on the 
Internet and is widely used throughout the department, the 
industry, academia, and the public. The NTD data Web site 
averaged 2305 visits per month over the last 12 months. Data 
from the NTD is cited in dozens of academic research papers 
each year and in presentations and at the Transportation 
Research Board Annual Meeting. In addition, many State DOTs 
regularly use NTD data to benchmark operational performance of 
local transit agencies in their respective States.
    Congress directed FTA to improve our assessments of the 
State of Good Repair of transit assets through the FY2010 
Department of Transportation Appropriations process. FTA is 
working with the transit community to develop a template for 
collecting asset inventory data that will meet local agency 
needs and facilitate more timely and comprehensive reporting of 
this data to the NTD. With this effort, FTA will be able to 
leverage the data agencies already collect rather than require 
that agencies develop separate data formats for Federal 
reporting. This asset inventory template will be compatible 
with FTA-developed analytic tools (like TERM) and will provide 
a de facto standard format to enable development of private-
sector analysis tools. FTA expects to pilot test this template 
in 2012.
    NTD data is coordinated with the rest of the Department 
through staff contacts with the Research and Innovative 
Technology Administration (RITA), which includes NTD data in 
its annual Transportation Statistics Report. Additionally, the 
NTD Program recently transferred its training activities to the 
National Transit Institute (NTI), which is funded through FTA's 
Office of Research, Demonstration, and Innovation. Having NTI 
take the lead in providing training to local transit agencies 
on how to complete their NTD reports is expected to reduce 
duplication of effort through increased and more efficient 
interoffice coordination.
    TERM is a financial forecasting model with inputs that 
includes data on transit assets (about 70 percent of the total 
value of U.S. transit assets), estimated growth in demand for 
transit services, and available investment levels. It produces 
projections of capital reinvestment levels and performance 
conditions for various asset categories from 1 to 20 years out 
under various funding scenarios. It is used to produce the 
biennial Conditions & Performance report to Congress in 
cooperation with the Federal Highway Administration (FHWA) 
whose models of capital investment levels for highways and 
bridges are similar in purpose. Although these models are not 
integrated and stand alone, the analysis that we do with them 
for the C&P report is coordinated, particularly where issues 
that impact across modes are concerned (e.g., congestion 
pricing). Both TERM and the Highway Economic Requirements 
System (HERS) are available to agencies and the public in user-
friendly versions for analysis of capital needs at the local 
level. The State version of HERS (HERS-ST) has been available 
for several years and the local version of TERM (TERM-Lite) 
will be available on FTA's Web site later this summer. TERM was 
instrumental in FTA's investigation of deferred reinvestment in 
the transit industry for the 2009 Rail Modernization Report to 
Congress. FTA also is funding the Transportation Research 
Board's independent evaluation of TERM functionality starting 
in July of 2011.
    FTA also participates in the Department's Analysis, 
Modeling, and Simulation Working Group, which coordinates the 
development of research efforts by FHWA and FTA on improving 
the state of the art in transportation modeling. Also supported 
is the Travel Model Improvement Program, which provides a forum 
for U.S. DOT staff to interact with personnel from State DOT's, 
Metropolitan Planning Organizations, university researchers, 
and private industry on improving transportation demand models 
and forecasts.
    FTA sponsored development of the Aggregate Rail Ridership 
Forecasting Model (ARRF) that uses worker-flow data from the 
Census Transportation Planning Package (CTPP) to predict 
ridership on ``starter'' rail lines in metropolitan areas. The 
model is calibrated against rider survey data from completed 
New Starts projects that were also starter lines. The CTPP2000 
worker-flow data are available nationally from the Census 
Bureau and similar tabulations are expected from the American 
Community Survey. FTA maintains an informal library of datasets 
from surveys of transit riders as the data become available.

Q.2. The 2010 Census and demographic projections tell us that 
the U.S. population is growing, aging and becoming more 
diverse. Who will be the future public transportation users and 
what needs and preferences are they likely to have? How are the 
Department of Transportation and the Federal Transit 
Administration supporting States, regions, and local 
municipalities in anticipating this new reality and what it 
will demand of a multimodal transportation system with a strong 
public transportation component?

A.2. To meet the future demands of a growing, changing 
population, with continually evolving needs, the Department of 
Transportation (DOT) and FTA are leading the Livable 
Communities Initiative and Partnership for Sustainable 
Communities with the Department of Housing and Urban 
Development (HUD) and the Environmental Protection Agency 
(EPA). This initiative is aimed toward helping families in all 
communities--rural, suburban, and urban--gain better access to 
affordable housing, and lower transportation costs.
    More broadly, FTA has also worked with HUD over the longer 
term to develop stronger programs that encourage transit-
oriented development (TOD), which combines higher-density, 
mixed use development that is designed and built to benefit its 
proximity to a public transit station or transfer node. Not 
only do these developments provide more transportation options 
to residents, they also support a more diverse population 
because of their emphasis on including affordable housing in 
the development mix.
    FTA also supports States, regions, and local municipalities 
meet their future transportation needs through its State of 
Good Repair (SGR) initiative. A June 2010 FTA study found that 
the Nation's transit systems, including bus systems, have a $78 
billion backlog of assets in marginal or poor condition and 
that our Nation's transit systems will require an estimated 
$14.4 billion annual investment from all sources (Federal, 
State, local and fare box) to continue to maintain a state of 
good repair once that backlog is addressed. FTA's new Bus and 
Rail State of Good Repair program proposed in the FY2012 budget 
will provide formula grants to transit agencies over the next 6 
years to enable them to improve the condition of their existing 
capital assets.

Q.3. Today, with gas prices at $4 a gallon, oil companies 
reaping record profits, and the threat of climate change and 
growing wealth disparity looming, transit is part of the 
solution for a number of interconnected challenges. How are the 
Department of Transportation and Federal Transit Administration 
thinking about transportation, in particular public 
transportation, and its connection to economic development, job 
creation, housing, education, public health, and quality of 
life? When we analyze the costs and benefits of different 
projects or systems plans, we do not often factor in variables 
such as environmental costs and benefits or public health 
implications, although we know that impacts, positive or 
negative, can be enormous. We know that transportation plays a 
major role in the economy and peoples' lives, so how do the 
Department and the Federal Transit Administration consider 
impacts across a spectrum of transportation interventions to 
ensure that communities have the right information and tools to 
choose the appropriate mode for a given community context?

A.3. DOT and FTA consider public transportation to be essential 
to the mobility, accessibility, and connectivity necessary to 
create and sustain viable, livable communities. To that end, 
Secretary LaHood has launched a Livability Initiative that 
establishes livability as a multi- and intermodal priority in 
all programs across the Department for the purpose of making 
real improvements in the lives of all Americans. Since June 
2009, the DOT has joined its efforts with those of the U.S. 
Department of Housing and Urban Development (HUD) and the 
Environmental Protection Agency (EPA) under the Partnership for 
Sustainable Communities (Partnership) to coordinate Federal 
housing, transportation and environmental investments, protect 
public health and the environment, promote equitable 
development, and help address the challenges of climate change. 
As a member of this Partnership, the DOT has fostered livable 
communities through place-based policies and investments that 
increase transportation choices and access to employment, 
education, health and social services, and other essential 
needs and services required for a high quality of life, as well 
as promoted transportation policies and investments that bring 
lasting and equitable economic benefits to the Nation and its 
citizens. Specific programs have been categorized for 
livability purposes, while a broad array of programs promote 
DOT's livable communities strategic goal ranging from planning 
and research to fixed guideway systems investments and surface 
transportation improvement to accessibility for disadvantaged 
populations.
    Over the 2 years, FTA, alone, has issued a total of 
$8,778,730,416 in grants in American Recovery and Reinvestment 
Act of 2009 funds covering transportation/transit planning, 
research and capital investment projects; $2,678.9 million in 
Major Capital Improvement discretionary grants, including for 
Urban Circulators; and $14,951.5 million in Bus and Bus 
Facilities discretionary grants for Bus Livability projects. 
All of these programs have created jobs for Americans in both 
manufacturing and construction. The Secretary recently 
announced another $175 million of grant opportunities for FTA's 
Bus Livability Program and its Alternatives Analysis Program. 
Several of these grants have been combined with funding 
opportunities provided by HUD for Regional Sustainability 
Planning and Challenge Planning Grants, and EPA Smart Growth 
Implementation Assistance, Brownfields, and Technical 
Assistance Grants in order to target resources to help States 
and local communities create jobs and stronger economies by 
developing more sustainably.
    DOT and FTA have taken several steps to strengthen the 
connections between public transportation and economic 
development, including:

  <bullet>  Changes to the New Starts Program--rescission of 
        the New Starts cost-effectiveness policy, and 
        additional emphasis on developing measures to reflect 
        the economic benefits of New Starts projects;

  <bullet>  Changes to bicycle and pedestrian policies--
        issuance of new departmental policy ending the bias of 
        motorized transportation over nonmotorized 
        transportation, and development of FTA policy 
        clarifying the eligibility for transit funds for 
        bicycle and pedestrian facilities that link to transit 
        service;

  <bullet>  Development of web-based tools for linking transit 
        to community-based economic development--release of 
        FTA's Mixed Income Transit-Oriented Development Action 
        Guide to assist local governments and communities with 
        strategies to facilitate mixed-income housing near 
        transit, and release of the TOD Database to facilitate 
        broad community development in conjunction with transit 
        stations and intermodal facilities; and

  <bullet>  Review of joint development policies--FTA is 
        developing comprehensive guidance on its joint 
        development policies and requirements, highlighting 
        best practices.

    The New Starts and Small Starts programs, established under 
49 U.S.C. 5309(d) and (e), are FTA's primary capital funding 
programs through which we analysis the costs and benefits of 
new or extended transit systems across the country, including 
rapid rail, light rail, commuter rail, bus rapid transit, and 
ferries. Under this discretionary program, proposed projects 
are evaluated and rated as they seek FTA approval for a 
multiyear Federal funding commitment to finance project 
construction. On January 13, 2010, the Secretary of the 
Department of Transportation (DOT) announced a change in policy 
to the New Starts program that restores the statutorily 
prescribed process for recommending funding for New Starts and 
Small Starts projects. FTA now gives consideration to the full 
range of transit benefits: economic development, environmental, 
social, mobility, and congestion relief benefits. On June 3, 
2010, FTA issued an advanced notice of proposed rulemaking 
(ANPRM) to seek public input on three of the evaluation 
criteria under the project justification category: cost 
effectiveness, environmental benefits, and economic development 
benefits. Based on a review of the comments received to the 
ANPRM and the lessons learned from implementation of the 
current methods, FTA is preparing a Notice of Proposed 
Rulemaking which will propose to measure more explicitly the 
broad range of benefits that transit projects provide including 
livability principles and goals that relate strongly to the 
purposes of many transit investments. More specifically, FTA 
will seek public comment on project specific measures of 
nonmobility benefits in the calculation of cost effectiveness 
and meaningful measures of the environmental benefits and 
economic development effects of projects.

Q.4. Continuing workforce development and succession planning 
are persistent challenges for an aging transit workforce. This 
is especially critical in the area of safety. Do you think 
transit agencies are doing enough to address these issues? If 
not, what can we do in a fiscally constrained bill to address 
them? What is the appropriate role for the Federal Transit 
Administration?

A.4. Current workforce development activities and programs are 
insufficient to address the needs of a changing workforce. 
Under current law, FTA funds a variety of workforce development 
and training programs and permits recipients of FTA urban area 
formula grants (Section 5307) and capital program funds 
(Section 5309) to use up to 0.5 percent of those funds to cover 
the costs of training employees in areas focused on public 
transportation at the National Transit Institute (NTI). The 
latter program is extremely undersubscribed. In FY2009, $16.2 
million was available, but only $608,000 was spent by a small 
number of mid-sized transit agencies.
    Part of the Federal Role is to examine the best methods to 
undertake workforce development and on-the-job training 
involving all facets of the public transportation industry, 
including, safety. Recently, FTA has allocated $3 million under 
the Innovative Workforce Development Program to fund a variety 
of workforce efforts to address this need. This includes 
programs in New Orleans and Denver that train new entrants to 
the workforce for jobs in the transit industry; vocational 
programs in Massachusetts and New Jersey that prepare high 
school and college students for careers in transit; leadership 
training programs in California, New York, Pennsylvania; and 
Ohio transit agencies, and a distance learning center in South 
Dakota targeted at rural transit agencies. By highlighting new 
and existing innovative workforce development programs, FTA 
feels that it can lead the way for the industry in supporting 
sustainable and innovative examples and practices that can be 
duplicated and implemented locally.
    Building upon this effort, FTA provided technical 
assistance to this Committee on a Workforce Development Program 
to allow the Secretary to make competitively selected grants 
directly to recipients of Federal public transportation 
assistance that would be targeted at under-represented 
populations in areas of high unemployment areas for training 
apprenticeship and development. Using up to 0.5 percent of the 
amounts made available to carry out FTA's urbanized area 
formula grants program, the goal of this program would be to 
ensure a workforce with the sufficient skill-set available to 
fill the transit jobs of the future.
    Additionally, FTA would expand the eligibility of training 
purposes for funding provided to transit agencies by formula 
beyond just the provision of NTI courses. Not more than 0.5 
percent of the amounts made available under 5306, 5307, 5310, 
and 5311 to a recipient and a subrecipient would be available 
for expenditure, with the approval of DOT, to pay up to 80 
percent of the cost of tuition and direct education expenses 
related to educating and training State and local 
transportation employees in developments, techniques and 
procedures related to public transportation.
    Building upon past training carried out by the National 
Transit Institute, FTA would also recommend funding National 
Public Transportation Institutes to develop and conduct 
training and education al programs for Federal, State, and 
local transportation employees, U.S. citizens, and foreign 
national engaged or to be engaged in Government-aid public 
transportation work. Education and training of Government, 
State and local transportation workers would be provided at no 
cost for subjects that are a Government program responsibility.

Q.5. In your testimony, you outlined the Administration's 
proposal for temporary and targeted operating assistance to 
transit agencies operating in urbanized areas with populations 
greater than 200,000. Is there anything the Federal Transit 
Administration is doing now, or could do right now to provide 
some more immediate relief to transit agencies so that they 
have not completely decimated their staffs by the time a bill 
passes?

A.5. Under current law, FTA cannot provide operating support to 
transit agencies in urbanized areas 200,000 or greater in 
population under the Urbanized Area (5307) Formula Grants 
program. However, the American Recovery and Reinvestment Act 
(ARRA) did provide limited operating assistance to agencies 
during the economic downturn. Recognizing the challenges of an 
economic recession on transit agencies, the President proposed 
in his FY2012 Budget to Congress temporary and targeted 
operating assistance for transit agencies. This proposal will 
provide transit agencies with much-needed flexibility to 
support vehicle operators and fuel costs, when this assistance 
is absolutely needed for a limited time.
    While transit agencies in urbanized areas 200,000 or 
greater in population are generally not allowed to use their 
Section 5307 Formula Grants for operating assistance, the 
definition of capital in 49 U.S.C. 5302(a)(1)(A) does permit 
funds to be used for preventive maintenance related to 
operations. Of the 152 urbanized area transit systems in areas 
200,000 or greater in population, 136 reported to FTA that 
overall maintenance expenditures typically exceed their total 
Section 5307 apportionment. Only five of these transit systems 
reported total maintenance expenditures that were less than 75 
percent of their Section 5307 apportionment. Thus, the vast 
majority of these systems can and typically do use their 
Section 5307 formula funding towards ensuring that their 
existing capital asset base is well-maintained.

Q.6. Transportation, especially transit, is multimodal and yet 
we authorize, regulate, and administer modes separately. People 
of all ages and abilities may walk, bicycle, roll, or drive to 
transit. How can we ensure that transit services and facilities 
provide for a variety of travel options for a variety of users? 
Is there a Federal role for highlighting best practices in 
planning, project programming, and system design?

A.6. The first Livability Principle embraced by DOT is to 
provide more transportation choices. FTA has long promoted 
accessibility to disadvantaged populations through its Elderly 
and Persons with Disabilities, Job Access and Reverse Commute, 
and New Freedom Programs. However, recent demographic trends 
and economic conditions indicate that providing special transit 
services for certain populations is becoming too costly for 
transit providers to continue at current levels. FTA encourages 
transit providers to ``mainstream'' members of these 
populations, as practicable, to use regular transit services. 
Further, FTA emphasizes planning and designing station areas 
and their access routes to better interface with the 
communities they serve. As part of the Department's Livability 
Initiative, FTA is also working with the Federal Highway 
Administration in promoting ``Complete Streets'' and ``Context 
Sensitive Solutions'' to provide for pertinent planning 
guidelines and practices in a variety of communities.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SHELBY
                     FROM WILLIAM W. MILLAR

Q.1. I am concerned that we continue to make investments in 
infrastructure without any state of good repair requirement.
    What is APTA's position regarding a state of good repair 
requirement?

A.1. Safety is the number one priority of the public 
transportation industry and bringing the Nation's transit 
assets up to a state of good repair is essential for ensuring 
the safety of riders and transit employees. APTA believes 
Congress should take a ``needs based'' approach to the 
distribution of funds under the Federal public transportation 
program which builds on the current program structure and 
begins to address unmet program needs.
    We need a well funded, long-term authorization bill that 
ensures assets are maintained in a state of good repair or 
better but also provides the capacity expansion necessary to 
accommodate the projected doubling of transit ridership over 
the next 20 year period.

Q.2. What do you believe should be done to ensure that 
infrastructure assets are adequately maintained?
A.2. Transit systems are presently starved for funding, with a 
nearly $78 billion state of good repair backlog according to 
the FTA. The necessary resources to maintain infrastructure 
assets must be made available. While ``doing more with less'' 
is a valid approach, it only addresses the needs of the public 
transportation program around the margins. The needs are simply 
too great to maintain infrastructure assets without 
predictable, robust investment.

Q.3. Comment on how performance measures should be used?

A.3. In its recommendations on the development of a new Federal 
surface transportation authorization bill APTA identified a 
number of goals that should be included as part of a national 
transportation policy which recognizes public transportation 
needs and benefits. APTA believes that the bill should help 
every metropolitan region to operate a high-capacity, high 
quality, energy efficient, environmentally responsible public 
transportation system, with a choice of travel options 
available to Americans in all regions. It should support public 
transportation investment that accommodates a doubling of 
public transportation ridership over the next 20 years. It 
should be part of a national strategy to strengthen the economy 
and promote energy independence, improve air quality, address 
climate change, and provide mobility choices, and it should 
serve national defense needs by providing mobility options in 
emergencies.
    APTA supports performance measures and accountability that 
ensure the efficient and transparent use of Federal funds and 
supports national goals, but such measures must recognize the 
differences between different types of transit agencies and 
different communities. For example, it does not make sense to 
compare ridership growth in a small community with a new 
transit system or new commuter rail operation with such growth 
in an older city with a transit rail system already operating 
at close to capacity levels. We also urge Congress to establish 
performance measures that serve national goals, but do not 
create unnecessary or counterproductive administrative burdens 
or reporting requirements.
    Any performance based program established at the Federal 
level should:

  <bullet>  Acknowledge the significance of State and local 
        funding contributions and the need for local authority 
        in establishing the performance objectives and 
        priorities.

  <bullet>  Recognize that many regions include numerous 
        transit systems with disparate funding sources and that 
        performance measurement requirements should take into 
        account this complexity when developing requirements.

  <bullet>  Protect and recognize the critical need for 
        predictable funding levels.

Q.4. Each of you has addressed the need for more robust 
planning tools. However, there is a delicate balance between 
encouraging better planning that takes into account the diverse 
needs of a community, and planning that presupposes an outcome 
and drives all decision making toward that end.
    How do we ensure that any changes made to the planning 
process enhance the ability of States and localities to plan 
while still allowing them to make the decisions that work for 
their communities?

A.4. APTA strongly recommends strengthening the public 
transportation role in regional decision making. Planning at 
regional level is crucial for public transportation agency 
plans and programs. Regional planning establishes the 
demographic and land use projections, the social equity 
objectives, the economic development objectives, and the 
environmental stewardship objectives for the region into which 
the public transportation development program must fit. It also 
provides for the development of improved planning tools and 
forecasting models that can support public transportation 
agency planners. Public transportation agency involvement in 
all of those regional planning efforts ensures the region does 
not lose sight of public transportation needs and 
considerations and helps the region make the best decisions to 
meet the needs of local communities.
    The new authorization should include language stipulating 
that the FTA/FHWA regulations on Statewide and Metropolitan 
Transportation Planning require fair and equitable voting 
representation of the region's public transportation operating 
agency or agencies on the policy board and technical committees 
of the Metropolitan Planning Organizations (or other regional 
transportation planning bodies), regardless of whether the body 
is newly formed or existing, no matter the size of the urban 
region.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                     FROM WILLIAM W. MILLAR

Q.1. Safety is always of paramount concern and a recent train 
accident in Hoboken, New Jersey, underscores that point. As 
Congress works to overhaul transit safety at the Federal 
Transit Administration, what can public transportations systems 
do now to achieve immediate improvements? What the best ways 
for reauthorization to support these activities?

A.1. The American Public Transportation Association (APTA) is 
dedicated to making an already safe industry even safer and is 
the officially designated standards organization for the public 
transportation industry. For more than 20 years, APTA has 
partnered with the U.S. transit industry, the Federal Transit 
Administration (FTA), and its predecessor organization, the 
Urban Mass Transit Administration (UMTA) to develop 
standardized programs for safe, efficient, and secure transit 
operations. APTA has also developed and continues to manage a 
number of safety specific programs that call for the creation 
of system safety plans and provide safety audits for transit 
operators and other services. APTA's work in this arena served 
as the basis for the existing FTA State Safety Oversight (SSO) 
Program. APTA's safety programs are recognized internationally 
in North America, Europe, and Asia and are designed to examine 
every area of transit planning, construction, acquisition, 
operations, security, emergency preparedness, and maintenance 
to ensure the safety of our public transportation passengers 
and employees. For greater detail about these initiatives, 
please review the testimony previously presented to the 
Committee which can be found here: http://www.apta.com/gap/
testimony/2009/Documents/091210_SenateBankingTestimony.pdf.
    APTA believes that effective safety oversight of public 
transportation requires a collaborative effort between Federal, 
State, and local agency partners. To that end, the existing SSO 
framework should be strengthened and provided with the tools 
and funding necessary to ensure that SSO's can utilize uniform 
standards for monitoring and auditing that are flexible enough 
to deal with new and emerging technologies. It is not enough to 
simply issue mandates and regulations--State Safety Oversight 
Agencies (SSOA) must have the resources required to carry out 
their mission. Passage of a well-funded, 6-year, multimodal 
reauthorization of surface transportation legislation that 
includes the necessary resources for a strengthened SSO 
framework and that builds upon consensus based industry 
standards will be the most effective way to make immediate 
transit safety improvements.
    Also of critical importance to achieving safety goals is 
that the next authorization of surface transportation law must 
provide the needed resources to ensure that public 
transportation assets achieve a state of good repair or better.

Q.2. There seems to be some consensus that reauthorization 
should establish national goals for the surface transportation 
program and that State, regional, and local performance 
measures should be tied to those goals. Does APTA have a 
specific proposal for national goals and local performance 
measures for public transportation? What kind of framework 
should States, regions, and localities use to implement 
performance measures for transportation planning and 
programming that advance congressionally identified national 
goals? Finally, how would this approach respect local 
priorities on the ground while preserving the integrity of 
national goals?

A.2. In its recommendations on the development of a new Federal 
surface transportation authorization bill APTA identified a 
number of goals that should be included as part of a national 
transportation policy which recognizes public transportation 
needs and benefits. APTA believes that the bill should help 
every metropolitan region to operate a high-capacity, high 
quality, energy efficient, environmentally responsible public 
transportation system, with a choice of travel options 
available to Americans in all regions. It should support public 
transportation investment that accommodates a doubling of 
public transportation ridership over the next 20 years. It 
should be part of a national strategy to strengthen the economy 
and promote energy independence, improve air quality, address 
climate change, and provide mobility choices, and it should 
serve national defense needs by providing mobility options in 
emergencies.
    APTA supports performance measures and accountability that 
ensure the efficient and transparent use of Federal funds and 
supports national goals, but such measures must recognize the 
differences between different types of transit agencies and 
different communities. For example, it does not make sense to 
compare ridership growth in a small community with a new 
transit system or new commuter rail operation with such growth 
in an older city with a transit rail system already operating 
at close to capacity levels. We also urge Congress to establish 
performance measures that serve national goals, but do not 
create unnecessary or counterproductive administrative burdens 
or reporting requirements.
    Any performance based program established at the Federal 
level should:

  <bullet>  Acknowledge the significance of State and local 
        funding contributions and the need for local authority 
        in establishing the performance objectives and 
        priorities.

  <bullet>  Recognize that many regions include numerous 
        transit systems with disparate funding sources and that 
        performance measurement requirements should take into 
        account this complexity when developing requirements.

  <bullet>  Protect and recognize the critical need for 
        predictable funding levels.

Q.3. We can address a number of interconnected challenges 
through public transportation: economic development, job 
creation, reducing our dependence on oil, creating more 
equitable communities, and improving the natural environment, 
are a few. Transportation, especially transit, is multimodal 
and yet we authorize, regulate, and administer modes 
separately. How can we ensure that transit services and 
facilities provide for a variety of travel options for a 
variety of users? Is there a Federal role for highlighting best 
practices in planning, project programming, and system design?

A.3. In APTA's authorization recommendations, coordination and 
intermodalism is specifically discussed as a key priority. The 
new authorization should encourage regional transportation 
investment choices to be multimodal in nature, including:

  <bullet>  The new authorization should include language 
        stipulating that the FTA/FHWA regulations on Statewide 
        and Metropolitan Transportation Planning require fair 
        and equitable voting representation of the region's 
        public transportation operating agency or agencies on 
        the policy board and technical committees of the 
        Metropolitan Planning Organizations (or other regional 
        transportation planning bodies), regardless of whether 
        the body is newly formed or existing, no matter the 
        size of the urban region.

  <bullet>  Provision for multimodal corridor planning that 
        looks at public transportation, highway and combination 
        options, and avoids competing facilities occurring 
        simply because they draw upon different funding 
        programs or resources, which are governed by different 
        regulations.

  <bullet>  Public transportation megaprojects should be 
        eligible under the FHWA High Priority Projects program 
        in order for it to be administered and operated as a 
        fully functioning, multimodal program.

  <bullet>  Expands the use of flexible funding in making 
        regional transportation choices for all modes.

    APTA has also consistently applauded the multimodal 
approach taken through the American Recovery and Reinvestment 
Act (ARRA), in its Transportation Investments Generating 
Economic Recovery (TIGER) program and its successor programs 
and encourages this approach in a new authorization. APTA is 
also supportive of Complete Streets policies that ensure that 
streets are designed with all users in mind. APTA also 
recommends the following policies:

  <bullet>  Extend coordination requirements for federally 
        funded agency transportation programs to require the 
        development of consistent administrative policies and 
        procedures for highway and public transportation 
        projects.

  <bullet>  Increase investment in research and development 
        programs that will enhance service delivery, promote 
        ``best practices'' through technical standards, and 
        increase the operational efficiency of transportation 
        systems.

  <bullet>  Increase investment in research and development for 
        new technologies such as clean fuels, ITS enhancements, 
        and interoperable wireless communication.

  <bullet>  Continue to support University Transit Centers, 
        Project Action, the National Transit Institute, the 
        Transit Cooperative Research Program and the FTA's 
        national research program.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                      FROM DALE J. MARISCO

Q.1. While consolidation can increase the efficiency of program 
administration, important details could be overshadowed by 
bigger goals. As we consider proposals to consolidate programs 
for elderly, disabled, and low income communities, what must we 
be mindful of, so that reauthorization does not compromise our 
ability to continue to provide these populations with high 
quality service?

A.1. Response not provided.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                       FROM LARRY HANLEY

Q.1. Workforce development and succession planning are major 
challenges for an aging transit workforce. Do you think transit 
agencies are doing enough to address these issues? If not, what 
can we do in a fiscally constrained bill to address these 
issues?

A.1. No, we do not believe that nearly enough is being done in 
this area. The public transportation industry, like many 
service-based sectors in the United States, will be faced with 
major challenges in the near future. A large percentage of the 
transit workforce--both blue and white collar--will be retiring 
within the next few years. There is no pipeline of replacements 
on the horizon because the industry has a negative public image 
that hampers its ability to attract, recruit, and retain 
quality employees. And, for the existing workforce, new 
technology is rapidly changing the way transit agencies 
function, affecting every executive director, mid-level 
manager, bus driver and mechanic alike. Yet, relatively few 
programs exist to provide training to workers so that they can 
perform their jobs adequately, move up the career ladder, and 
help the Nation's transit agencies operate at maximum 
efficiency.
    According to an industry survey, driver recruitment and 
retention continues to be the greatest challenge for 63 percent 
of transit systems. Finding experienced labor trails only 
funding costs and concerns as transit agencies' top concern.
    Yet, funding for training and career ladder programs within 
the transit industry is virtually nonexistent. By way of 
comparison, the Paris, France, Metro system spends 
approximately 8 percent of its funding on training. For U.S. 
transit systems, the average system uses less than 1 percent.
    The ATU and APTA support the Transportation Job Corps Act 
of 2011 (H.R. 929, Nadler) groundbreaking legislation that 
would finally address the training needs of the public 
transportation industry and serve to provide disconnected youth 
outside the industry with an incentive to pursue careers in 
transit.
    We understand the constrained fiscal environment in which 
the reauthorization bill is being written. However, the Job 
Corps Act will not break the FTA's budget.
    The bill would simply authorize the creation of 10 new 
regional Joint Workforce Development Councils--one for each FTA 
region. The councils, made up of equal numbers of labor and 
management representatives, would be responsible for setting up 
a process to offer workforce development programs to transit 
agencies in each of the FTA zones.
    The primary purpose of this program would be to identify 
skills gaps in transit agency maintenance departments and to 
develop programs to train maintenance employees on a regional 
basis, rather than one agency at a time. The councils would 
also develop programs--outside of the traditional collective 
bargaining environment--to address the recruitment and 
retention of white and blue collar workers as well as programs 
to deal with Family Medical Leave Act issues, including 
absenteeism, ergonomics, ``well care'' programs, child care and 
other employment-linked services, and other matters.

Q.2. Whether you are in South Dakota, Alabama, or New Jersey, a 
bus is a bus is a bus. At the same time, transit environments--
geography, technology, community types, etc., differ from one 
another. Is it possible to take a standardized approach to 
workforce development that responds to national needs and is 
also flexible enough to be useful across a spectrum of public 
transportation agencies?

A.2. Yes, and we believe the Job Corps Act does exactly that.
    The bill directs the Secretary of Transportation, acting 
through the Administrator, to establish programs for the award 
of grants to: (1) nonprofit organizations and educational 
institutions to introduce disconnected youth (ages 16 through 
24 who are out of school and unemployed) to careers in the 
transit industry by providing them with basic skills education 
and preapprenticeship skills; (2) partnerships of transit 
agencies and unions representing nonmanagerial employees, as 
well as providers of management and technical programs for 
managerial employees, to develop education programs to improve 
job skills of transit employees and to provide education and 
training to assist individuals to enter the transit profession; 
and (3) the same or similar partnerships to develop special 
projects to increase education opportunities for disadvantaged 
transit industry individuals, including racial and ethnic 
minorities underrepresented in transit management, by providing 
student scholarships, preentry preparation, and retention 
activities.
    These modest programs, in combination with the structure 
provided through the councils, would address workforce issues 
that are common throughout U.S. transit agencies in a manner 
that is consistent with local needs.
    In addition, through a new National Joint Workforce 
Development Council, the bill would allow for the sharing of 
innovative workforce development solutions between regions. We 
believe this bill can be a model for labor-management 
partnerships, not only in the transportation arena, but in 
other sectors as well.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SHELBY
                     FROM JAYETTA Z. HECKER

Q.1. Ms. Hecker, we heard from Administrator Rogoff regarding 
the Administration's proposal to increase public transportation 
funding. What we did not hear however, was how the 
Administration plans to pay for their proposal or whether such 
a significant increase in funding will supplant State and local 
funding.
    Could you address the proposed increase and how that may 
ultimately impact the funding provided by State and local 
governments?
    What will be the impact on the Trust Fund if we bring all 
public transportation spending under the Trust Fund?

A.1. Response not provided.

Q.2. Ms. Hecker, do you believe that we should encourage the 
use of innovative financing methods to advance public 
transportation capital projects given the Federal financing 
limitations we are facing?

A.2. Response not provided.

Q.3. Performance based measures seem to be the catch phrase of 
this reauthorization. Yet, the proposals I have seen thus far 
seek to collect a significant amount of data to allow 
bureaucrats in Washington to make infrastructure decisions for 
localities.
    Ms. Hecker, what is your view about the best way to 
implement performance-based measures without it becoming a 
means for central planning by bureaucrats?

A.3. Response not provided.

Q.4. Would each of you also comment on how performance-based 
measures should be used?

A.4. Response not provided.

Q.5. Each of you has addressed the need for more robust 
planning tools. However, there is a delicate balance between 
encouraging better planning that takes into account the diverse 
needs of a community, and planning that presupposes an outcome 
and drives all decision making toward that end.
    How do we ensure that any changes made to the planning 
process enhance the ability of States and localities to plan 
while still allowing them to make the decisions that work for 
their communities?

A.5. Response not provided.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MENENDEZ
                     FROM JAYETTA Z. HECKER

Q.1. Communities are often not empowered to develop the 
projects they want. Instead they often build the ``business as 
usual'' project which is almost invariably a highway project. 
Highways are appropriate in certain circumstances, but as high-
speed throughways they do not always address the needs of local 
communities as well as transit projects can. In this bill, what 
barriers can we clear or what resources can we provide to truly 
empower local communities to develop the projects that best fit 
them? What examples from around the country or abroad 
illustrate truly multimodal transportation planning at its 
best? What lessons can we apply to reauthorization?

A.1. Response not provided.

              Additional Material Supplied for the Record

    STATEMENT SUBMITTED BY TRANSIT RIDERS FOR PUBLIC TRANSPORTATION
Members: Advocates for Environmental Human Rights (New Orleans, LA), 
Atlanta Transit Riders Union (Atlanta, GA), Alternatives for Community 
& Environment/T Riders Union (Boston, MA), Bus Riders Union/Labor 
Community Strategy Center (Los Angeles, CA), Center for Race, Poverty 
and the Environment (CA), Communities United for Transportation Equity 
(New York, NY), Environmental Justice Resource Center, Clark Atlanta 
University (Atlanta, GA), Just Transition Alliance (national), Little 
Village Environmental Justice Organization (Chicago, IL), New York City 
Environmental Justice Alliance (New York, NY), OPAL Environmental 
Justice Oregon (Portland, OR), Oregon Action (Portland, OR), People 
Organized in Defense of the Earth and Her Resources (Austin, TX), 
Portland Transit Riders Union (Portland, OR), Pratt Center for 
Community Development (New York, NY), Public Advocates Inc. (CA), 
UPROSE (Brooklyn, NY), Urban Habitat (Oakland, CA), and WE-ACT for 
Environmental Justice (New York, NY).

    Chairman Johnson, Ranking Member Shelby, and Members of the 
Committee, thank you for the opportunity to present the following 
testimony on behalf of Transit Riders for Public Transportation (TRPT). 
TRPT is a national campaign of civil rights and environmental justice 
organizations dedicated to strengthening civil rights protections in 
the next surface transportation reauthorization so that all Americans, 
no matter their backgrounds or the neighborhoods they live in, benefit 
fairly from Federal transportation investments.
    Transportation is a fundamental lifeline to opportunity. When 
individuals and communities receive a fair share of transportation 
investments and services, their increased mobility opens up greater 
access to jobs, education, health services, and other necessities. In 
contrast, discriminatory transportation outcomes can lead to increased 
housing segregation, isolation, displacement, air pollution, traffic 
and pedestrian fatalities, decreased job access, and other disparities 
along racial lines. Ensuring nondiscrimination in the use of taxpayer 
dollars for transportation is as important today as when our Nation's 
first civil rights laws were enacted.
    A critical safeguard for ensuring fairness in Federal spending is 
Title VI of the Civil Rights Act of 1964, which prohibits recipients of 
Federal dollars from discriminating on the basis of race, color, or 
national origin. Implementing regulations issued by the U.S. Department 
of Transportation (USDOT) include robust protections against federally 
funded activities that have the purpose or effect of discriminating on 
the basis of race, color, or national origin.
    The effectiveness of these safeguards, however, has been 
significantly hampered by a series of judicial decisions, inadequate 
agency enforcement, and a lack of research on racial disparities in 
transportation.
    As a result of the Supreme Court's decision in Alexander v. 
Sandoval in 2001, individuals cannot enforce in court the disparate 
impact regulations issued by Federal agencies to effectuate Title VI. 
As such, Americans who are harmed by federally funded activities that 
cause unjustified racial disparities must rely solely on agency 
enforcement to obtain relief. Such relief, however, has been largely 
frustrated by woefully inadequate enforcement and a growing backlog of 
unresolved administrative complaints.
    A 2010 investigation by the USDOT Office of the Inspector General 
(OIG) has revealed widespread failures by many State highway agencies 
to ensure basic civil rights compliance, across multiple statutes, 
including Title VI, American with Disabilities Act, Equal Employment 
Opportunity, and Contractor Compliance. Nineteen State highway agencies 
were found to lack administrative systems to enforce Title VI, such as 
having adequate civil rights staff or giving staff sufficient decision-
making authority. Many States did not conduct compliance reviews of 
their subrecipients or investigate Title VI complaints filed by members 
of the public. Four States had not even signed Title VI assurance 
statements--the most basic of Federal compliance obligations. \1\
---------------------------------------------------------------------------
     \1\ See, April 22, 2010, letter from Secretary Ray LaHood to 
Assistant Special Counsel William Reukauf, available at http://bit.ly/
l4ZdGi.
---------------------------------------------------------------------------
    According to the 2009 National Civil Rights Program Baseline 
Assessment Final Report by the Federal Highway Administration (FHWA): 
\2\
---------------------------------------------------------------------------
     \2\ Available at http://bit.ly/mqEc9E.

  <bullet>  There is an organizationally fragmented approach to civil 
        rights program compliance, enforcement, and monitoring 
---------------------------------------------------------------------------
        throughout the Nation.

  <bullet>  There is a deficiency of civil rights program knowledge in 
        the field. In some cases, this includes the expertise level of 
        FHWA Division Office staff.

  <bullet>  There is weak data collection and an absence of analysis 
        and monitoring systems.

  <bullet>  Forty-seven percent of State highway agencies were rated at 
        ``high risk'' in terms of Title VI implementation, 15 percent 
        at ``moderate risk,'' and 37 percent at ``low risk.''

    The USDOT Inspector General also found that ten FHWA Division 
Offices violated USDOT's Title VI regulations by failing to launch 
investigations into noncompliance by State highway agencies. Together, 
these findings are particularly alarming since nearly 80 percent of all 
funds in the Safe, Accountable, Flexible, and Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU) is channeled through FHWA 
and State highway agencies.
    In addition, a growing backlog of civil rights complaints, 
including Title VI complaints, at USDOT is denying the ability of 
members of the public to utilize the administrative process to have 
discrimination grievances promptly investigated and resolved. As Table 
A below shows, the number of unresolved complaints at USDOT has more 
than doubled between FY2007 and FY2009.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Congress must take prompt action to restore comprehensive Title VI 
enforcement so that Federal agencies and local communities can ensure 
fairness in transportation investments. Continued research and data 
collection are also needed to identify and remove barriers to 
transportation equity.
    TRPT recommends that the surface transportation reauthorization:

  <bullet>  Provide additional funding to enhance Title VI monitoring, 
        enforcement, and technical assistance activities by USDOT.

  <bullet>  Restore the right of victims of discrimination to bring 
        suits in court to enforce USDOT's Title VI disparate impact 
        regulations.

  <bullet>  Continue funding for the Transportation Equity Research 
        Program, which supports rigorous research on the impact of 
        transportation planning and investments on low-income and 
        minority communities.

  <bullet>  Require a quadrennial assessment by the Secretary of 
        Transportation to help identify and remove impediments to equal 
        opportunity and nondiscrimination in transportation projects, 
        programs, and activities.

    Again, we thank you for the opportunity to submit our testimony for 
the record.
                                 ______
                                 
    STATEMENT SUBMITTED BY THE NATIONAL CONGRESS OF AMERICAN INDIANS

    On behalf of the National Congress of American Indians (NCAI), 
thank you for the opportunity to provide testimony on public 
transportation in Indian Country. NCAI is the oldest and largest 
national Indian organization in the United States and is dedicated to 
protecting the rights of tribal governments to achieve self-
determination and self-sufficiency. NCAI looks forward to working with 
Members of this Committee to enhance public transportation 
infrastructure for Indian Country.
    All transportation infrastructure including transit is important to 
economic growth in Indian Country. Tribal transit is a necessary 
element to transportation infrastructure because it offers access to 
employment, health, education, and commerce for tribes. Lack of 
employment has continuously been a difficult issue for tribes. 
Currently, the unemployment rate for on-reservation Indians is 18.6 
percent, while for Alaska Native villages it is 25.1 percent. \1\ In 
addition, 15 percent of tribal members have to travel over 100 miles to 
access basic services such as a bank or ATM. \2\ The combination of 
high unemployment and the far distance to travel to access basic 
services result in a great need for public transportation in Indian 
Country and surrounding non-Indian rural communities.
---------------------------------------------------------------------------
     \1\ U.S. Census, 2005-2009 American Community Survey 5-Year 
Estimates.
     \2\ U.S. Department of Treasury Community Development Financial 
Institutions Fund, Native American Lending Study, p. 22, (2001) http://
www.cdfifund.gov/what_we_do/nacd/lending_study.asp.
---------------------------------------------------------------------------
    In 2005, the enactment of the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), 
Public Law 109-59, authorized the U.S. Department of Transportation 
Federal Transit Administration (FTA) to administer Section 5311(c), the 
``Public Transportation on Indian Reservations Program'' or as it is 
referred to as, Tribal Transit Program. The purpose of the Tribal 
Transit Program is to fund capital, operating, planning, and 
administrative expenses for public transit projects in rural tribal 
communities.
    The Tribal Transit Program provides grant transit funding through a 
national competitive process to federally recognized tribes. The Tribal 
Transit Program funding level began at $8 million for FY2006 and 
increased to $15 million for FY2010. Since the initiation of the Tribal 
Transit Program, FTA has awarded approximately 236 grants to tribes 
totaling $60 million. However, the total amount requested by tribes who 
have applied for the Tribal Transit program is approximately $189 
million. So, even though the amounts that have been awarded thus far 
are a good start on addressing the immense need for public 
transportation in Indian Country, the overall need is much greater.
    Many tribes utilize the Tribal Transit Program to begin or maintain 
their transit services on tribal lands. NCAI is conscious of the 
significant role that public transportation plays in Indian Country, 
and how much tribes rely on this transit funding to further their 
transportation infrastructure. It is important Congress continues to 
sustain the Tribal Transit Program.
    NCAI recommends the following:

  <bullet>  Funding: Increase funding for Tribal Transit Program to $35 
        million for FY2012 with stepped increases of $10 million for 
        every year thereafter to $85 million.

  <bullet>  Transit Planning: Raise the current cap for Transit 
        Planning Grants to $50,000. Currently, tribes are capped at 
        $25,000 to use for planning and design. This cap is a hindrance 
        for tribes who do not possess the financial resources to 
        initially establish a reliable transit system on their tribal 
        land.

  <bullet>  Indian Self-Determination and Education Assistance Act 
        (ISDEAA): Extend the Indian Self-Determination and Education 
        Assistance Act (ISDEAA) within FTA to allow tribes to contract 
        with FTA for the Tribal Transit Program and other transit 
        funding. Using ISDEAA agreements within FTA would ensure more 
        FTA funds are used to provide actual transit services and less 
        money is used in unproductive grants management administration. 
        Current grant conditions within FTA are often inconsistent with 
        tribal government program administration. By extending the 
        ISDEAA to FTA, it would enable tribes to gain greater 
        flexibility and sustainability in tribal transit programs.

  <bullet>  Technical Assistance: As tribal transit systems continue to 
        grow, tribal governments and Tribal Technical Assistance 
        Programs (TTAP) need additional funding to provide training and 
        technical assistance to tribal leaders and tribal transit 
        officials. Under SAFETEA-LU, Congress now provides roughly $9 
        million annually to State governments to provide research, 
        training, and technical assistance services to rural transit 
        programs, but almost none of these training resources find 
        their way to Indian country. As has been proven by the early 
        success of the Tribal Transit Program, the best way to ensure 
        that tribal governments receive a fair share of these Federal 
        resources is to make tribal governments eligible as direct 
        recipients of these funds. Given their close working 
        relationship with tribes and their proven training expertise in 
        tribal transportation matter, it is also sensible to route some 
        of these Rural Transit Assistance Program funds to the existing 
        TTAP centers to provide rural transit training and technical 
        assistance to tribal transit officials.

Conclusion
    The enactment of SAFETEA-LU allowed Indian tribes to pursue 
improved public transportation for their tribal communities; however, 
there continues to be significant need in Indian Country. NCAI is 
committed to working with this Committee and tribal governments to 
improve and build upon the successes from the last transportation 
authorization. Indian tribes recognize that transportation 
infrastructure is vital to the enhancement of Indian tribal economic 
development and to provide safe and reliable public transportation 
infrastructure to tribal communities and surrounding nontribal areas.
                                 ______
                                 
     STATEMENT SUBMITTED BY WADE HENDERSON, PRESIDENT AND CEO, THE 
            LEADERSHIP CONFERENCE ON CIVIL AND HUMAN RIGHTS

    Chairman Johnson, Ranking Member Shelby, and Members of the 
Committee: I am Wade Henderson, President and CEO of The Leadership 
Conference on Civil and Human Rights. Thank you for the opportunity to 
submit testimony for the record on the reauthorization of our Nation's 
Federal surface transportation programs.
    The Leadership Conference on Civil and Human Rights is a coalition 
charged by its diverse membership of more than 200 national 
organizations to promote and protect the civil and human rights of all 
persons in the United States. Founded in 1950 by A. Philip Randolph, 
Arnold Aronson, and Roy Wilkins, The Leadership Conference works in 
support of policies that further the goal of equality under law through 
legislative advocacy and public education.
    I applaud the Committee for holding this hearing on a matter of 
great significance to the civil and human rights community. Smart and 
equitable transportation systems connect us to jobs, schools, housing, 
health care services--and even to grocery stores and nutritious food. 
But millions of low-income and working-class people, people of color, 
and people with disabilities live in communities where quality 
transportation options are unaffordable, unreliable, or nonexistent. 
For The Leadership Conference, transportation policy is a key civil 
rights issue and one that is critical to ensuring opportunity for all. 
The choices we make with respect to Federal transportation policy--what 
we build, where we build, who builds it, what energy powers it--have an 
enormous impact on our economy, our climate, our health, and on our 
ability as a society to achieve the American Dream.
    Critical decisions about transportation policy are often made 
without the input of members of underserved communities who most rely 
on public transportation. It's not surprising, then, that 
transportation decisions and spending do not benefit all populations 
equally. As a result, the negative effects of some transportation 
decisions--dissecting neighborhoods of low-income families and people 
of color, physically isolating them from needed services and 
businesses, and disrupting once-stable communities--are broadly felt 
and have lasting effects. The report of our sister organization, The 
Leadership Conference Education Fund, ``Where We Need to Go: A Civil 
Rights Roadmap for Transportation Equity'', discusses some of these 
effects and is the first in a series of reports examining the key roles 
transportation and mobility play in the struggle for civil rights and 
equal opportunity.
    As this Committee develops the transit title of the next surface 
transportation authorization bill, there is a significant opportunity 
to lay a foundation for more equitable transportation options that will 
serve us well into the future. We urge Congress to invest in 
transportation infrastructure in a responsible manner to build a Nation 
where every person, whether in an urban area or rural hamlet, can 
participate and prosper.

Transportation Policies and Job Access
    Our transportation policy has the potential to expand economic 
opportunity for low-income and underrepresented workers by connecting 
them to highway, transit, and rail construction jobs. Transportation 
spending generates jobs for workers in the construction industry and 
also has indirect effects on job creation by increasing the efficiency 
of the transportation system and improving business productivity. At a 
time of high unemployment and unprecedented income inequality, equity 
in transportation policy is one of the most pressing civil and human 
rights issues our Nation faces.
    The pending reauthorization of our Federal surface transportation 
law is an opportunity to unleash the major job-creation potential of 
transportation-related projects. The next reauthorization should 
dedicate transportation funds to the recruitment, training, and 
retention of underrepresented workers \1\ in the transportation sector. 
Incorporating a construction careers program into the surface 
transportation authorization will create substantial opportunities for 
low-income workers to move into the middle class. The next 
reauthorization should also strengthen and enforce contracting goals 
for disadvantaged business enterprises. The construction industry was 
hit by the recession worse than any other industry. \2\ But spending 
money just to repair infrastructure or create new infrastructure is not 
enough.
---------------------------------------------------------------------------
     \1\ Of the roughly 8 million people employed in the transportation 
construction industry in 2008, African Americans comprised only 6 
percent and women comprised less than 3 percent. U.S. Bureau of Labor 
Statistics, ``Household Data Annual Averages, Table 11: Employed 
Persons by Detailed Occupation, Sex, Race, and Hispanic Origin'', 2008.
     \2\ ``Construction Employment Rises in 20 States Between October 
and November'', Associated General Contractors of America Dec. 17, 
2010; Daniel Massey, Hard Hats Among the Hardest Hit, Crain's New York, 
Feb. 28, 2011.
---------------------------------------------------------------------------
    Investing in public transportation is also an essential ingredient 
for continued economic growth. The American Public Transportation 
Association estimates that 36,000 jobs are created or supported for 
every $1 billion invested in public transportation; and every $1 
invested in public transportation generates almost $4 in economic 
benefits. \3\ Public transportation services across the country are 
being drastically cut and fares continue to rise at a time when working 
families and low-income people most need quality, affordable 
transportation options to find and retain work opportunities. More than 
80 percent of the Nation's transit systems are considering or have 
recently enacted fare increases or service cuts, including reductions 
in rush-hour service, off-peak service and geographic coverage. \4\ A 
large number of unemployed workers are transit-dependent individuals 
who can no longer get to work because of these reductions and cuts. 
Nearly 20 percent of African American households, 14 percent of Latino 
households, and 13 percent of Asian households live without a car, 
compared with only 4.6 percent of White households. \5\ The severe 
transit cuts are causing a mobility crisis, preventing transit-
dependent individuals from getting to work because their rides are 
gone. Our transportation policy could stimulate growth and opportunity 
for low-income individuals by connecting them to jobs and economic 
opportunity.
---------------------------------------------------------------------------
     \3\ ``Job Impacts of Spending on Public Transportation: An 
Update'', American Public Transportation Association, April 29, 2009, 
at http://www.apta.com/gap/policyresearch/Documents/jobs_impact.pdf.
     \4\ ``Impact of the Recession on Public Transportation Agencies'', 
The American Public Transportation Association, Survey Results March 
2010 at http://www.apta.com/resources/reportsandpublications/Documents/
Impacts_of_Recession_March_2010.pdf.
     \5\ Brookings Institution and UC-Berkeley, ``Socioeconomic 
Differences in Household Automobile Ownership Rates'' at http://
gsppi.berkeley.edu/faculty/sraphael/berubedeakenraphael.pdf. Thirty-
three percent of poor African Americans and 25 percent of poor Latinos 
lack automobile access, compared to 12.1 percent of poor whites. 
PolicyLink, ``The Transportation Prescription: Bold New Ideas for 
Healthy, Equitable Transportation Reform in America''.
---------------------------------------------------------------------------
    But we cannot get our economy back on track if millions of 
individuals are unable to travel to work. Congress should maintain 
funding for development and construction of new public transit lines, 
which provide job opportunity and low-cost transportation choices. 
Also, transit systems should be provided with flexibility to use 
Federal funds for operating costs to maintain critical services that 
keep people connected to communities.
    To help provide critically needed jobs and job access, we support:

  <bullet>  Establishing a construction careers program that would 
        target jobs to low-income workers, ensure quality job training, 
        support quality preapprenticeship training programs, and use 
        community workforce agreements.

  <bullet>  Promoting workforce development, such as the Transportation 
        Job Corps, which would create a career-ladder grant program 
        within the Federal Transportation Administration at the U.S. 
        Department of Transportation (DOT) to help existing workers 
        retain jobs in the public transportation industry, while also 
        recruiting and preparing young adults from low-income 
        communities and communities of color, who are underrepresented 
        in transit sector jobs. \6\
---------------------------------------------------------------------------
     \6\ Rep. Nadler's H.R. 929, The Transportation Job Corps Act of 
2011 would create a career ladder grant program within the U.S. 
Department of Transportation's Federal Transit Administration. The Act 
would also require FTA to establish national and regional councils to 
identify skill gaps and create programs to train an array of employees, 
including mechanics, managers, and paratransit providers.

  <bullet>  Enhancing DOT's On-The-Job Training Program to apply to 
        transit, railways, and all other surface transportation 
        projects in order to increase the workforce available to 
        complete these projects and increase the participation of 
        women, minorities, and disadvantaged individuals. \7\
---------------------------------------------------------------------------
     \7\ Currently, the program only applies to Federal Highway 
Administration-funded projects. (http://www.fhwa.dot.gov/ojtss.htm) 
States can use On-The-Job funds to provide services such as: 
preemployment counseling; orientation to the expectations and 
requirements of the highway construction industry; basic skills 
improvement; support for contractor recruiting, counseling, or remedial 
training. Funds can also be used for job site mentoring and 
postgraduate monitoring.

  <bullet>  Preserving and expanding Section 5310, which provides 
        needed transportation services for seniors and persons with 
        disabilities who cannot be reasonably accommodated by existing 
        transportation providers. We also support the Job Access and 
        Reverse Commute (JARC) program, which makes funds available to 
        provide new and expanded transportation services to enable low-
        income individuals to access job training and work. The JARC 
        program helps address the barrier of the cost of car ownership 
        by providing funds to support the development of new 
        transportation services that fill gaps in existing services. In 
        addition, we support the New Freedom program, which serves a 
        critical transportation need in the disability community. These 
        programs should be strengthened by improved oversight and 
        transparency to help nonprofit partners provide much needed 
        assistance to these communities.

Transportation Policies and Affordable Housing
    Transportation decisions have contributed to economic and racial 
segregation in our metropolitan areas. Due to the lack of affordable 
and accessible transportation services, aging Americans, including 
persons with disabilities, often remain isolated and segregated in 
their homes with few options to become integrated members of their 
communities.
    Neighborhoods that are accessible only by car are off limits to 
those who can't afford automobiles or lack the ability to drive, even 
if housing costs are within their means. The transportation 
reauthorization bill should create resources to help communities 
undertake transit-oriented development that encourages the creation of 
affordable housing and supports critical community services.
    Effective coordination of transportation and housing policy is 
essential for achieving transportation equity. Our transportation 
policies should:

  <bullet>  Reward and promote affordable housing near public 
        transportation by reforming funding programs and providing 
        station area planning grants to local communities; and

  <bullet>  Reduce transportation costs in places where housing costs 
        are low by strengthening reverse-commute systems or expanding 
        public transit service to low-income neighborhoods or 
        communities, people with disabilities, and seniors.

Transportation and Access to Affordable Health
    Inadequate access to transportation has also exacerbated health 
disparities. Isolation from health care providers has serious 
consequences for many disadvantaged communities. Low-income patients 
miss appointments--often worsening their medical problems. And low-
income people and people of color disproportionately lose out on 
educational and work opportunities due to health problems.
    The high cost of transportation forces low-income families to limit 
spending for other basic needs, including out-of-pocket health care 
expenses and nutritious food. \8\ On the other hand, accessible and 
affordable transportation options can mean the difference between 
isolation and access to quality health care.
---------------------------------------------------------------------------
     \8\ Low- and moderate-income households spend 42 percent of their 
total annual income that on transportation, including those who live in 
rural areas, as compared to middle-income households, who spend less 
than 22 percent of their annual income on transportation. Bureau of 
Transportation Statistics, Consumer expenditure Survey, 2000.
---------------------------------------------------------------------------
    Because a very small percentage of Federal funds has been used for 
affordable public transportation and for active transportation (i.e., 
walking, biking) opportunities, people without access to cars have been 
isolated from opportunities and services--including access to health 
care providers. By under-investing in walkable communities, rapid bus 
transit, rail, and bicycle-friendly roads, our policies contribute to 
high concentrations of poor air quality, asthma, \9\ pedestrian 
fatalities, and obesity in urban areas. All of these public health 
risks have disproportionately affected low-income people and people of 
color. The report of The Leadership Conference Education Fund, ``The 
Road to Health Care Parity: Transportation and Access to Health Care'', 
examines the key roles transportation and mobility play in access to 
affordable, quality health care and the health disparities created by 
inadequate access to transportation.
---------------------------------------------------------------------------
     \9\ Higher percentages of African Americans and Latinos compared 
with Whites live in areas with substandard air quality. Minority 
children disproportionately suffer from asthma; among Puerto Rican 
children, the rate is 20 percent and among African American youngsters, 
the rate is 13 percent, compared with the national childhood average of 
8 percent. The New York Times, ``For Minority Kids, No Room to 
Breathe'', Aug. 29, 2007, http://www.nytimes.com/ref/health/
healthguide/esn-asthmachildren-ess.html. People living within 300 
meters of major highways are more likely to have leukemia and 
cardiovascular disease. Bullard, R.D. Environmental Justice in the 
Twenty-first Century. The Quest for Environmental Justice. Sierra Club 
Books. San Francisco, CA (2005).
---------------------------------------------------------------------------
Civil Rights Compliance and Enforcement
    Effective and equitable transportation projects are essential to 
the well-being of transit-dependent communities by providing access to 
employment, affordable housing, education, and health care. Our next 
transportation bill should ensure vigorous enforcement of existing 
civil rights legislation and pursue improved civil rights protections 
in Federal statutes covering recipients of public funds. The bill 
should strengthen administrative enforcement of Title VI of the Civil 
Rights Act of 1964 by providing additional funding for enhanced 
monitoring, technical assistance, and enforcement activities. The need 
for enforcement is acutely felt in public transportation, where 
billions of dollars in investments are at stake, and the most 
disadvantaged communities sustain a disproportionate share of 
transportation-related burdens inhibiting their access to affordable, 
accessible, and reliable transit.
    The Leadership Conference on Civil and Human Rights recommends that 
the surface transportation reauthorization:

  <bullet>  Expand resources to strengthen enforcement of civil rights 
        provisions to ensure that recipients of Federal funds meet 
        nondiscrimination requirements. One cause of the current 
        accountability gap is a shortage of Federal workers to 
        administer existing civil rights provisions. The bill should 
        direct more resources toward compliance reviews, technical 
        assistance, and investigation of Title VI complaints, including 
        complaints related to discriminatory language barriers in 
        transportation services. \10\
---------------------------------------------------------------------------
     \10\ Pursuant to Executive Order 13166 requires each Federal 
agency must examine the services it provides and develop and implement 
a system by which Limited English Proficiency persons can meaningfully 
access those services.

  <bullet>  Maintain the Transportation Equity Research Program, which 
        funds research projects to understand the impact of 
        transportation planning, investment, and operations on low-
        income, minority, and transit-dependent populations. \11\
---------------------------------------------------------------------------
     \11\ The Transportation Equity Research Program has funded at 
least six projects addressing research needs in a range of communities, 
e.g., research on the impact of transportation investments and land-use 
policies on the ability of innercity Detroit residents to access jobs 
and essential nonwork activities.

  <bullet>  Conduct an equal opportunity assessment to collect and 
        evaluate existing demographic data reported by DOT fund 
        recipients that would help Federal, local, and State 
        transportation officials to avoid the lapses in civil rights 
        safeguards in the construction and operation of federally 
---------------------------------------------------------------------------
        funded transportation projects.

  <bullet>  Restore the right of private individuals and entities to 
        pursue legal enforcement of DOT's Title VI antidiscrimination 
        regulations as a means of ensuring nondiscrimination in 
        transportation when Federal enforcement fails. This will give 
        local communities a tool to redress existing transportation 
        disparities while ensuring inclusive treatment and equitable 
        outcomes in future investments.

    There is much at stake for the civil and human rights community in 
the next Federal transportation bill. As Congress considers how best to 
rebuild and repair our Nation's roads, bridges, railways, and ports, 
and where and how to prioritize investments in public transportation 
and pedestrian and bicycle access, it's vital that the needs of 
communities of color, low-income people, people with disabilities, 
seniors, and the rural poor are considered.
    Thank you for your leadership on this important issue.

                 STATEMENT SUBMITTED BY MULTIPLE GROUPS

Submitted by: Alliance for Biking and Walking, Alternatives for 
Community & Environment, Amalgamated Transit Union, America Bikes, 
America Walks, Apollo Alliance, Association of Programs for Rural 
Independent Living, Campaign for Community Change, Center for Rural 
Strategies, Change to Win, CLASP, Kirwan Institute for the Study of 
Race and Ethnicity, Local Initiatives Support Corporation, NAACP, NAACP 
Legal Defense and Educational Fund, Inc., National Association of 
County and City Health Officials, National Coalition for Asian Pacific 
American Community Development, National Complete Streets Coalition, 
National Council of La Raza, National Housing Conference, National 
Housing Trust, National Low Income Housing Coalition, Partnership for 
Working Families, PolicyLink, Poverty & Race Research Action Council, 
Public Advocates, Reconnecting America, Safe Routes to School National 
Partnership, The Leadership Conference on Civil and Human Rights, The 
National Alliance of Community Economic Development Associations, 
Transit Riders for Public Transportation, Transport Workers Union of 
America, AFL-CIO, Trust for America's Health, Wider Opportunities for 
Women, and the William C. Velasquez Institute.

    We appreciate the opportunity to submit this statement for the 
record to express our priorities for the surface transportation 
reauthorization.
    Transportation is a critical link to opportunity--connecting us to 
jobs, schools, housing, health care, and grocery stores. However, our 
inadequate, outdated, and underfunded transportation systems are 
keeping too many Americans from fully connecting and contributing to 
the national economy.

Transportation Inequity in America
    1. In America, millions of Americans live in communities where 
quality transportation options are unreliable or nonexistent.

  <bullet>  Nearly two-thirds of all residents in small towns and rural 
        communities have few if any transportation options: 41 percent 
        have no access to transit; and another 25 percent live in areas 
        with below-average transit services. \1\
---------------------------------------------------------------------------
     \1\ American Public Transportation Association.

  <bullet>  Fifty percent of older people who do not drive in the 
        United States stay home on a given day because they lack 
        transportation options. \2\
---------------------------------------------------------------------------
     \2\ Surface Transportation Policy Project.

  <bullet>  Nearly one in five Americans faces a physical challenge 
        that impacts their ability to travel for their daily needs 
        (i.e., use of wheelchair or diminished vision, hearing, or 
        physical movement). \3\
---------------------------------------------------------------------------
     \3\ U.S. Census Bureau, 2005.

  <bullet>  Nearly 20 percent of African American households, 14 
        percent of Latino households, and 13 percent of Asian 
        households live without a car. \4\
---------------------------------------------------------------------------
     \4\ Brookings Institution and UC-Berkeley, Socioeconomic 
Differences in Household Automobile Ownership Rates.

  <bullet>  Nearly 19 million working age adults, 9.4 percent of those 
        ages 16-64, have limited proficiency in English, which leaves 
        them unable to communicate effectively with transit operators 
        or read information about public transportation routes. \5\
---------------------------------------------------------------------------
     \5\ U.S. Census Bureau, American Community Survey, Public Use 
Microdata Sample, 3-Year Estimates 2007-2009.

  <bullet>  In the last year, more than 80 percent of the Nation's 
        transit systems are proposing to or already have eliminated 
        transit routes, cut service hours, increased fares, or a 
        combination of all of these. \6\
---------------------------------------------------------------------------
     \6\ American Public Transportation Association.

    2. In the midst of these challenging economic times, the 
transportation options for many Americans are becoming less and less 
---------------------------------------------------------------------------
affordable.

  <bullet>  Transportation is the second largest expense, after 
        housing, for households in the United States, surpassing food, 
        clothing, and health care costs. \7\
---------------------------------------------------------------------------
     \7\ National Complete Streets Coalition.

  <bullet>  Low- and moderate-income households spend 42 percent of 
        their total annual income on transportation, including those 
        who live in rural areas, as compared to middle-income 
        households, who spend less than 22 percent of their annual 
        income on transportation. \8\
---------------------------------------------------------------------------
     \8\ Bureau of Transportation Statistics, Consumer Expenditure 
Survey 2000.

    3. All Americans are not sharing the economic benefits of our 
---------------------------------------------------------------------------
transportation investments.

  <bullet>  While transportation represents a significant sector of our 
        workforce--one in 10 civilian jobs is transportation-related--
        women, communities of color, and low-income people are not 
        significant beneficiaries of the jobs and contracting 
        opportunities in the industry.

  <bullet>  Of the roughly 8 million people employed in the 
        construction of roads, bridges, and transit facilities in 2008, 
        only 6 percent were African American and 2.5 percent were 
        women, a much smaller proportion than their representation in 
        the overall economy. \9\
---------------------------------------------------------------------------
     \9\ Bureau of Labor Statistics 2008.

  <bullet>  Latinos often occupy the lowest-wage jobs in the 
        transportation and construction sectors, such as laborers, 
        where 43.1 percent of workers are Latino. \10\
---------------------------------------------------------------------------
     \10\ U.S. Bureau of Labor Statistics, Current Population Survey, 
2010 Annual Averages, ftp://ftp.bls.gov/pub/special.requests/lf/
aat18.txt (accessed March 30, 2011).

    4. The safety of our roads, bridges, sidewalks, and transit is a 
---------------------------------------------------------------------------
significant concern.

  <bullet>  In many neighborhoods, disconnected roadway networks, 
        poorly designed and deteriorated streets, inadequate lighting, 
        limited sidewalks, and minimal traffic enforcement place 
        residents at higher risk of injury. These risks are 
        particularly acute for communities of color--Hispanics suffer a 
        pedestrian death rate that is 62 percent higher than non-
        Hispanic whites, and African Americans suffer a pedestrian 
        death rate that is almost 70 percent than non-Hispanic whites. 
        \11\
---------------------------------------------------------------------------
     \11\ Federal Highways Administration's Pedestrian and Bicyclists 
Safety Research program, 2004.

    It does not have to be this way. The next surface transportation 
authorization is our chance to reform transportation policy to lay a 
strong foundation for future economic growth and expand opportunity for 
millions of people.

Recommendations for the Transportation Authorization
    1. Preserve and expand existing programs that fund essential 
transportation options--bicycling, walking, and public transportation, 
and provide flexibility to use Federal funds for transit operating 
assistance. Funding for biking, walking, and public transportation 
infrastructure puts people to work; provides safe, low-cost 
transportation choices; reduces dependency on oil; and leverages 
private investment. For every $1 invested in public transportation, $4 
in economic returns is generated. \12\ Transit operating assistance, 
which will allow transit operators to maintain service in these 
fiscally tough times, is vital to ensuring that Americans can benefit 
from the mobility and choice provided by safe, accessible, affordable 
transit and also that businesses can reap the economic rewards 
associated with bicycling, walking, and transit investments. These 
investments are a lifeline for people who depend on these 
transportation options, including people with disabilities, older 
adults, people in rural areas, and low-income households.
---------------------------------------------------------------------------
     \12\ American Public Transportation Association.

    2. Reform the transportation planning process to be outcome-
oriented, with equity-focused performance objectives. States and 
regions should develop strategic, performance-driven plans that expand 
opportunity and benefit economically distressed populations. 
Performance-based objectives should include: improved access to jobs 
for low-income individuals; reduced per capita transportation user 
costs for low-income individuals; and safer environments for bicycling 
and walking. Such plans, when created through a robust public 
engagement process, would foster greater accountability and 
transparency. In addition, technical assistance and demonstration 
grants, administered by the Secretary of Transportation, would help to 
build capacity for States and regions to engage in the reformed 
transportation planning process. In particular, economically distressed 
communities that typically lack the benefits of the transportation 
system could leverage these resources to plan for enhancements of the 
transportation system to ensure that projects that are critical to the 
mobility of vulnerable residents are prioritized during the 
---------------------------------------------------------------------------
transportation planning process.

    3. Expand access to transportation jobs for the chronically 
unemployed, lower-income people, women, and communities of color. This 
can be accomplished through smart, strategic investments in our 
workforce. Establishing a construction careers workforce development 
program \13\ would help the chronically unemployed, low-income, and 
other disadvantaged workers have better access to construction 
employment in the transportation sector. Additionally, expanding the 
existing On the Job Training Program \14\ to transit, railways, and all 
other surface transportation modes at the United States Department of 
Transportation (USDOT) would provide resources for apprenticeship and 
training programs targeted to move women, people of color, and other 
disadvantaged individuals into transportation jobs and increase the 
workforce available to efficiently complete transportation projects. 
The next surface transportation bill should also include a 
Transportation Job Corps, which would create a career-ladder grant 
program within the Federal Transit Administration at the USDOT to help 
existing workers retain jobs in the public transportation industry, 
while also recruiting and preparing young adults from low-income 
communities and communities of color, who are underrepresented in jobs 
in the transit sector.
---------------------------------------------------------------------------
     \13\ A similar proposal was included in HR 2454: American Clean 
Energy and Security Act and HR 4929: Enhancing Opportunities for Main 
Street Act of 2010.
     \14\ This program currently exists at the USDOT, but it is limited 
to projects funded by Federal highway dollars.

    4. Reform transportation funding mechanisms to reward projects that 
lower the housing and transportation costs of American families. 
Encouraging development around transit stations has the potential to 
significantly reduce the out of pocket transportation expenses for 
rural, suburban, and urban households. To this end, it is necessary to: 
preserve the New Starts and Small Starts programs and enhance them to 
prioritize preservation and creation of affordable housing proximate to 
regional employment centers; provide credit assistance to communities 
to accelerate construction of locally funded transportation projects 
and local infrastructure that supports affordable housing; and offer 
Station Area Planning Grants to States, regions, and local communities 
that support community development efforts that revitalize economically 
distressed areas and expand and/or preserve affordable housing near 
---------------------------------------------------------------------------
public transportation, quality schools, and job centers.

    5. Strengthen enforcement of existing civil rights provisions. 
Title VI of the Civil Rights Act of 1964, which prohibits 
discrimination on the basis of race, color, or national origin, is an 
important tool for increasing fairness and accountability in the 
transportation system. Recipients and sub-recipients of Federal 
transportation funds must comply with Title VI. However, recent 
investigations \15\ at the USDOT have documented the broad failure of 
many State highway departments to implement basic antidiscrimination 
provisions. These findings illustrate the need for: dedicated resources 
to ensure that recipients of Federal funds meet nondiscrimination 
requirements, including addressing complaints related to discriminatory 
language barriers in transportation; \16\ maintaining the 
Transportation Equity Research Program, which provides valuable 
research for State Departments of Transportation and other 
transportation agencies for assessing the impact of their proposals on 
low-income households, communities of color, and transit-dependent 
populations; \17\ and implementation of an Equal Opportunity Assessment 
to collect and evaluate key information every 4 years, to aid USDOT, 
Federal, local, and State transportation officials in upholding civil 
rights safeguards and promoting more equitable transportation 
investment.
---------------------------------------------------------------------------
     \15\ Results of a 2010 Office of the Inspector General report on 
the U.S. DOT's Federal Highway Administration: OSC File #10-44-DI-09-
0965, available at http://www.osc.gov/FYpercent202010percent20A.html.
     \16\ Executive Order 13166 requires each Federal agency to examine 
the services it provides and develop and implement a system by which 
Limited English Proficiency persons can meaningfully access those 
services.
     \17\ The Transportation Equity Research Program has funded six 
projects addressing research needs in a range of communities, e.g., 
research on the impact of transportation investments and land-use 
policies on the ability of inner-city Detroit residents to access jobs 
and essential nonwork activities.
---------------------------------------------------------------------------
Americans Believe That Investment in Transportation Is a National 
        Priority
    A 2011 poll \18\ commissioned by the Rockefeller Foundation 
includes several key findings that demonstrate Americans' support for 
reform of and investment in our Nation's transportation system:
---------------------------------------------------------------------------
     \18\ Survey Methodology: From January 29 to February 6, 2011, Hart 
Research (D) and Public Opinion Strategies (R) conducted a national 
survey of voters on behalf of the Rockefeller Foundation. The firms 
interviewed 1,001 registered voters, including 200 voters who have only 
a cell phone. The data's margin of error is +/-3.1 percentage points 
for the full sample, and higher for subgroups of the sample.

  <bullet>  Two out of three voters say that improving the country's 
        transportation infrastructure is highly important. Nearly half 
        of all voters said that roads are often or totally inadequate 
---------------------------------------------------------------------------
        and that only some public transportation options exist.

  <bullet>  Eighty percent of voters agree that Federal funding to 
        improve and modernize transportation will boost local economies 
        and create millions of jobs, and view it as critical to keeping 
        the United States as the world's top economic superpower.

  <bullet>  A vast majority, 80 percent of Americans, believe the 
        country would benefit from an expanded and improved public 
        transportation system and 57 percent believe that ``safer 
        streets for our communities and children'' should be one of the 
        top two priorities, if more money is to be invested in 
        infrastructure.

  <bullet>  Americans want changes in the way the Federal Government 
        invests in infrastructure and makes policy. Ninety percent 
        support more accountability and certification that projects are 
        delivered on time and fit into a national plan. Ninety percent 
        also support allowing local regions greater say in how 
        transportation dollars are used in their area.

  <bullet>  71 percent of voters think leaders in Washington should 
        seek common ground on legislation related to roads, bridges, 
        and transit systems, including 66 percent of Tea Party 
        supporters and 71 percent of Republicans. More than any other 
        issue tested, American voters would like to see compromise on 
        legislation related to transportation and infrastructure.

    Americans are ready to get back to work building our Nation's 
future. Americans are also ready for a reformed transportation 
investment that is accountable, just, fair, and equitable--a system 
that connects them to opportunities to participate and prosper in our 
Nation's economy.
    We urge the Senate Committee on Banking, Housing, and Urban Affairs 
to work with the Senate Committee on Environment and Public Works 
Committee to advance a robust transportation bill that helps to move us 
toward that vision, and to this end, we stand ready to work with you.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
